Semiannual Report on the Audit,
Investigative, and Security Activities
of the United States Postal Service
April 1 – September 30, 2009
Cover photos by Gerald Merna at the National Postal Museum in Washington, DC
www.postalmuseum.si.edu
MESSAGE FROM THE INSPECTOR GENERAL
AND THE CHIEF POSTAL INSPECTOR
In this report, the U.S. Postal Service Office of Inspector General (OIG) and the U.S. Postal
Inspection Service provide statistics and activities for the 6-month period of April 1 through
September 30, 2009. New to this issue are fiscal year summary results for October 1, 2008,
through September 30, 2009.

The first section of the report highlights audits and reviews by the OIG’s Office of Audit (OA) that
address key Postal Service risks through audit work. Postal Service executives often work closely
with their OIG counterparts to identify problems and collaborate on solutions. These efforts have
resulted in significant savings opportunities. During this period, OA issued 167 audit reports and
management advisories, and the Postal Service accepted 87 percent (187 of 216) of the OIG’s
significant recommendations.

The second section of the report features investigative work conducted by the Postal Inspection
Service and the OIG’s Office of Investigations to preserve the sanctity of the mail, protect the
integrity of postal personnel, and safeguard employees and customers.

The third section describes the Postal Inspection Service’s security investigations, projects,
and initiatives addressing protection for all postal employees, customers, facilities, revenue,
and assets. During this reporting period, Postal Inspectors and Special Agents closed 6,266
investigations. The investigations led to 3,860 arrests and more than $963 million in fines,
restitutions, and recoveries, of which more than $12.5 million went to the Postal Service.

Both the OIG and the Postal Inspection Service play a key role in ensuring America’s
confidence in the mail and maintaining the integrity and accountability of the postal system,
revenue, assets, and employees. With the support of the Governors, Congress, and Postal
Service management they will continue to help ensure that the Postal Service will exist into
the next decade and beyond.




        David C. Williams                               William R. Gilligan
        Inspector General                               Chief Postal Inspector
SUMMARY OF PERFORMANCE
April 1 – September 30, 2009
AUDIT
Reports issued                                                                                                          167
Significant recommendations issued                                                                                      216
Total reports with financial impact                                                                                      71
     Funds put to better use                                                                              $7,665,457,764
     Questioned costs1                                                                                    $1,266,278,769
     Revenue Impact                                                                                         $527,010,403
TOTAL2                                                                                                   $9,458,746,936


INVESTIGATIONS3
Investigations completed                                                                                              6,266
Arrests                                                                                                               3,857
Indictments/informations                                                                                              2,123
Convictions/pretrial diversions4                                                                                      3,928
Administrative actions                                                                                                1,440
Cost avoidance                                                                                              $112,029,808
Fines, restitutions, and recoveries                                                                         $963,126,807
                                5
     Amount to Postal Service                                                                                 $12,531,510


OIG HOTLINE CONTACTS
Telephone calls                                                                                                     47,526
E-mail                                                                                                              15,569
Virtual Front Office calls                                                                                           1,372
Standard Mail                                                                                                        1,183
Voice mail messages                                                                                                    585
Facsimile                                                                                                              318
National Law Enforcement Communications Center                                                                         295
TOTAL CONTACTS                                                                                                      66,848



1
    Includes unsupported costs of $50,354,832.
2
    The Postal Service agreed to recommendations or proposed alternative corrective actions that, if implemented,
      could result in nearly $9.5 billion in savings.
3
    Statistics include joint investigations with other law enforcement agencies.
4
    Convictions reported in this time frame may be related to arrests made in prior reporting periods.
5
    Amount included in fines, restitution, and recoveries.
TABLE OF CONTENTS
AUDIT WORK BY RISK CATEGORY ........................................................ 1
Strategic Risk .............................................................................................................................................................. 1
Financial Risk .............................................................................................................................................................. 3
Operational Risk........................................................................................................................................................... 5
INVESTIGATIONS ................................................................................. 13
Revenue and Asset Protection..................................................................................................................................... 13
Workers’ Compensation Fraud .................................................................................................................................... 15
Delay, Destruction, and Theft of Mail ........................................................................................................................... 18
Identity Theft.............................................................................................................................................................. 21
Mail Fraud ................................................................................................................................................................. 22
Money Laundering ..................................................................................................................................................... 23
Contract Fraud ........................................................................................................................................................... 23
Robberies .................................................................................................................................................................. 24
Burglaries .................................................................................................................................................................. 25
Dangerous Mail Investigations..................................................................................................................................... 26
Child Exploitation via the Mail...................................................................................................................................... 28
Narcotics Trafficking ................................................................................................................................................... 29
Official Misconduct .................................................................................................................................................... 30
Homicides, Assaults, and Threats ................................................................................................................................ 30
Executive Investigations and Internal Affairs ................................................................................................................. 31
SECURITY AND CRIME PREVENTION .................................................. 33
Security ..................................................................................................................................................................... 33
National Preparedness ............................................................................................................................................... 34
Global Security and Investigations ............................................................................................................................... 36
Cyber Intelligence ...................................................................................................................................................... 37
Consumer Education and Fraud Prevention .................................................................................................................. 39
SPECIAL FEATURES............................................................................... 2
Estimate of Postal Service Liability for Retiree Health Care Benefits ................................................................................. 2
Operational Efficiency ................................................................................................................................................. 11
OIG Kicks Off OWCP Fraud Awareness Campaign ........................................................................................................ 15
OIG Establishes a Major Fraud Investigations Division ................................................................................................... 23
APPENDICES ....................................................................................... 43
APPENDIX A — Reports Issued to Postal Service Management .................................................................................... 43
 Reports with Quantifiable Potential Monetary Benefits ................................................................................................ 44
 Report Listing .......................................................................................................................................................... 47
APPENDIX B — Findings of Questioned Costs ............................................................................................................. 50
APPENDIX C — Recommendations That Funds Be Put to Better Use ............................................................................. 51
APPENDIX D — Reported Non-monetary Benefits ........................................................................................................ 52
APPENDIX E — Reports with Significant Recommendations Pending Corrective Actions ................................................. 53
APPENDIX F — Significant Management Decisions in Audit Resolution ......................................................................... 63
APPENDIX G — Investigative Statistics ........................................................................................................................ 64
APPENDIX H — Summary of U.S. Postal Inspection Service Investigative Activities Under Title 39 USC § 3013 ................ 66
APPENDIX I — Closed Congressional and Board of Governors’ Inquiries........................................................................ 67
SUPPLEMENTAL INFORMATION........................................................... 76
Freedom of Information Act......................................................................................................................................... 76
Workplace Environment .............................................................................................................................................. 76
Jurisdiction and Laws................................................................................................................................................. 77
Acronym Guide .......................................................................................................................................................... 79
AUDIT WORK BY RISK CATEGORY
                                                                                                                                                         STRATEGIC RISK




AUDIT WORK BY RISK CATEGORY
The Office of Audit (OA) uses a risk-based planning approach to identify audit work that
will provide the best value to the Postal Service. This process identifies key areas to focus
on, and then assigns work via risk deployment. For this reporting period, OA highlights
audits and reviews that address risks in the strategic, financial, and operational areas.

STRATEGIC RISK                                                     Energy and Recycling Compliance                                        MANAGEMENT
The Strategic Risk category covers issues that impact the          OA used a checklist developed with Postal Service facility,            RESPONSE TO
                                                                   energy, and environmental managers to assess and score
Postal Service’s overarching strategic direction. Strategic
                                                                   sustainability compliance at field sites. OA found that
                                                                                                                                          AUDIT WORK
risk factors are those affecting the Postal Service’s
ability to be effective and efficient, and ensure that its         improvements are needed to increase energy awareness                   OA adheres to professional
products and services are self-sustaining and balance              in the field as only two of the 90 sites visited met basic             audit standards and
legal considerations and stakeholder views. The following          energy standards. Most of the sites can improve by setting             generally presents its
white paper and audit work represents examples of work             prescribed building temperatures and installing occupancy              audit work to management
performed in this area.                                            sensors. The Postal Service could increase energy efficiency           for comments prior to
                                                                   by complying with these low to no cost measures, and                   issuing a final report.
                                                                   save about $1 million a year. OA also found that the Postal            Unless otherwise noted in
Electrification of Delivery Vehicles                               Service can improve recycling policy awareness since of the            the selected audit work
With a large geographically dispersed vehicle fleet and            90 sites reviewed, only 22 sites met basic standards.                  discussed in this report,
short delivery routes, the Postal Service could serve                                                                                     management has agreed or
as a test laboratory for technological advancements of             Custodial Maintenance                                                  partially agreed with OA’s
electric vehicles (EV) sought by President Obama through                                                                                  recommendations and is
the Department of Energy. Due to the Postal Service’s              In fiscal year (FY) 2008, the Postal Service used
                                                                                                                                          taking or has already taken
current financial distress, government funds and vehicle           3.4 million cleaning hours more than necessary for the
                                                                                                                                          corrective action to address
to grid (V2G) revenue would likely be needed to make this          436 sites OA reviewed. The use of additional hours was
                                                                                                                                          the issues OA raised.
transition economically feasible.                                  prevalent for a variety of processing, customer service,
                                                                   and support facilities because the arbitrated custodial
In this white paper, OA determined that broad use of EVs           maintenance standard differed from custodial practices
in the Postal Service delivery fleet would be operationally        at the benchmarked organizations. For example, cleaning
feasible. Current EV technology would work well with the           at benchmark sites was limited to one time per day while
average mail delivery driving distance of about 18 miles           Postal Service standards, at times, call for cleaning on
per day. Previous delivery operation tests, under favorable        each tour. In addition, many scheduled cleaning tasks
environmental conditions within California, have shown that        overlap a lighter form of cleaning called policing, and the
the EV performance levels were adequate for mail delivery          two are largely duplicative. Sites visited also could not
ranges of up to 40 miles a day and battery technology has          validate whether management updated
advanced considerably since then, resulting in significantly       their staffing justifications annually as
increased driving distance ranges.                                 required by Postal Service policy.

V2G technology establishes a system in which battery               Additionally, larger Postal Service
stored electricity or capacity can be sold to power                facilities incur increased costs for
wholesalers when electric vehicles are plugged in for              custodial services because hourly
recharging. Since most of the Postal Service’s delivery            rates for full-time Postal Service
vehicles are parked between 5 p.m. and 8 a.m., their               custodial employees nationwide are
batteries could be used as grid regulators. This could             $21 higher than for current contractual
stabilize the electrical grid and generate revenue from            custodian rates. If management
wholesalers. Since the government investment to                    reduced cleaning frequencies and
advance battery technology and V2G technology is in its            eliminated the duplication of cleaning
infancy, OA suggests that the Postal Service phase in any          and policing activities, these sites could
electrification of its fleet so that it can capture the greatest   save $848 million over 10 years, while
possible benefits.                                                 maintaining an acceptable standard of        OA determined that broad use of electric vehicles in the
                                                                   cleanliness and safety.                      Postal Service delivery fleet would be operationally feasible.
                                                                                                                Current EV technology would work well with the average
                                                                                                                mail delivery driving distance of about 18 miles per day.




                                                                                                                                                April 1 – September 30, 2009 | 1
STRATEGIC RISK




                                              Lastly, the collective bargaining agreement in place restricts     confirmed that the business partner leased line firewalls
                                              the use of contract cleaning services to smaller Postal            effectively control access to resources on the Postal Service
                                              Service facilities. By continuing to restrict contracted           network. However, the Postal Service can improve business
                                              custodial services to small facilities, the Postal Service         partner access controls to help ensure the protection of
                                              will incur an additional $148 million in costs over the next       information resources.
                                              10 years for cleaning services.
                                                                                                                 External Public Key Infrastructure Services. Public
                                              Information Technology Security                                    Key Infrastructure (PKI) is the combination of software,
                                                                                                                 encryption technologies, processes, and services that
                                              The following two audits show how the Postal Service can           enable an organization to secure its business transactions
                                              strengthen security to further preserve the integrity of its       and communications. A PKI relies on the exchange of
                                              information and resources.                                         digital certificates between authenticated users and trusted
                                                                                                                 resources. OA found that the Postal Service generally
                                              Business Partner Connectivity — Leased Line Firewall.
                                                                                                                 managed its external PKI services in compliance with
                                              Business partners are suppliers, service providers, or
                                                                                                                 established guidance.
                                              customers that have a contractual relationship with the
                                              Postal Service, many of which require connectivity to the
                                              internal network from their respective facility. The Postal
                                              Service maintains 866 business partner connections
                                              associated with about 400 business partners. OA’s review

                                               ESTIMATE OF POSTAL SERVICE LIABILITY FOR RETIREE HEALTH
                                               CARE BENEFITS
                                               The Postal Accountability and Enhancement Act of 2006 (Postal Act of 2006) requires the Postal Service to prefund its
                                               retiree health care benefits by paying an average of $5.6 billion per year for 10 years into a newly-created Department
                                               of Treasury fund: the Postal Service Retiree Health Benefits Fund (PSRHBF). The payments were not based on actuarial
                                               considerations; they stemmed from the need to be budget neutral over a 10-year period ending in 2016.

                                               The OIG hired an actuarial consultant (Hay Group) to assess the reasonableness of the Office of Personnel Management’s
                                               (OPM) assumptions used to estimate the Postal Service’s liability for retiree health care benefits. OPM assumed that
                                               the health care cost inflation rate will average 7 percent annually for all future years. The Hay Group surveyed Fortune
                                               100 companies, state and local governments, and publicly owned utilities to determine the average health care inflation
                                               rate they used when they estimated future retiree health care liabilities. The Hay Group found that the average health
                                               care inflation rate used by these sectors was about 5 percent and concluded that the 7 percent OPM assumption was
                                               unreasonably high. The Hay Group then developed estimates of the Postal Service’s 2016 retiree health care liability
                                               using both the OPM 7 percent assumption and the 5 percent estimate obtained from their sample and compared them
                                               to the estimated 2016 value of the PSRHBF.

                                               Under the OPM assumption, and following the Postal Act of 2006 payment schedule, the Postal Service will have
                                               an unfunded retiree health care liability of $25.7 billion in 2016 (80 percent funded). Under the 5 percent health
                                               care inflation rate assumption, the Postal Service will overfund its retiree health care liability by $13.2 billion (115
                                               percent funded).

                                               The Hay Group estimated that with a 5 percent health care inflation rate, the 2016 $25.7 billion unfunded liability
                                               could be reached by annual payments of $1.57 billion per year instead of the $5.6 billion required by the Postal Act
                                               of 2006. This means that the Postal Service could pay about $4 billion less per year and still achieve the same 2016
                                               PSRHBF funding status as estimated using OPM assumptions. The net present value of the interest savings from the
                                               reduced payment schedule was $5.95 billion. Using the 5 percent health care inflation rate in the estimation of the
                                               Postal Service’s retiree health care liability would greatly assist the Postal Service in dealing with its current financial
                                               crisis. Management agreed that the savings would be substantial.

                                               Subsequent to the issuance of OA’s report, Congress passed HR 2918, the Continuing Appropriations Resolution,
                                               2010 (Public Law 111-68), which provided temporary relief from the payment schedule for one year. This reduced the
                                               September 30, 2009, payment significantly to $1.4 billion.




2 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                            FINANCIAL RISK




FINANCIAL RISK                                                     Delegations of Authority Oversight
The Financial Risk category includes issues that have a clear      The Postal Service has the power to issue Delegations of
financial impact, particularly those related to cost control and   Authority (DOA) to give individuals the authority to perform
revenue generation. The greatest opportunities to reduce           contractual actions on its behalf. The Postmaster General
financial risks are in the areas of maximizing the cost-           and Vice President of Supply Management have stressed
effectiveness of contracts, and improving internal controls in     that a rigorous DOA business process is necessary to
financial systems, processes, and benefit programs.                protect the Postal Service’s interest because DOAs allow for
                                                                   contracts and agreements to be entered into outside of the
The Postal Service faces a critical financial risk as it, like     normal purchasing process.
other companies, deals with the economic slowdown
affecting the nation. While the Postal Service made progress       Estimated expenditures for goods and services purchased
in reducing costs, the possibility of further declines in          through DOAs totaled about $208 million in FYs 2007 and
volume means that it is still confronted by a major challenge      2008. OA reviewed the DOA oversight process and found
to find ways to cut costs and increase revenues.                   that, although the Postal Service established and followed
                                                                   procedures for approving DOAs, once contractual authority
                                                                   was delegated, the Postal Service did not have adequate
Maximizing the Cost-Effectiveness                                  controls to ensure appropriate financial due diligence and
of Contracts                                                       that the principles guiding the DOAs were met.
OA issued 12 contract-related audit reports, which
identified unsupported and questioned costs of more than           Prior reviews of individual DOAs reported significant
$20 million. This information was provided to contracting          weaknesses in administering the associated agreements.
officers for their consideration in negotiating the best terms     Since significant disbursements are associated with these
for the Postal Service.                                            DOAs and oversight controls are deficient, OA reported
                                                                   $191.2 million as disbursements at risk. Management
An audit of a multi-million dollar firm fixed price proposal       agreed that improvements were needed; however, did not
determined that the entire proposed amount was                     agree with OA’s risk assessment.
unsupported questioned costs because the contractor
did not provide adequate cost and pricing data. Another            Flats Sequencing System
audit disclosed more than $3 million in questioned costs.          Contractual Remedies
A subcontractor analysis showed more current material
quotes were available and a technical analysis determined          To automate the sortation of flat mail, the Postal Service
questionable labor hours.                                          is developing the Flats Sequencing System (FSS). OA
                                                                   evaluated the adequacy of contractual actions for the FSS
Additional examples of work in this area include the               contracts and determined that management of the contract
following.                                                         process resulted in increased financial risk.

Q   An audit of a multi-million dollar price proposal for an       In one instance, the Postal Service withheld a $500,000
    update of a mail processing system disclosed more than         payment to a contractor for a preproduction machine. The
    $3 million in questioned costs. The contractor did not         Postal Service was supposed to continue to withhold the
    consider reductions to subcontract proposed costs that         payment until requirements in the Statement of Work were
    would likely be achieved during subcontract negotiations.      met. However, although these requirements were not met,
    In addition the proposed burden rate was questioned.           Postal Service personnel determined that the withheld
                                                                   payment would be used to negotiate preproduction
Q   An audit of a $3 million equitable adjustment
                                                                   machine enhancements that they felt would later benefit
    proposal — based on mail sorting inefficiencies due to
                                                                   the production machine and made the payment. The
    nonconforming mail, excess staffing during holidays,
                                                                   production machine failed to achieve nearly all of the
    and erratic truck schedules at a Surface Transfer
                                                                   performance requirements during first article testing. Per
    Center — disclosed questioned costs of more than
                                                                   the terms of the contract, title to the material purchased
    $2 million. The contractor did not base the entire
                                                                   by the contractor using these funds does not transfer to
    amount of the proposed truck schedule changes on
                                                                   the Postal Service until the Postal Service accepts the
    an analysis of excess staffing and a technical analysis
                                                                   FSS first article and production machines. Furthermore,
    determined questionable hours.
                                                                   the Postal Service subjectively increased the amount
                                                                   of financial liability by $61.7 million in the event of
                                                                   termination for convenience.




                                                                                                                                  April 1 – September 30, 2009 | 3
FINANCIAL RISK




                                                                                                                 OA reviewed financial reporting requirements and
                                                                                                                 f
                                                                                                                 found that in general, the Postal Service provided the
                                                                                                                 a
                                                                                                                 appropriate  amount and type of financial reporting
                                                                                                                 information to stakeholders through its annual and
                                                                                                                 q
                                                                                                                 quarterly SEC-type reports.

                                                                                                                 H
                                                                                                                 However,   for the PRC and other regulatory stakeholders,
                                                                                                                 d
                                                                                                                 disclosure   of certain monthly financial information was not
                                                                                                                 a
                                                                                                                 appropriate   since it does not go through rigorous financial
                                                                                                                 reporting processes to ensure the integrity of the financial
                                                                                                                 d
                                                                                                                 data. In addition, this data is submitted on a more frequent
                                                                                                                 b
                                                                                                                 basis than is required for similar government agencies and
                                                                                                                 p
                                                                                                                 publicly traded companies and is more likely to place the
                                                                                                                 P
                                                                                                                 Postal Service at a competitive disadvantage. Two of these
                                                                                                                 monthly reports submitted by the Postal Service to the PRC
                                                                                                                 w not posted to the Internet or otherwise made available
                                                                                                                 were
                                                                                                                 t the general public until August 2009, and, as a result,
                                                                                                                 to
                                                                                                                 w not subject to the concerns previously discussed.
                                                                                                                 were
                                                                                                                 H
                                                                                                                 However,   in August, under a new rule, the Postal Service
                                                                                                                 s
                                                                                                                 submitted,   and the PRC posted, redacted versions of them
                                                                                                                 t its website. Due to the expressed concerns, OA believes
                                                                                                                 to
                                                                                                                 t these reports should also not be disclosed.
                                                                                                                 that

To automate the sortation of flat mail, the Postal Service is developing the Flats Sequencing System (FSS). OA   Officer Compensation
evaluated the adequacy of contractual actions for the FSS contracts and determined that management of the        The passage of the Postal Act of 2006 imposed a new limit
contract process resulted in increased financial risk.                                                           on total compensation for officers of the Postal Service
                                                                                                                 and established total compensation to employees at three
                                              As of March 31, 2009, the Postal Service paid the                  levels. Specifically, the first limit provides that no officer or
                                              contractor $53.3 million for the preproduction contract            employee may be paid compensation at a rate in excess
                                              and $266.7 million for the production contract. They               of the rate for level I of the Executive Schedule. This
                                              spent another $241 million on other FSS related contracts          compensation limit was set at $191,300 for calendar year
                                              bringing the total expenditures on the FSS program to              (CY) 2008.
                                              about $561 million.
                                                                                                                 With the approval of the Board, however, the Postal Service
                                              Management generally agreed with OA’s recommendations,             may develop a program to award a bonus or other reward in
                                              but stated that the actions taken were appropriate business        excess of the above compensation limit; as long as this does
                                              decisions. They further stated that the actions taken              not cause the total annual compensation paid to the officer
                                              were made in collaboration with internal stakeholders,             to exceed the total annual compensation payable to the
                                              executed in the best interest of the Postal Service, and fully     Vice President of the United States as of the end of the CY
                                              documented in accordance with their contracting policies.          in which the bonus or award is paid. In approving any such
                                                                                                                 program, the Board must determine that the bonus or award
                                              Financial Reporting Transparency                                   is based on a performance appraisal system that makes
                                              The Postal Act of 2006 created the Postal Regulatory               meaningful distinctions based on relative performance. This
                                              Commission (PRC) as an independent regulatory agency               total compensation limit was $221,100 for CY 2008. In
                                              with oversight of the Postal Service. The PRC was charged          addition, the Board may allow up to 12 officers or employees
                                              with developing accounting practices and procedures for            of the Postal Service in critical senior executive or equivalent
                                              the Postal Service and assuring transparency through               positions to be paid total annual compensation up to
                                              periodic reports. Consequently, the Postal Service now files       120 percent of the total annual compensation payable to the
                                              multiple financial reports — some containing information           Vice President of the United States as of the end of the CY
                                              prescribed by the Securities and Exchange Commission               in which such payment is received. This compensation limit
                                              (SEC) — with the PRC. In April 2009, the PRC issued rules          was $265,320 for CY 2008.
                                              requiring the Postal Service to file 3 monthly financial
                                              reports in addition to those already required.




4 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                     OPERATIONAL RISK




OA audited compensation paid or deferred to officers             OPERATIONAL RISK
for CY 2008 and found that the Postal Service complied
with the stated compensation limits. OA also found that          The Operational Risk category focuses on issues related
six of the 49 officers were allocated a total of more            to the day-to-day operations of the Postal Service. These
than $480,000 in deferred compensation during 2008.              risk factors potentially affect the Postal Service’s abilities
The amounts deferred for the six officers ranged from            to provide timely, reliable delivery and customer service
$702 to $236,264. Officers may be granted deferred               across all access points. Operational risk factors involve
compensation, defined as compensation that is paid after         the quality of postal services and the end-to-end service
termination of their employment provided that it does not        performance of all mail, as well as the assurance that
conflict with either the Federal Employees’ or Civil Service     postal products and services meet customer expectations
Retirement Systems.                                              by being responsive, consistent, and easy to use.

Relocation Policy                                                Performance-Based Incentive Programs for
At the request of Congress, OA audited the Postal Service’s      Sales Employees
relocation policy. In CY 2008, the Postal Service spent          OA assessed the Postal Service’s approach to assigning
$73 million in relocation costs related to more than             sales accounts to employees and the method used
2,000 employees. According to the Worldwide Employee             for assigning revenue to accounts, and found that
Relocation Council Relocation Assistance Survey, the             management did not provide guidance on factors that
average cost to relocate a current employee homeowner            field managers should consider in assigning accounts
was $76,600 in CY 2007, with many companies paying               to these employees. OA benchmarked sales employees’
well above $100,000 per home-owning transferee. The              compensation with other organizations, and found that
Postal Service’s average relocation cost for an employee         trends for the Postal Service’s performance incentives
homeowner was $45,254 in CY 2008.                                were not comparable to trends and incentives at other
                                                                 organizations and did not align with overall business results.
Although the Postal Service’s average cost to relocate an        Finally, managers awarded incentives based on revenue
employee homeowner is less than the industry average, in         that did not result from their sales efforts. Management
light of the serious financial difficulties the Postal Service   terminated the Sales Compensation Incentive Plan effective
is facing, significant reductions in relocation expenses         February 20, 2009, and stated that they are developing a
could free up funds for more critical operational purposes.      new program in consultation with the National Association
Underlying the cost of relocating employees was the fact         of Postal Supervisors.
that the Postal Service did not have a national policy for
determining when it would advertise a vacancy locally
versus nationally, and whether or not to limit relocation
expense benefits in specific circumstances. The Postal
Service revised their relocation policy effective August
13, 2009. While the revision did not address all of OA’s
concerns, it represents a significant effort to reduce overall
relocation costs and align the Postal Service more closely
to the rest of the federal government.




                                                                 OA benchmarked sales employees’ compensation with other organizations, and found that trends for the
                                                                 Postal Service’s performance incentives were not comparable to trends and incentives at other organizations
                                                                 and did not align with overall business results. Pictured are two Postal Service products being sold.




                                                                                                                                                April 1 – September 30, 2009 | 5
OPERATIONAL RISK




                                              Mail Processing Equipment                                          on how to handle resolved cases when customers cannot
                                                                                                                 be contacted. Properly resolving customer complaints is
                                              The Postal Service identifies one of its most significant
                                                                                                                 necessary to prevent customer alienation and adverse
                                              risks as the loss of revenue. The Postal Service processes
                                                                                                                 impact to the Postal Service brand.
                                              First-Class Mail letters using mail processing equipment
                                              (MPE) in processing and distribution centers across the            Auditors recommended that management revise the
                                              country. OA tested some of this equipment and determined           customer complaints standard operating procedures (SOP)
                                              that the Postal Service is at risk of revenue loss and fraud.      to incorporate a quality control process requiring managers
                                              Working with the Postal Service, OA projected more than            to review closed cases to ensure they were properly
                                              $100 million a year in revenue loss resulting from postage         resolved and documented, provide employees guidance on
                                              deficiencies on First-Class Mail single piece letters.             how to handle resolved complaints when customers cannot
                                                                                                                 be contacted, and reiterate to employees the importance
                                              Aviation Security                                                  of complying with the SOP. Management generally agreed
                                              OA audited the Postal Service’s Aviation Security                  with OA’s recommendations; however, they took exception
                                              (AVSEC) program at critical Postal Service facilities and          to the statement that officials did not resolve 50 percent of
                                              contract postal units (CPU) and identified internal control        the FY 2008 “Did Not Receive Mail” complaints, asserting
                                              weaknesses that place critical postal service assets at risk.      that they could not verify OA’s projection.

                                              OA recommended that the Postal Service issue supplemental          Delivery Operations
                                              guidance, establish and implement internal controls, and
                                                                                                                 About 280,000 city and rural letter carriers, and 6,000
                                              develop performance measures to improve the performance
                                                                                                                 highway route contractors, delivered 177 billion pieces of
                                              and effectiveness of the AVSEC program. OA also
                                                                                                                 mail to more than 149 million delivery points in FY 2009. To
                                              recommended that the Postal Service provide guidance to
                                                                                                                 accomplish this monumental task, the Postal Service uses
                                              clarify and communicate contracting officer‘s representatives
                                                                                                                 various mail processing systems to help reduce operating
                                              (COR) roles and responsibilities; require aviation security
                                                                                                                 costs, improve accuracy and speed of delivery, and
                                              reviews at CPUs, and ensure proper transition of COR
                                                                                                                 contribute to improved customer satisfaction. Two examples
                                              responsibilities when changes occur. Management generally
                                                                                                                 of audit work in this area follow.
                                              agreed with the recommendations, but disagreed with the
                                              methodology used to quantify the assets at risk.                   Delivery Point Sequencing. The Delivery Point
                                                                                                                 Sequencing (DPS) system processes and sorts bar-coded
                                              National Rural Mail Count                                          letter mail at the plants and units so the carrier can take
                                              Due to the continuing decline in mail volume, Postal               the mail directly to the street without manual sorting in the
                                              Service officials decided that all rural routes would be           office. OA assessed whether the Postal Service adequately
                                              counted in the 2009 National Rural Mail Count. During              implemented processes and key oversight controls to
                                              the mail count, officials identify the number and type of          increase and sustain city delivery DPS percentages and
                                              pieces of mail delivered, collected, or handled on rural           reduce costs and found that while the national DPS
                                              routes for compensation purposes. OA found that the                percentage on average increased from 82 percent in
                                              Postal Service generally followed these procedures and             FY 2007 to 91 percent in FY 2009, management did not
                                              processes during the 2009 mail count. However, some                always implement processes or oversight controls.
                                              routes were not counted and certain mailpieces were not
                                              always properly classified. As a result the Postal Service         Flats Sequencing System. The FSS is designed to
                                              could incur unnecessary costs for the remainder of                 perform automatic sequencing function for flat sized mail
                                              FY 2009 and FY 2010.                                               which includes large envelopes, newspapers, catalogs,
                                                                                                                 circulars and magazines. OA assessed the effects of
                                                                                                                 FSS testing on delivery operations and operating costs
                                              Customer Complaints                                                at selected Northern Virginia District delivery units. OA
                                              OA found that Postal Service officials closed almost all           determined that net cost reductions for the selected
                                              customer complaints they received in FY 2008 within                delivery units totaled about $1.3 million. However, during
                                              the established timeframes, but did not always take                the FSS 6-month testing period, flat mail volume in these
                                              appropriate actions to resolve the complaints. For example,        selected locations declined by 50 percent, so we could not
                                              OA determined that officials did not resolve 50 percent of         determine how much of the operational gains were due to
                                              FY 2008 “Did Not Receive Mail” complaints. In addition,            the implementation of FSS. OA did not find any adverse
                                              Postal Service policies instruct employees not to close            effects on delivery operations.
                                              customer complaints until the customer has been contacted
                                              with the final resolution, but did not instruct employees




6 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                      OPERATIONAL RISK




Fuel Management                                                    Fuel Management Purchasing Initiatives. OA assessed
                                                                   the effectiveness of the Postal Service’s fuel management
The Postal Service operates one of the largest civilian
                                                                   initiatives in controlling fuel costs. The Postal Service
ground transportation fleet in the world, with about
                                                                   has taken positive steps in developing a fuel strategy to
219,000 delivery, transportation, and other vehicles;
                                                                   promote efficiencies and realize cost savings in purchasing
and has highway transportation contracts with more
                                                                   fuel. However, the Postal Service has not yet fully
than 10,500 suppliers. The Postal Service spends about
                                                                   planned and implemented the Postal Service’s National
$1.6 billion annually on fuel for their ground transportation
                                                                   Fuel Purchasing Strategy to ensure accomplishment of
network. Each year, the Postal Service’s owned and
                                                                   desired outcomes and placed the fuel strategy on hold
contracted surface transportation vehicles travel about
                                                                   because of its financial condition and other competing
3 billion miles to transport and deliver mail, and use
                                                                   priorities. As a result, the Postal Service incurred about
more than 400 million gallons of diesel fuel and gasoline.
                                                                   $20 million in unnecessary fuel acquisition costs since
Following are three audits in this area.
                                                                   August 2008. Management did not
Fuel Management Consumption Strategies.                            agree to the $20 million in monetary
OA assessed the effectiveness of the Postal Service’s              impact, stating that they have been
consumption strategy for reducing the use of fuel within           fully engaged in implementing several
surface network operations. OA determined that the Postal          other strategies where the financial
Service has taken positive steps to implement a strategy to        benefits were greater.
reduce fuel consumption within surface network operations
mainly by eliminating excess transportation capacity and           Assessment of Overall Plant
exploring the expanded use of alternate fuel vehicles.             Efficiency
However, the Postal Service could implement a more
                                                                   Mail processing is an integrated
effective fuel strategy by adopting some key industry best
                                                                   group of activities required to sort
practices to increase fuel efficiency and reduce overall
                                                                   and distribute mail for dispatch and
fuel use such as, fuel-efficient advanced aerodynamic
                                                                   eventual delivery. Post offices, stations,
equipment, proper tire pressure, and truck speed limits.
                                                                   and branches send outgoing mail to
OA estimated that the Postal Service could reduce fuel use
                                                                   processing and distribution centers
by more than 25 million gallons annually, if these practices
                                                                   (P&DC) for processing and dispatch for
are implemented, resulting in more than $364 million in
                                                                   a designated service area. Efficiency
costs avoided over a 10-year period. Management generally                                                       Auditors determined that the Postal Service has taken positive
                                                                   was assessed by benchmarking
agreed with OA’s recommendations but did not agree to                                                           steps to implement a strategy to reduce fuel consumption
                                                                   each plant’s productivity (volume
all monetary impacts, noting that savings will potentially                                                      within surface network operations mainly by eliminating excess
                                                                   per workhour) against the median
change if a full analysis incorporated all fleet variables.                                                     transportation capacity and exploring the expanded use of
                                                                   productivity level. OA’s assessment
                                                                                                                alternate fuel vehicles.
Delivery Vehicles Fuel Management. OA assessed                     determined that management has
whether the business case existed to fuel delivery vehicles        not yet fully adjusted workhours in
onsite using a mobile fueling contractor rather than               response to changes in workload, nor
continuing the current practice of carriers purchasing             achieved all possible efficiencies in
fuel at local retail vendors. OA determined that there is a        mail processing operations provided by
favorable business case for expanding the use of mobile            opportunities such as the introduction
fueling to selected delivery units. The expansion of the           of additional automation. Nearly
mobile fueling program would reduce carrier time used              $1 billion could be saved annually if
to fuel vehicles, eliminate questionable Voyager card              improvements were made in this area.
fuel expenditures and mitigate mail delays or interrupted
service due to the unavailability of fuel at local fuel vendors.   Vehicle Maintenance Facilities
OA recommended that the Postal Service consider the                The vehicle inventory in FY 2009
expansion of mobile fueling for city and rural delivery            consisted of about 219,000 delivery,
units with 30 or more routes as part of the National Fuel          transport, and administrative vehicles.
Purchasing Strategy, and reported $21 million in costs             Delivery and collection vehicles
avoided over a 10-year period. Management questioned               account for about 197,000 of the             OA’s assessment determined that management has not yet
the validity of the calculations and the ability to capture the    total fleet.                                 fully adjusted workhours in response to changes in workload,
soft costs for the $21 million cost avoidance. However, they                                                    nor achieved all possible efficiencies in mail processing
agreed to review expanding mobile fueling when and where                                                        operations provided by opportunities such as the introduction
its use is warranted.                                                                                           of additional automation. For example, mail staging areas are
                                                                                                                largely empty at the Philadelphia P&DC.




                                                                                                                                                April 1 – September 30, 2009 | 7
OPERATIONAL RISK




                                              Scheduled Maintenance Service in the Eastern Area.                  mailpieces at the Santa Clarita P&DC should have been
                                              OA assessed whether the Eastern Area accomplished                   reported as delayed mail.
                                              all required scheduled maintenance and whether they
                                              integrated both vehicle maintenance facilities (VMF) and            Postal Vehicle Service Transportation Routes
                                              local commercial resources for optimum efficiency. OA
                                                                                                                  Network transportation has two components: Postal Vehicle
                                              determined that the Eastern Area completed nearly all
                                                                                                                  Services (PVS), which uses Postal Service employees,
                                              the required scheduled preventive maintenance (SPM).
                                                                                                                  vehicles and facilities; and highway contract routes (HCR),
                                              However, the Postal Service could further optimize VMF
                                                                                                                  which is contracted transportation. Following are two audits
                                              efficiency through more effective use of VMF and local
                                                                                                                  conducted in this area.
                                              commercial resources. Since the Postal Service does not
                                              plan to replace its current fleet of long life vehicles (vehicles   Philadelphia P&DC. OA assessed whether selected PVS
                                              that are more than 20 years old) until 2018, it is critical that    vehicle operations at the Philadelphia P&DC were effective
                                              these vehicles receive timely SPMs.                                 and economical. OA determined that management is
                                                                                                                  actively reducing transportation requirements based
                                              Scheduled Maintenance Service National Capping.
                                                                                                                  on operational needs and shifting workloads. However,
                                              OA assessed the monitoring and managing of VMF
                                                                                                                  the Postal Service could more effectively manage PVS
                                              operations for effective and efficient use of resources, and
                                                                                                                  transportation processes and schedules, thereby reducing
                                                                    completeness of cost data impacting
                                                                                                                  driver workhours and associated fuel use and damage
                                                                    the overall VMF operational environment
                                                                                                                  claims. In addition, management could eliminate 24 trips
                                                                    n
                                                                    nationwide.  OA determined that VMF
                                                                                                                  from HCRs. OA recommended that the Postal Service
                                                                    m
                                                                    management     effectively completed
                                                                                                                  follow prescribed fleet management procedures for making
                                                                    th majority of required scheduled
                                                                    the
                                                                                                                  PVS schedules effective and eliminate workhours. OA also
                                                                    m
                                                                    maintenances;     however, additional
                                                                                                                  recommended the elimination of underutilized trips from
                                                                    im
                                                                    improvements     are necessary to
                                                                                                                  HCRs identified during the audit. Management agreed
                                                                    e
                                                                    ensure  that all required maintenance
                                                                                                                  with the recommendations, but did not agree with the total
                                                                    is completed and resources are used
                                                                                                                  monetary impact.
                                                                    e ciently.
                                                                    effi
                                                                                                                  Philadelphia Network Distribution Center. OA assessed
                                                                       Color-Coding of Standard Mail
                                                                       C                                          the Philadelphia, PA, Network Distribution Center’s (NDC’s)
Auditors determined that the Eastern Area completed nearly             and Mail Condition Reporting               PVS vehicle operations to determine if it was effective and
all the required scheduled preventive maintenance (SPM).                                                          economical and concluded that it was effective in moving
However, the Postal Service could more effectively use vehicle   Annually, Standard Mail accounts for
                                                                 nearly 50 percent of the mail volume             trailers and equipment. However, the NDC workhours
maintenance facilities (VMFs) and local commercial resources.                                                     assigned to yard activities did not match the productivity
Depicted here are delivery and collection vehicles in VMFs       and 27 percent of the revenue of the
                                                                 Postal Service. The Postal Service uses          standards for this function. OA recommended that
ready for SPM.                                                                                                    management verify the removal of workhours identified
                                                                 a system of color-coding to facilitate
                                                                 the timely movement of Standard Mail.            during the audit; phase out the additional workhours that
                                              The color-code process assigns a color to each day of the           management agreed were in excess of the workload; and
                                              week to enable easy processing of mail via the first-in first-      ensure that managers periodically assess PVS workload
                                              out method.                                                         and staffing requirements. Management agreed with
                                                                                                                  the recommendations, but did not agree with the total
                                              West Palm Beach and Santa Clarita P&DCs. OA                         monetary impact.
                                              assessed whether the West Palm Beach and Santa Clarita
                                              P&DCs had an adequate mail color-coding process and                 Powered Industrial Vehicle
                                              properly counted mail. OA determined that there was a               Management System
                                              generally adequate process for color-coding. However,
                                                                                                                  The Powered Industrial Vehicle Management System
                                              improvements could be made by ensuring tags are
                                                                                                                  (PIVMS) consists of intelligent wireless devices installed on
                                              complete, standard color-code tags are used and all mail
                                                                                                                  powered industrial vehicles (PIV) and client-server software
                                              has the proper color-code tag. In addition, when mail
                                                                                                                  for access control, utilization analysis, real-time location
                                              bearing different color-codes was processed together, the
                                                                                                                  tracking, and many other functions. The Postal Service’s
                                              mail was not always properly re-color-coded. Further, OA
                                                                                                                  intent for the PIVMS is to provide automated measurement,
                                              found that not all delayed mail was reported. For example,
                                                                                                                  control, and compliance reporting of PIV operations within a
                                              in February 2009, about 1.8 million mailpieces at the
A chart provides the correct color-                                                                               plant, resulting in optimal PIV safety conditions, operations,
                                              West Palm Beach P&DC; and in June 2009, about 48,000
code to label mail at the Santa                                                                                   supervision, and associated savings. Following are two
Clarita P&DC.                                                                                                     PIVMS audits conducted in this reporting period.




8 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                 OPERATIONAL RISK




Washington Network Distribution Center. OA assessed              exceeded the expected 8 hours
whether the PIVMS at the Washington, DC, NDC was                 and that one of the stations
functioning as intended and produced efficiency                  experienced major carrier
improvements. OA determined that management did not              attendance issues.
use the PIVMS because the system had been intentionally
damaged causing it to be non-functional and in need              Airport Mail Centers
of extensive repair or replacement. In addition, auditors
                                                                 The Postal Service maintains
concluded that the Washington NDC reduced workhours in
                                                                 airport mail centers (AMC) to
tow and forklift operations, but did not implement internal
                                                                 expedite the transfer of mail to
controls over vehicle safety, security, and inventory. The
                                                                 and from commercial air carriers.
damage to the PIVMS and to the facility at the Washington
                                                                 Following are AMC audits from
NDC occurred because management did not effectively
                                                                 this reporting period.
monitor employees to prevent damage.
                                                                 Chicago O’Hare AMC
Oakland P&DC. OA assessed whether the PIVMS at the
                                                                 Operations. OA determined              Automated package processing system operation at the
Oakland, CA, P&DC was functioning as intended and
                                                                 that the AMC incurred about            Chicago AMC.
produced efficiency improvements. OA determined that
                                                                 $3.5 million in unnecessary
management did not always use the PIVMS as intended
                                                                 costs due to its sack sorter and
and consequently did not realize all possible efficiency
                                                                 platform operations operating at
improvements. OA recommended that the Postal Service
                                                                 lower efficiency levels for some operations, as compared
use the PIVMS System to the fullest extent possible
                                                                 to national productivity standards or to similar operations
to manage operations and continue to improve mail
                                                                 at other facilities. OA also found that the Chicago AMC
processing efficiency, by reducing workhours in tow and
                                                                 incurred an additional $7.1 million in unnecessary costs
forklift operations, decreasing the number of PIVs, and
                                                                 due to the misalignment of some workhours with workload
providing PIVMS training to all employees that need to
                                                                 for Express Mail items and Automated Package Processing
use the system. OA reported that management could save
                                                                 System (APPS) operations. Management generally agreed
more than $14.5 million over 10 years, if the PIVMS is
                                                                 with OA’s recommendations, but did not agree with the
used as intended.
                                                                 finding on Express Mail service operational staffing.
Timeliness of Mail Delivery                                      Boston AMC Outsourcing. In many cases, AMCs have
OA conducted the following audits due to service                 excess capacity due to declining mail volumes tendered
complaints and media reports of delayed mail. Since the          to commercial air carriers. Auditors assessed operational
reports came out, significant recommendations have been          and monetary impacts of the Boston AMC outsourcing
closed, and mail delays have generally been addressed.           initiative and its compliance with policies. OA determined
                                                                 that service scores for overnight and 2- and 3-day service
Timeliness of Mail Processing at the Fort Worth P&DC.            have improved since the AMC was closed. However,
OA assessed whether mail at the Fort Worth P&DC was              the comparative analysis developed during outsourcing
processed in a timely manner and determined that delayed         planning was overstated. In addition, the Postal Service also
mail volumes increased significantly from 4 million pieces       paid unsupported parking, equipment usage, and port fees.
in Quarter 4 FY 2008 to more than 21 million pieces in           Management did not agree with the OA’s finding and stated
Quarter 1 FY 2009. This delayed mail occurred because            that the fixed price nature of the contract precluded any
of staffing shortages resulting from excessive leave usage.      opportunity for the Postal Service to assert entitlement to
The delayed mail negatively impacted customer service and        an adjustment in that regard.
increased customer complaints.
                                                                 Salt Lake City AMC Closure. OA assessed operational
Timeliness of City Delivery — Albuquerque District.              and monetary impacts of the Salt Lake City AMC closure
Auditors assessed whether the Albuquerque, NM, delivery          and evaluated its compliance with policies. OA determined
unit locations delivered mail in a timely manner. OA             that this closure decision reduced costs without impacting
determined that during Quarter 1 FY 2009, some locations         service. However, management did not perform a complete
had difficulty delivering mail in a timely manner resulting in   analysis to determine all monetary impacts, including how
service declines, customer complaints, and negative media        the facility would be used after the AMC closed.
attention. This delayed mail occurred because carriers and
clerks experienced short-term learning difficulties resulting
from management changes to route schemes to improve
efficiency. OA also noted that certain adjusted route times




                                                                                                                                            April 1 – September 30, 2009 | 9
OPERATIONAL RISK




                                                                                                                  transported on surface networks, by transporting First-Class
                                                                                                                  Mail on passenger airlines when capacity is available, and
                                                                                                                  by sorting the mail before giving it to Federal Express to
                                                                                                                  avoid sorting charges. Management agreed to the findings,
                                                                                                                  but did not agree to all monetary impacts.

                                                                                                                  Performance Goals for Market-
                                                                                                                  Dominant Products
                                                                                                                  The Postal Act of 2006 mandated the establishment of
                                                                                                                  modern service standards and performance goals for
                                                                                                                  its market-dominant products. Auditors assessed the
                                                                                                                  development and implementation processes used to
                                                                                                                  establish the performance goals for market-dominant
                                                                                                                  products and whether the Postal Service followed
                                                                                                                  regulatory requirements. OA determined that the service
                                                                                                                  performance goals for First-Class Mail were reasonable;
                                                                                                                  however, the process for Standard Mail, Periodicals, and
OA’s audit of the consolidation of the Canton P&DF (pictured here) outgoing mail operation into the Akron         package services needs improvement. In addition, the
P&DC found it improved service and reduced costs.                                                                 Postal Service complied with regulatory requirements for
                                                                                                                  establishing service performance goals, though we noted
                                                                                                                  some potential operational risks.

                                                                                                                  Sunday Mail Processing Operations
                                                                                                                  The Denver P&DC is a large mail processing facility that
                                                                                                                  processes and dispatches part or all of both incoming
                                                                                                                  mail and outgoing mail for a designated service area.
                                                                                                                  Auditors assessed whether the Denver P&DC Sunday mail
                                                                                                                  processing operations could be eliminated or streamlined.
                                                                                                                  OA determined that Sunday mail processing operations
                                                                                                                  could not be eliminated, but could be streamlined through
                                                                                                                  improving operational efficiencies and processing some
                                                                                                                  mail on Monday instead of Sunday, potentially saving more
                                                                                                                  than $38 million.

                                                                                                                  National Trailer Lease
From October 2006 through September 2008, the Southeast Area incurred about $8.6 million in                       Since FY 2000, the Postal Service entered a 12-year
unnecessary costs due to using Federal Express to move mail that could have been moved on less costly             contract with Transport International Pool (TIP), Inc., to lease
surface transportation or passenger airlines; and to paying Federal Express to sort mail unnecessarily.           4,475 trailers with an anticipated cost of $201 million.
                                                                                                                  This contract was renewed in 2006, lowering the daily cost
                                              Federal Express Transportation Agreement                            and allocating 4,692 trailers to eight Postal Service Areas.
                                                                                                                  Following is OA work conducted in this area.
                                              For FY 2008, the Postal Service made contract payments
                                              to Federal Express of about $1.7 billion to transport about         Western Area. Auditors evaluated the National Trailer
                                              1.37 billion pounds of mail. Auditors assessed whether              Lease (NTL) renewal in the Western Area. Auditors found
                                              the Postal Service’s use of Federal Express transportation          the NTL renewal was not as effective and economical
                                              was effective and economical in the Southeast Area. From            as it could have been because the Western Area did not
                                              October 2006 through September 2008, the Southeast                  have a comprehensive management plan in place to
                                              Area incurred about $8.6 million in unnecessary costs               accurately identify its trailer requirements, ensure proper
                                              due to using Federal Express to move mail that could                trailer use, and adjust trailer inventory based on continued
                                              have been moved on less costly surface transportation or            need. OA estimated that the Postal Service could save
                                              passenger airlines; and to paying Federal Express to sort           about $2.1 million in lease costs over the next 10 years,
                                              mail unnecessarily. The Southeast Area has an opportunity           if the Western Area improves its processes for trailer fleet
                                              to save about $43.4 million over the next 10 years by               management and returns unneeded trailers.
                                              not using Federal Express to transport mail that could be




10 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                         OPERATIONAL RISK




Capping Report. Since September 2004, OA issued                        Canton-Akron Processing and
eight audit reports under its NTL project covering eight               Distribution Facility
Postal Service areas. Auditors worked with Postal Service
headquarters, area, and plant transportation officials to              Responding to a congressional request, Auditors assessed
improve its management of NTL trailers, and estimated                  the consolidation of the Canton Processing and Distribution
$37.9 million in savings over the past 5 years. In addition            Facility’s (P&DF) outgoing mail operation to the Akron
to the area-specific NTL audits, OA evaluated management               P&DC. OA concluded that consolidating the Canton P&DF
processes in the NTL Capping Report. OA identified                     outgoing mail processing operations into the Akron P&DC
processes to assist the Postal Service in improving                    was a prudent business decision. OA’s analysis showed
guidance and oversight from Headquarters, including the                that the consolidation minimally impacted employees,
development of a policy to require areas to determine trailer          improved service, reduced costs through improved
requirements and manage trailer inventory and use, and                 efficiency, addressed community concerns, and supported
ensure that the supplied NTL trailers are of the appropriate           the consolidation. Additional audit work is planned for
age as specified in the lease.                                         FY 2010 addressing similar issues in other locations where
                                                                       consolidations are planned or are in process.


 OPERATIONAL EFFICIENCY
 Mail volume in FY 2008 totaled 202.7 billion pieces — a decline of 9.5 billion pieces — and it declined even further in FY 2009 to 177 billion pieces. The
 Postal Service is focused on the need for 5-day delivery, greater flexibility, and the elimination of some network infrastructure. GAO recommended urgent
 action to streamline the mail processing and retail networks, as the Postal Service no longer has sufficient revenues to cover the cost of maintaining its large
 network of processing and retail facilities.

 In many areas, the Postal Service has an excess of equipment, staff, and facilities to process a declining volume of mail. Given the harsh economic conditions
 faced by the Postal Service today, looking at opportunities to cut costs by streamlining or eliminating operations makes good business sense. To its credit, in
 FY 2009 the Postal Service reduced 115 million workhours. And from 2005-2008, the Postal Service had previously made these significant cost reductions:
 Q      Reduced about 89.9 million workhours, the equivalent of 49,900 employees.
 Q      Closed 60 airport mail processing centers/facilities and 9 remote encoding centers.
 Q      Consolidated originating mail operations at 12 P&DCs and closed one P&DC.
 Q      Realigned BMC operations.
 Q      Reduced 37 million HCR miles.
 Q      Eliminated nearly 10 million delivery workhours while absorbing 2.7 million additional delivery points.

 However, there are opportunities to do even more. Working with the Postal Service this period, OA concluded that the Postal Service could save about
 $2.6 billion by reducing costs in the following categories. The details for the work discussed in the table below are provided elsewhere in this report.

                                                                                                                                         Estimated               Monetary
 Network Optimization Area                                                                                      Operational Focus          Savings            Impact Period
 Mail Processing Operations          Increase processing efficiency by reducing 23 million workhours. See page 7.                        $969 million                    1 year
 Custodial Maintenance Operations    Eliminate excessive costs and redundancies by reducing 3.4 million workhours. See page 1.           $848 million                  10 years
 Delivery Operations                 Maximize the Delivery Point Sequencing system implementation. See page 6.                           $265 million                   2 years
 Fuel                                Adopt more effective fuel consumption and purchasing strategies. See page 7.                        $407 million                  10 years

 Transportation                      Use more cost effective transportation; optimize highway contract routes, and implement effective
                                     Postal Vehicle Service productivity standards. See page 8.                                           $64 million                  10 years
 Infrastructure                      Reassess facility closure fees and reduce workhours. See page 9.                                     $1.7 million                  5 years
 TOTAL                                                                                                                                   $2.6 billion




                                                                                                                                                 April 1 – September 30, 2009 | 11
CHAPTER TITLE




INVESTIGATIONS                                                                                INVESTIGATIONS INVESTIGATIONS
12 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                           REVENUE AND ASSET PROTECTION




INVESTIGATIONS
The Postal Service relies on the U.S. Postal Inspection Service and the OIG’s Office
of Investigations (OI) to help maintain America’s trust in the postal system. As federal
law enforcement officers, U.S. Postal Inspectors and OIG Special Agents protect
postal employees and customers, secure the mail, safeguard revenue and assets, and
maintain the integrity of postal personnel.

REVENUE AND ASSET                                                   at discount rates. In one instance, they found he had
PROTECTION                                                          reported only 3,500 pieces of First-Class Mail when
                                                                    he actually had submitted 37,426 pieces. The CEO
Postal Inspectors investigate revenue fraud committed by            also fraudulently obtained a Postal Service date stamp,
business mailers, mail preparation firms, and individual            which he used on a postal form to indicate he had paid
mailers who attempt to counterfeit or manipulate postage.           for bulk mail deliveries from his firm — though he had
Special Agents investigate employee misconduct and                  not submitted any payments. He pled guilty to mail
crimes committed by postal employees involving theft and            fraud and was sentenced in September to 18 months in
misuse of postal funds or money orders, and theft and               prison and 3 years’ supervised release, and was ordered
misuse of postal-issued credit cards.                               to pay $378,695 in restitution to the Postal Service.
                                                                Q   Postal Inspectors investigating fraudulent transactions
Revenue Protection Investigations                                   at the Postal Service’s Automated Postal Centers (APC)
Postal Inspectors work directly with Postal Service                 arrested a man in July they had nicknamed “Shades”
personnel in various functional areas to develop methods            for the sunglasses he wore to conceal his identity.
to identify revenue losses and to improve revenue fraud             The suspect allegedly used numbers from “skimmed”
detection. Employing technology to efficiently identify             (compromised) credit cards to buy nearly $500,000
revenue losses is a priority for Postal Service stakeholders        in “Forever” stamps from APCs across the country.
and has led to new enhancements and the development                 After Postal Inspectors from various states shared
of several revenue fraud detection systems, in particular           photos and information on the suspect, they identified
the Information Based Indicia-Revenue Protection (IBI-RP)           Shades in surveillances at APCs in Arizona, Illinois,
System and WebAPAT, an application developed to review              Massachusetts, Nevada, and Florida. Postal Inspectors
data and images from mailpieces processed by the APPS.              tracked him to Colorado, where he fraudulently
                                                                    purchased more than $25,000 in “Forever” stamps
The IBI-RP System has yielded positive results, not only            over the Fourth of July weekend; when he returned
enabling Postal Inspectors’ early detection of revenue              to California and visited an APC in Sun City. Postal
fraud resulting from the use of duplicate indicia, but also         Inspectors were waiting for him with an arrest warrant.
leading to the development of new reports that can identify         He was indicted in August on federal charges of theft,
the growing problem with short-paid parcels. WebAPAT, a             fraud, and making false statements.
postal application, compares machine images against data
collected on mailpiece attributes, including size, weight and   Q   The co-owner of a third-party mailing firm, in New
postage, to identify duplicate, counterfeit, and potentially        Jersey, was sentenced in September to 2 years
short-paid parcels — all essential to detecting postal              and 11 months in prison and 3 years’ probation,
revenue fraud.                                                      and was ordered to pay more than $470,000 in
                                                                    restitution for cheating 53 postal customers. Postal
Following are examples of Postal Inspectors’ investigations         Inspectors learned the co-owner had provided his
of revenue protection during the reporting period.                  clients fraudulent invoices and mailing statements
                                                                    showing higher numbers of mailpieces and postage
Q   The Chief Executive Officer (CEO) of a mailing house in         fees than what he reported to the Postal Service. They
    Atlanta, GA, which specialized in printing and mailing          determined he had been billing clients for entire jobs
    promotional material for advertisers, pled guilty to            but had submitted only portions of the jobs for mailing.
    defrauding the Postal Service of nearly $500,000
    through several schemes. Postal Inspectors determined
    the CEO had been falsifying bulk mail records to show
    only a small percentage of the material he was mailing




                                                                                                                                   April 1 – September 30, 2009 | 13
REVENUE AND ASSET PROTECTION




                                              Embezzlements and Financial Crimes                                  Q   After an investigation by Special Agents, in September,
                                                                                                                      a Maryland Sales and Services Associate (SSA)
                                              Employee embezzlements may involve postal employees
                                                                                                                      was sentenced in federal court to 3 years in prison,
                                              stealing money from cash drawers, using sophisticated
                                                                                                                      followed by 10 months of home detention with
                                              schemes to manipulate postal money orders or money
                                                                                                                      electronic monitoring and ordered to pay more than
                                              order funds, or falsifying financial retail records. When Post
                                                                                                                      $670,000 in restitution, of which nearly $75,000
                                              Offices experience unusual or significant shortages, Special
                                                                                                                      goes to the Postal Service. She was convicted in
                                              Agents employ various investigative techniques to uncover
                                                                                                                      June of embezzling postal funds, and for bank and
                                              embezzlements, and improper or lax procedures are reported
                                                                                                                      wire fraud in connection with making fraudulent loan
                                              to management for corrective action. When employees are
                                                                                                                      applications. From October 2004 to June 2005, she
                                              found to be responsible for missing postal funds, they are
                                                                                                                      had embezzled about $75,000 from the Postal Service
                                              reported to management for appropriate administrative
                                                                                                                      by taking money from intended bank deposits and
                                              action. In cases that warrant criminal prosecution, offenders
                                                                                                                      issuing postal money orders to herself without paying
                                              not only face the loss of their jobs but also may face jail time
                                                                                                                      for them. The SSA applied for loans from a credit union
                                              and court-ordered restitution. Following are examples of
                                                                                                                      and a mortgage lender, falsely claiming income and
                                              financial fraud cases the OIG investigated.
                                                                                                                      preparing fraudulent income tax returns and bank
                                              Q    In August, a Maryland Sales, Services, and Distribution            statements to substantiate the largely inflated income
                                                   Associate (SSDA) pled guilty to federal charges in a               she had reported on the loan applications. The Special
                                                   $700,000 stamp theft scheme. The scheme began                      Agent’s investigation revealed the money was used to
                                                   unraveling 1 year earlier, when a Postmaster reported              purchase two Porsches for $160,000 and to refinance
                                                   about $91,000 in stamp stock losses to the OIG. In                 a $500,000 home mortgage. The SSA resigned from
                                                   a separate investigation in December 2008, Postal                  the Postal Service.
                                                   Inspectors identified an individual selling large amounts
                                                   of discounted stamp stock on the Internet through              Financial Fraud — Voyager Credit Card
                                                   his eBay store. OIG Special Agents, Postal Inspection          The Postal Service uses about 219,000 vehicles to deliver
                                                   Service, and Immigration and Customs Enforcement               mail across the nation. Through a partnership with U.S.
                                                   (ICE) investigators joined forces when the SSDA’s              Bank and Voyager Fleet, the Postal Service issues one
                                                   name appeared on an eBay mailing from the Postal               credit card per vehicle for refueling, routine maintenance,
                                                   Inspection Service investigation. A Special Agent              and vehicle washing and polishing. Under no circumstances
                                                   purchased stamps from eBay and identified them as              are postal employees or contractors allowed to disclose
                                                   missing stamp stock from Maryland Post Offices. The            their personal identification numbers (PIN) to non-postal
                                                   investigation revealed the SSDA stole the stamps and           entities; use the card for personal uses; exceed the daily
                                                   provided them to the co-conspirator, and others, to            purchase limit without proper authorization; or transfer
                                                   sell from June 2008 through March 2009. The stamps             purchasing authority to a non-postal entity. However,
                                                   were sold through an account established by the                some dishonest postal employees, contractors, and other
                                                   co-conspirator on eBay. Both were indicted, pled guilty        individuals misuse these credit cards for personal gain.
                                                   and are awaiting sentencing. The SSDA resigned from            Special Agents investigated 51 cases of Voyager credit
                                                   the Postal Service.                                            card fraud this reporting period, resulting in 13 arrests and
                                              Q    An audit of a Texas Post Office uncovered a significant        18 administrative actions. Following is an example of one
                                                   shortage. The follow-up investigation by Special               such case.
                                                   Agents determined the Postmaster embezzled nearly
                                                   $29,000 in Postal Service funds by disbursing no               In September, a Charlotte, NC, Casual Clerk pled guilty
                                                   fee money orders and cash and creating fraudulent              to the theft of government funds and was sentenced in
                                                   invoices from 2005 to 2008. The invoices were created          federal court to 19 months imprisonment, followed by
                                                   to appear as though payments were being made for               3 years of supervised release, and ordered to pay nearly
                                                   contract cleaning services. In April, the Postmaster           $100,000 in restitution to the Postal Service. From April
                                                   pled guilty to misappropriation of postal funds. In July,      through September 2008, the Casual Clerk stole Voyager
                                                   the Postmaster was sentenced to 180 days of home               cards from the accountable room at a carrier annex and
                                                   confinement, 3 years’ probation, and ordered to pay            used the cards to purchase fuel for himself and others. The
                                                   nearly $30,000 in restitution to the Postal Service. The       Postmaster reported that 10 Voyager cards were missing
                                                   Postmaster was removed from the Postal Service.                from the Post Office and had been used to make fraudulent




14 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                 WORKERS’ COMPENSATION FRAUD




charges. Special Agents recovered four of the cards from             WORKERS’ COMPENSATION
the Casual Clerk. He resigned from the Postal Service.               FRAUD
Tort Claims                                                          The Postal Service funds workers’ compensation
                                                                     benefits for employees who sustain job-related injuries.
The Postal Service established the Tort Claims Program to            The monetary and medical benefits paid by the Postal
monitor and resolve claims filed against the Postal Service          Service to workers’ compensation claimants totaled
by customers seeking compensation for injuries or losses             nearly $1.1 billion in FY 2009. At the end of FY 2009, the
incurred while using postal facilities. According to an              Postal Service’s estimated total liability for future workers’
agreement with the Postal Service Law Department, Special            compensation costs was nearly $9.1 billion. Administered
Agents investigate tort claim cases suspected of fraud and           by the U.S. Department of Labor (DOL), the Office of
cases for which the U.S. Attorney’s Office has requested an          Workers’ Compensation Programs (OWCP) provides direct
investigation. Following is an example of one such case.             compensation to providers, claimants, and beneficiaries.
An investigation by Special Agents into an injury claim              The Postal Service later reimburses the OWCP in a process
ended up saving the Postal Service $482,000. In July, the            known as “charge-back billings.” The OIG’s mission for
Postal Service agreed to settle a claim filed by an HCR              injury compensation fraud investigations is both proactive
driver who was reportedly injured while delivering mail to           and reactive. Depending on the case type, Special Agents
a Florida P&DC. The truck driver filed a $500,000 lawsuit            focus on the prevention and deterrence of workers’
claiming a back injury, neck injury, and injuries to both            compensation fraud and detecting and investigating
shoulders restricted his ability to work. Special Agents             an allegation of a fraudulent claim. The results of OIG
observed the truck driver exceeding his restrictions on              investigative efforts during this reporting period included
many occasions by driving, lifting heavy objects, bending,           $97.6 million in cost savings or avoidances, 26 arrests, and
standing, pushing, pulling, performing yard work, utilizing a        132 administrative personnel actions, including removals,
drill, an electronic hacksaw, a hammer, a crowbar, a lawn            suspensions, and letters of warning.
edger and reaching at and above shoulder level among
other activities. Subsequently, due to the investigation, the
claim was settled for $18,000 rather than the $500,000.




  OIG KICKS OFF OWCP FRAUD AWARENESS
  CAMPAIGN
  In September, the OIG launched a crime prevention and awareness campaign to reach
  all postal employees to target a crime costing the Postal Service millions of dollars each
  year — workers’ compensation fraud. The campaign kicked off with a screen saver
  pushed out to Postal Service computers, a paycheck stuffer sent to all employees,
  and a companion poster distributed to more than 30,000 postal facilities for display
  on workroom floor bulletin boards. The campaign features a worker who is bragging
  about how he makes “a couple extra bucks” while on workers’ compensation but is
  “too hurt” to work his postal job. Last year, OIG investigations of workers’ compensation
  fraud saved the Postal Service about $200 million in long-term workers’ compensation
  costs. The campaign’s message is clear: faking an injury and collecting benefits — or
  working while on workers’ compensation and not reporting the income — are crimes.
  Violators could end up going to jail, losing their benefits, and paying back all the money.




         The campaign’s message is clear: faking an injury and collecting benefits — or working while on
                                   workers’ compensation and not reporting the income — are crimes.




                                                                                                                                        April 1 – September 30, 2009 | 15
WORKERS’ COMPENSATION FRAUD




                                                                                                                      Injury Compensation — Claimant Fraud
                                                                                                                      Most employees who receive workers’ compensation
                                                                                                                      bbenefits do so because of legitimate job-related injuries.
                                                                                                                       H
                                                                                                                       However, a small percentage of postal employees and
                                                                                                                       healthcare providers abuse the system. These schemes
                                                                                                                       ccost the Postal Service millions of dollars each year in
                                                                                                                        ccompensation payments, medical costs, administrative
                                                                                                                         eexpenses, and enforcement costs. Special Agents initiate
                                                                                                                          ccriminal investigations when they suspect individuals
                                                                                                                           oor healthcare providers of defrauding the DOL’s Federal
                                                                                                                            EEmployees’ Compensation Act benefits fund. Criminal
                                                                                                                             pprosecutions are an effective deterrent to fraud and
                                                                                                                              may permanently prevent the payment of additional
                                                                                                                              ccompensation. Cases that may require administrative
                                                                                                                               aaction are referred to the Postal Service and the DOL.
                                                                                                                                SSpecial Agents work closely with injury compensation
                                                                                                                                 sspecialists from the Postal Service on all phases of
                                                                                                                                  tthese investigations. Following are examples of injury
After watching a surveillance video showing a Texas Automotive Technician replacing a radiator in an
                                                                                                                                   compensation fraud cases investigated.
automobile, clearing yard waste, painting his house, and throwing tires into dumpster, all with the full use of his
elbow, a jury found him guilty of 14 felony charges of filing false statements to obtain workers’ compensation.       Q    In August, Special Agents investigation of a former
                                                                                                                           Texas Automotive Technician led to a 10-month
                                                                                                                           federal prison sentence and obligation to pay about
                                                                                                                           $55,000 in restitution, after a jury found him guilty
                                                                                                                           of workers’ compensation fraud. The Technician had
                                                                                                                           alleged total disability from a work-related elbow
                                                                                                                           injury and received about $54,000 in workers’
                                                                                                                           compensation payments. However, after watching a
                                                                                                                           surveillance video showing the Technician replacing
                                                                                                                           a radiator in an automobile, clearing yard waste,
                                                                                                                           painting his house, and throwing tires into dumpster,
                                                                                                                           all with the full use of his elbow, a jury found him
                                                                                                                           guilty of 14 felony charges of filing false statements
                                                                                                                           to obtain workers’ compensation. The DOL removed
                                                                                                                           the Technician from the periodic rolls, realizing a cost
                                                                                                                           avoidance of about $840,000 for the Postal Service.
                                                                                                                           The employee retired from the Postal Service while
                                                                                                                           under criminal proceedings.
                                                                                                                      Q    In April, a former New Jersey Mail Processing Machine
                                                                                                                           Operator was sentenced to 2 years’ probation,
                                                                                                                           50 hours of community service, and was ordered
                                                                                                                           to pay nearly $15,000 in restitution to the Postal
                                                                                                                           Service for not disclosing other employment while
                                                                                                                           receiving OWCP benefits. The sentencing stemmed
                                                                                                                           from a Special Agent investigation that determined
                                                                                                                           the former postal employee, who claimed to be totally
                                                                                                                           disabled since March 2005 from an on-the-job neck
                                                                                                                           injury, was working in a pawn shop. When Special
                                                                                                                           Agents showed the Machine Operator video evidence
                                                                                                                           of her employment activities, she initially claimed that
                                                                                                                           it was volunteer work, but later admitted to receiving
                                                                                                                           payment for her work. As a result of this investigation,
A California Customer Service Supervisor pled guilty to charges stemming from a workers’ compensation fraud
                                                                                                                           the DOL terminated the Mail Operator’s benefits,
investigation in which Special Agents observed the Supervisor catching and reeling in numerous fish, carrying
                                                                                                                           resulting in a cost avoidance of more than $1.5 million
luggage, and driving a motor vehicle, all in violation of her medical restrictions.
                                                                                                                           to the Postal Service.



16 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                    DELAY, DESTRUCTION, AND THEFT OF MAIL




Q    After a former California Customer Service Supervisor        The investigation determined that from about February
     pled no contest to one count of Insurance Fraud, in          2002 through April 2005, the pharmaceutical company
     April, a county judge sentenced her to 18 months             consistently marketed a drug for a use that was not
     probation and ordered her to pay restitution of              approved by the FDA. The pharmaceutical company
     $10,000. In February 2000, the Supervisor had filed          promoted the sale of the drug for some of the various uses
     a workers’ compensation claim for an injury sustained        and dosages that the FDA had declined to approve and
     resulting in a back, shoulder, and neck injury. The          about which the FDA had raised specific safety concerns.
     Supervisor’s plea stemmed from an investigation in           It also promoted the drug with false and misleading
     which Special Agents observed the Supervisor catching        claims of safety and efficacy. When promoting the drug,
     and reeling in numerous fish, carrying luggage, and          the pharmaceutical company did not inform physicians,
     driving a motor vehicle, all in violation of her medical     customers, and others that it had asked the FDA to
     restrictions. Subsequent to these activities, the            approve the drug for these uses, but instead told its
     Supervisor told a DOL Claims Examiner that she could         stakeholders that the FDA had specifically refused to do
     not lift or do anything with her arm, even on a good         so, in part, because of safety issues.
     day. In March, the DOL terminated the Supervisor’s
     benefits, and as a result of the investigation by            In September, the pharmaceutical company pled guilty in a
     Special Agents, the Postal Service avoided more than         Massachusetts Federal court, to distributing a misbranded
     $700,000 in future OWCP payments.                            drug. The company will pay a criminal fine of $1.195 billion
                                                                  and will also forfeit $105 million, for a total criminal
OWCP Medical Provider Fraud                                       resolution of $1.3 billion. The company also agreed to
                                                                  pay $1 billion to resolve allegations under the Civil False
Special Agents investigate allegations of fraud committed         Claims Act that the company illegally promoted four drugs
by medical providers who treat Postal Service OWCP                and caused false claims to be submitted to government
claimants. Following is one such case.                            healthcare programs. In late October, it was determined
                                                                  that the portion of the criminal fine payable to the Postal
A case investigated by OIG Special Agents resulted in the
                                                                  Service will be nearly $15 million. In addition, the Postal
largest criminal fine ever imposed in the United States.
                                                                  Service will receive about $1.5 million for the costs of
Multiple qui tam complaints filed against a New York
                                                                  the investigation and civil damages related to payments
pharmaceutical company were investigated jointly by the
                                                                  made on behalf of postal employees who received the
OI, the Department of Health and Human Services OIG,
                                                                  drugs through workers’ compensation benefits. The asset
the FBI, the Defense Criminal Investigative Service (DCIS),
                                                                  forfeiture amount payable to the Postal Service has yet to
the Food and Drug Administration (FDA) Office of Criminal
                                                                  be determined.
Investigations, the Veterans’ Administration Office of Criminal
Investigations, the Office of Personnel Management OIG and
the offices of various state Attorneys General.

 Workers’ Compensation Fraud
 Investigative Results
 April 1 – September 30, 2009
 Q    585 fraud investigations resolved
 Q    $97.6 million in compensation payments avoided
 Q    26 arrests
 Q    27 indictments
 Q    18 convictions
 Q    132 personnel actions taken by management




                                                                                                                                   April 1 – September 30, 2009 | 17
DELAY, DESTRUCTION, AND THEFT OF MAIL




                                              DELAY, DESTRUCTION, AND                                             period, totaling 1,142, were down nearly 42 percent from
                                              THEFT OF MAIL                                                       the same period last year, when 1,968 volume attacks were
                                                                                                                  recorded. Postal Inspectors investigate these thefts and
                                              Postal Inspectors investigate mail theft by criminals who           work closely with Postal Service staff to develop and install
                                              attack the postal system, including contractors who                 neighborhood delivery units with stronger security features.
                                              transport mail to postal facilities. OIG Special Agents
                                              investigate mail theft by postal employees, as well as by           Following are examples of mail thefts investigated during
                                              contractors who deliver mail.                                       the reporting period.
                                                                                                                  Q   Postal Inspectors arrested an Arizona woman in April
                                              External Mail Theft                                                     on charges of allegedly for breaking into apartment
                                              Because mail can contain any number of valuables — not                  panel CBUs and stealing mail. Postal Inspectors had
                                              just jewelry or other expensive items, but personal and                 received numerous theft complaints from customers
                                              financial information such as credit card applications —                at two apartment complexes in Phoenix. They found
                                              criminals will try to steal it. Mail thieves employ an                  evidence the woman was responsible for at least
                                              endless number of schemes that Postal Inspectors work                   30 break-ins, stealing roughly 500 pieces of mail in a
                                              hard to thwart. They take preventive measures to curb                   5-month period.
                                              these criminals, in part by educating postal employees
                                                                                                                  Q   Following an investigation by Postal Inspectors, a
                                              and customers about how to protect themselves against
                                                                                                                      suspect was indicted in April 2009 for stealing mail,
                                              mail theft.
                                                                                                                      possession of a firearm by a felon, possession of stolen
                                              In the second half of FY 2009, Postal Inspectors arrested               mail, counterfeit and forged securities, bank fraud, and
                                              939 suspects for mail theft, and 1,123 mail theft suspects              aggravated identity theft. The investigation found the
                                              were convicted in cases originating in this and prior                   suspect and several co-conspirators had been stealing
                                              reporting periods.                                                      mail from collection boxes, residential mailboxes, and
                                                                                                                      apartment panel mailboxes at about 42 apartment
                                              Postal vehicles, collection and relay boxes, apartment                  complexes in Everett, WA. The group altered checks
                                              mailbox panels, cluster box units (CBUs), and                           stolen from the mail, deposited the proceeds into
                                              neighborhood delivery and collection box units (NDCBUs)                 fraudulently opened and existing victim accounts,
                                              are targeted by thieves seeking large volumes of mail.                  withdrew cash, and enlisted others to negotiate
                                              These “volume attacks” constitute a threat to postal                    checks. Postal Inspectors recovered large amounts
                                              employees and customers.                                                of stolen mail, counterfeit checks, fraudulent driver’s
                                                                                                                      licenses, stolen financial documents, and a loaded
                                              Postal Inspectors report that customers' confidence in the              sawed-off shotgun during a search of the motel room
                                              mail is justified, as volume mail attacks in this reporting             where the main suspect was residing.
                                                                                                                  Q   A Texas woman pled guilty in July to federal charges
                                                                                                                      of possessing stolen mail. Postal Inspectors identified
                                                                                                                      more than 140 victims who suffered losses exceeding
                                                                                                                      $100,000. Postal Inspectors executed a search
                                                                                                                      warrant at a hotel room where the woman was staying
                                                                                                                      and seized 165 stolen personal and business checks,
                                                                                                                      stolen mail, mail theft devices, chemicals used to alter
                                                                                                                      checks, and drug paraphernalia. They determined the
                                                                                                                      mail was taken from collection boxes in Grand Prairie,
                                                                                                                      Arlington, Euless, and Hurst, TX. The suspect provided
                                                                                                                      information implicating co-conspirators in thefts from
                                                                                                                      collection boxes in the Dallas-Ft. Worth area, including
                                                                                                                      possible locations where the suspects might be
                                                                                                                      found. Federal charges are pending for the additional
                                                                                                                      suspects as the investigation continues.

                                                                                                                  Mail Theft by Contractors
                                                                                                                  M
                                                                                                                  T Postal Service contracts the movement of some of
                                                                                                                  The
                                                                                                                  tthe nation’s mail to businesses that work diligently to
 Label 33                                                                                                          transport mail to postal facilities. Like postal employees,




18 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                 DELAY, DESTRUCTION, AND THEFT OF MAIL




these individuals take their responsibilities seriously.           Office after hours to conduct the thefts. Sentencing is
Unfortunately, a small percentage of contractors abuse the         pending. The SSA resigned from the Postal Service.
public’s trust. In this reporting period, Postal Inspectors’
                                                               Q   A California P&DC Postage Due Clerk, who also served
investigations of mail theft by contractors who transport
                                                                   as an acting Supervisor, was sentenced in federal
mail resulted in 32 arrests and 41 convictions.
                                                                   court to 2 years in prison and 2 years of supervised
Following are examples of investigations of mail theft by          release after pleading guilty to theft of mail and credit
contractors during the reporting period.                           card fraud charges. Undercover operations by Special
                                                                   Agents with consensual audio and video electronic
Q   Postal Inspectors identified an HCR Driver in                  surveillance resulted in the recovery of about 105 debit
    Youngstown, OH, for allegedly stealing greeting cards          and credit and ATM cards stolen from the mail. The
    and DVDs from the mail. The investigation was initiated        Postage Due Clerk was audio recorded making the
    on a tip from local police that several pieces of mail         statement, “What I’m doing is illegal, and immoral, but
    had been found along the side of a road. The HCR               mostly (just) illegal.” Search warrants on his residence
    Driver was interviewed by Postal Inspectors, who               and vehicle resulted in the seizure of 39 credit cards
    determined he stole more than 500 greeting cards               and five checks totaling more than $16,000. The
    and DVDs from the mail since December 2008. His                credit cards seized were enclosed in envelopes affixed
    employer terminated his contract in April, and the U.S.        with First-Class postage and addressed to various
    Attorney’s Office accepted the case for prosecution in         recipients. The Postage Due Clerk retired from the
    May. The former Driver had no prior convictions on his         Postal Service.
    record when he was hired.
                                                               Q   In July, pursuant to a plea agreement, a Baltimore,
Q   An East St. Louis, IL, HCR Driver was sentenced in             MD, Letter Carrier pled guilty in federal court to
    July to 2 years’ probation for mail theft and was              mail fraud, theft of mail, and aggravated identity
    ordered to pay restitution. Postal Inspectors began            theft. At sentencing in November, the Letter Carrier
    investigating the case in October 2008, when a rifled          faces a maximum sentence of 20 years in prison for
    mail package was found in a trash dumpster. Inside             conspiracy to commit mail fraud, 5 years in prison for
    the parcel were the remains of additional rifled mail          theft of mail by a postal employee, and a mandatory
    from other addresses on the route. They executed a             2 years in prison consecutive to any other sentence
    search warrant at a location where the HCR Driver was          imposed for aggravated identity theft. To date, eight
    residing and seized evidence leading to his arrest. He         other defendants have pled guilty to their participation
    was removed from his Postal Service job.                       in this scheme, three of whom have been sentenced
                                                                   to prison for periods between 24 and 51 months. In
Employee Mail Theft                                                November 2007, the U.S. Department of Treasury OIG
The overwhelming majority of Postal Service employees              notified the OIG regarding the theft of U.S. Treasury
work conscientiously to move the nation’s mail to its proper       checks from the Baltimore area. The OI’s investigation
destination. Unfortunately, a small number of employees            determined that from April 2006 to May 2007, the
abuse the public’s trust. It is the job of Special Agents to       Letter Carrier stole U.S. Treasury checks from about
identify dishonest employees and take proper investigative         50 victims on his delivery route and other routes, and
steps to have them prosecuted and removed from the                 provided the checks to non-postal co-conspirators. Two
Postal Service.                                                    of the co-conspirators manufactured and distributed
                                                                   false identification cards, bearing the co-conspirators’
Following are examples of cases in which postal employees          photographs, and the names and addresses of the
stole mail for personal gain.                                      victims whose mail had been stolen. By using the false
                                                                   identifications, the defendants negotiated the checks
Q   In July, an Oklahoma SSA pled guilty to delaying mail          and fraudulently obtained about $111,000. The Letter
    charges. The SSA had been indicted by a federal grand          Carrier resigned from the Postal Service.
    jury in June. From December 2008 through March
    2009, at least nine separate Veterans Administration       Delay or Destruction of Mail by Employees
    (VA) parcels that contained controlled substances were
    reported as missing from the mails. Special Agent          Special Agents investigate postal employees who delay,
    surveillance revealed the SSA walking off with a VA        desert, or steal mail from the mailstream. The following
    parcel. In an interview with Special Agents, the SSA       cases were investigated during this period.
    admitted to the theft of numerous VA parcels. The          Q   Responding to a congressional inquiry, in May, a North
    SSA was out on Family Medical Leave Act (FMLA) sick            Dakota Rural Carrier, who stole more than 36,000
    leave during this time period and came into the Post           pieces of mail from his route over a 10-year period,




                                                                                                                                April 1 – September 30, 2009 | 19
DELAY, DESTRUCTION, AND THEFT OF MAIL




                                                                                                                      was sentenced on charges of Delay and Destruction of
                                                                                                                      the Mail. He was sentenced to 5 years’ probation, and
                                                                                                                      ordered to pay more than $16,000 in restitution to the
                                                                                                                      Postal Service, and resigned while under investigation.
                                                                                                                      During the investigation, Special Agents observed the
                                                                                                                      Rural Carrier stealing mail and concealing it in his
                                                                                                                      residence. A subsequent search of his residence found
                                                                                                                      four tons of stolen and rifled mail of all classes.
                                                                                                                  Q   In August, a Florida HCR Carrier, pled guilty to a federal
                                                                                                                      indictment charging her with delaying or destroying
                                                                                                                      about 125,000 pieces of various classes of mail.
                                                                                                                      While being interviewed by Special Agents, the HCR
                                                                                                                      Carrier said that during the last year, she had taken
                                                                                                                      undeliverable mail back to her residence and burned
                                                                                                                      it. At her residence, Special Agents recovered enough
                                                                                                                      mail to fill 40 mail containers that took two semi-
                                                                                                                      tractor trailers to transport back to the Post Office.
                                                                                                                      The mail dated as far back as October 2003. The HCR
                                                                                                                      Carrier’s contract to carry mail was terminated.
                                                                                                                  Q   In July, an Alabama Temporary Relief Carrier (TRC)
                                                                                                                      was sentenced to 3 years of probation, after pleading
                                                                                                                      guilty to a delaying mail charge. In August 2007,
                                                                                                                      management contacted the OIG regarding a customer
A former North Dakota Rural Carrier — who stole more than 36,000 pieces of mail from his route over a                 who discovered abandoned mail on their property. The
10-year period (concealing it in his residence) — was sentenced to 5 years’ probation and ordered to pay              OIG investigation focused on the TRC, who admitted
$16,000 in restitution.                                                                                               discarding mail in four different locations on two
                                                                                                                      different routes she carried. Special Agents recovered
                                                                                                                      more than 980 First-Class Mail letters, periodicals,
                                                                                                                      parcels, and Standard Mail mailpieces. The TRC was
                                                                                                                      removed from the Postal Service.




                                                                                                                  A receiving a tip about abandoned mail, Special Agents
                                                                                                                  After
While being interviewed by Special Agents, a Florida HCR Carrier said that during the last year she had taken     recovered nearly 1,000 mail pieces that an Alabama Temporary
undeliverable mail back to her residence and burned it. In August, she pled guilty to a federal indictment        Relief Carrier had discarded. The Temporary Relief Carrier was
charging her with delaying or destroying about 125,000 pieces of various classes of mail.                         removed from her job.




20 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                              IDENTITY THEFT




IDENTITY THEFT                                                    Q   An Alabama man was sentenced in August to more
                                                                      than 6 years in federal prison and 5 years’ supervised
Identity theft occurs when a criminal steals someone’s                release for bank fraud and aggravated identity theft; he
identifying information, such as a name, date of birth, or            must also pay $172,703 in restitution to victim banks.
Social Security Number (SSN), and uses it to fraudulently             The man will serve the sentence consecutively after
apply for credit or take over someone’s credit or bank                serving time for a parole violation related to a 2003
accounts. The Postal Inspection Service is the lead agency in         Postal Inspection Service case involving mail fraud
investigating incidents of identity theft when criminals misuse       and identity theft. Postal Inspectors determined he
the nation’s postal system to defraud the American public.            was opening fraudulent credit card accounts using his
                                                                      parent’s identity. He used the cards until they reached
Funded by the Postal Inspection Service, the National                 the maximum line of credit and then reported the cards
Identity Crimes Law Enforcement (NICLE) network, based                as lost or stolen. Postal Inspectors served a search
in Philadelphia, PA, improves the coordination of identity            warrant at his home and seized a flat-screen TV,
theft investigations between law enforcement agencies. It             computers, and cash.
provides a central repository for identity crime information,
allowing law enforcement agencies to learn immediately            OIG Special Agents investigate mail theft by postal
whether a particular piece of identification — such as a          employees. In some instances, these cases may involve
SSN or a bank account — was reported stolen or used               identity theft. Here are examples of two cases worked in
elsewhere in the course of a crime. The data is available to      this area.
local, state, and federal law enforcement agencies, allowing
them to link related cases across jurisdictions.                  Q   A $165,000 mail theft and identity theft scheme,
                                                                      involving a Maryland Letter Carrier and outside co-
In the second half of FY 2009, Postal Inspectors arrested             conspirators, resulted in significant prison sentences
748 suspects, and 761 identity thieves were convicted in              for those involved. The carrier was sentenced to
cases from this and prior reporting periods.                          2 years in prison and 3 years’ probation and the
                                                                      co-conspirator went to jail for 51 months, followed by
Following are examples of identity theft cases investigated           5 years’ probation. They were jointly ordered to pay
during the reporting period.                                          more than $165,000 in restitution. Special Agents
                                                                      investigating the theft of checks from a collection
Q   A West Virginia woman pled guilty in July to
                                                                      box in Maryland identified a Letter Carrier as a
    aggravated identity theft. Postal Inspectors found that,
                                                                      suspect. Several stolen checks were deposited into
    from 1998 through 2007, she had collected Social
                                                                      the Letter Carrier’s personal bank account. Special
    Security disability benefits under her assigned SSN
                                                                      Agents executed a federal search warrant at the
    and had also worked for 13 different employers under
                                                                      postal employee’s home and found evidence of his
    a combination of two different SSNs. She failed to
                                                                      involvement in the thefts, including a fictitious driver’s
    notify the Social Security Administration of her ability
                                                                      license and ID card, both bearing the postal employee’s
    to work, causing them to overpay her about $62,000.
                                                                      photo, but with another name on it. The employee
    She used the mail to obtain a home mortgage, three
                                                                      admitted to taking checks from the mail and providing
    auto loans, credit cards, bank and utility accounts
                                                                      them to his co-conspirator, receiving compensation in
    under variations of her name and the SSNs of about
                                                                      return for the stolen checks. The carrier was removed
    10 victims. She fraudulently acquired credit, benefits,
                                                                      from the Postal Service.
    and services worth about $490,000 and caused
    businesses and government agencies to sustain                 Q   In May, a Texas Letter Carrier was sentenced in
    losses of $310,000.                                               federal court to 51 months in prison followed by
                                                                      3 years’ probation and ordered to pay more than
Q   A federal grand jury in Florida indicted two West Palm
                                                                      $150,000 in restitution regarding his role in a mail
    Beach women, in July, for conspiracy, mail fraud,
                                                                      theft and identity theft scheme. A joint investigation
    wire fraud, bank fraud, and aggravated identity theft.
                                                                      with OIG Special Agents, Postal Inspectors, Secret
    Postal Inspectors alleged the women had been stealing
                                                                      Service and Treasury Special Agents uncovered
    identities by filing false changes of address and
                                                                      evidence that the Letter Carrier stole U.S. Treasury
    opening bank accounts online to receive fraudulently
                                                                      checks from the mail during 2006 and 2008 and
    obtained bank checks. They fraudulently diverted
                                                                      conspired with others to cash the checks using
    ATM cards, debit cards, credit cards, as well as other
                                                                      fraudulent identification cards. The Letter Carrier
    mail to addresses in the St. Lucie County area. Postal
                                                                      was indicted and pled guilty to theft of government
    Inspectors have identified more than 300 victims, with
                                                                      property after resigning from the Postal Service.
    losses exceeding $1 million.




                                                                                                                                   April 1 – September 30, 2009 | 21
MAIL FRAUD




                                              MAIL FRAUD                                                          Mortgage Fraud
                                              Countless illegal schemes violate the nation’s first                The owner and operator of several mortgage lending and
                                              consumer protection law — the Mail Fraud Statute. As the            title services was sentenced in Miami, FL, in January to
                                              agency responsible for fighting criminals who misuse the            more than 10 years in prison and 3 years’ supervised
                                              postal system to defraud the American public, the Postal            release, and was ordered to pay more than $6 million in
                                              Inspection Service employs this statute — which remains             restitution after pleading guilty to conspiracy to commit
                                              the most effective tool available to fight fraud — to the           mail fraud. Postal Inspectors found that the man and four
                                              maximum extent possible. The objective of the agency’s              principals, plus 14 co-conspirators, ran a multimillion-
                                              Mail Fraud Program is to ensure public trust in the mail and        dollar mortgage loan fraud by convincing lenders to
                                              to protect Americans from fraudulent schemes in which the           fund fraudulent loans based on false verifications of
                                              mail is used.                                                       employment, account deposits, and closing-protection
                                                                                                                  letters. They fooled lenders through a variety of mortgage
                                              Complex and noteworthy mail fraud cases may include new             scams, all of which depended on straw buyers posing as
                                              twists on old scams that continue to evolve and scammers’           legitimate borrowers; they also fraudulently diverted mail
                                              ranges expand via the Internet. The Postal Inspection               to addresses they controlled. Overall, Postal Inspectors
                                              Service requests assistance from other law enforcement              uncovered more than 75 fraudulent loans totaling more
                                              entities to leverage resources and maximize expertise.              than $21 million related to 33 properties in south Florida.
                                              Postal Inspectors employ civil and administrative remedies          Nineteen co-conspirators have been indicted on charges of
                                              as necessary to combat deceptive mailing practices.                 mail fraud, conspiracy, and wire fraud; one suspect remains
                                                                                                                  at large.
                                              Postal Inspectors also protect postal customers by
                                              educating them about mail fraud, which may include                  Canadian Cross-Border Fraud Partnerships
                                              investment fraud, mortgage fraud, Ponzi schemes, and
                                              lottery or sweepstakes scams, all of which were prominent           Following a joint investigation led by Postal Inspectors
                                              during the second half of FY 2009.                                  working with members of other law enforcement agencies,
                                                                                                                  four principals and several cohorts were indicted on
                                              Postal Inspectors investigated 2,795 fraud cases, and               charges of mail fraud, conspiracy, racketeering, and money
                                              Postal Inspection Service analysts prepared more than               laundering in a scheme that defrauded elderly victims
                                              24,060 letters and informative postcards in response to             in the United States and Jamaica via an illegal lottery
                                              mail fraud complaints during this reporting period. Postal          scam. Members of a complex criminal network residing in
                                              Inspectors also arrested 534 mail fraud suspects, and               Steamboat Springs, CO, contacted elderly victims by mail,
                                              563 were convicted as a result of investigations conducted          phone, and e-mail advising they had won large sums of
                                              during this period and in prior fiscal years. In some of the        money in the Australian Lottery; however, to collect their
                                              cases highlighted below, Postal Inspectors and Inspector-           winnings, victims were told they first must mail in payment
                                              Attorneys relied on criminal and administrative remedies            to cover taxes and other fees to individuals in Colorado and
                                              for resolution.                                                     other states. None of the victims received any winnings.
                                                                                                                  To date, Postal Inspectors and other agents have identified
                                              Following are examples of the variety of mail fraud                 17 victims between 70 and 93 years of age who suffered
                                              investigations conducted during the reporting period.               losses of more than $425,000.

                                              Investment Fraud                                                    Deceptive Mail
                                              A certified financial planner in Birmingham, AL, was                Eleven Cease and Desist Orders were issued in May
                                              sentenced, in August, to more than 8 years in prison                against an individual and several others in one of the
                                              and 3 years’ supervised release, and was ordered to pay             largest sweepstakes mailing scams in the United States
                                              restitution of more than $3 million, plus a $100,000 fine, for      and abroad in the past 40 years. The promoters employed
                                              defrauding New Orleans-area investors. She guaranteed her           “straw owners,” trusts, more than 50 fake businesses, and
                                              clients would earn returns of 13 to 26 percent through high-        addresses at commercial mail receiving agencies in New
                                              yield investments in two companies — but the companies              York to conceal their illegal operation; they also mailed
                                              existed only as Post Office boxes in Colorado and Delaware,         sweepstakes newsletters and at least 90 other promotional
                                              and phone numbers she listed as contacts were set up only           letters to victims, who were led to believe they had won
                                              to take messages. She mailed clients bogus statements               large cash prizes. To collect the cash, victims were told they
                                              showing profitable returns on their investments, but she            had to first mail in payments of $20 to $23. Unfortunately,
                                              never did invest their money; she instead used it to pay for        the offer was too good to be true — no one received the
                                              clothes, mortgages, and lavish vacations.                           promised cash. Postal Inspectors determined the promoters




22 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                CONTRACT FRAUD




grossed more than $33 million in a recent 21-month              CONTRACT FRAUD
period. The Postal Inspection Service was assisted in the
investigation by the Federal Trade Commission.                  The Postal Service presently manages billions in
                                                                contracts, ranging from multi-million dollar national
MONEY LAUNDERING                                                contracts for services such as transportation networks
                                                                and IT infrastructures, to local contracts for supplies and
The Postal Inspection Service investigates criminals who        services at individual postal facilities. The sheer volume of
attempt to use postal money orders to launder illicit funds     contracts and the huge dollar value provide opportunities
and avoid federal reporting requirements in violation of        for contractors and employees to defraud the Postal
the Money Laundering Control Act and the Bank Secrecy           Service. The OIG aids the Postal Service by investigating
Act. Illicit proceeds may include money gained through          allegations of contract fraud, waste, and misconduct. When
narcotic sales, smuggling illegal aliens, tax evasion, or       contract improprieties are documented, Special Agents
selling counterfeit merchandise. During the second half         present the evidence for criminal and civil prosecution
of FY 2009, Postal Inspectors arrested 23 suspects on           and administrative remedies. Contract fraud is defined as
charges related to money laundering, and 43 convictions         any intentional, unlawful deception designed to deprive
were reported during the same period, some of which             the federal government of something of value or to secure
related to cases initiated in prior reporting periods.          from the United States for individuals a benefit, privilege,
                                                                allowance, or consideration to which they are not entitled.
In one example from the reporting period, Postal Inspectors
initiated an investigation of a father and son based on a       During this reporting period, the OIG conducted 80 contract
review of the Postal Service’s Bank Secrecy Act database        fraud investigations, resulting in 14 arrests and more than
and determined that, from 2006 through 2007, the two            $5 million in funds returned to the Postal Service. Following
had illegally purchased about 1,600 postal money orders         are examples of contract fraud investigations conducted
worth about $1.5 million in structured transactions. By         during this period.
splitting the purchases, the father and son kept each
transaction below the $3,000 reporting threshold, so no         Q    In September, a Vehicle Maintenance Facility Manager
financial reports were required; Postal Inspectors alleged           was sentenced in federal court to 22 months in
they made multiple trips to Post Offices each day to buy             prison, 2 years’ probation, 300 hours of community
the money orders. The two were indicted in New York in               service, and ordered to make restitution of $95,000
March on money laundering and structuring charges. Postal            to the Postal Service. The Manager was convicted on
Inspectors, working with Special Agents from the IRS and             conspiracy and misappropriation of postal funds for his
Drug Enforcement Administration, arrested the son, in April,         involvement in a kickback scam. The OIG investigation
in Staatsburg, NY, following an investigation into his use of        disclosed the Manager solicited kickbacks on a vehicle
about $260,000 worth of structured postal money orders               wash contract and authorized payment for fictitious
to launder cash proceeds from marijuana sales. Postal                invoices for washes and vehicle maintenance work
Inspectors executed two search warrants at the son’s home            never performed. Upon payment, the contractor would
and seized about $263,000 in cash and four pounds of                 “kick back” money to the manager. The Manager also
marijuana. The investigation is continuing.                          collected kickbacks on the sales of Postal Service
                                                                     vehicles, by not sending the vehicles to auction and
                                                                     pricing the vehicles at unreasonable prices on eBay.
                                                                     The Manager would sell these vehicles at below

 OIG ESTABLISHES A MAJOR FRAUD INVESTIGATIONS DIVISION
 To promote integrity and accountability related to allegations of major fraud that impacts the Postal Service, in April, the OIG established a Major Fraud
 Investigations Division (MFID). The MFID is responsible for investigating all allegations of fraud within the Postal Service’s programs and operations with a
 contract award price (individual or aggregate) of $250,000 or more, as well as allegations that become national or multi-jurisdictional in nature.

 The Postal Service expends $11 to $12 billion per year on goods and services and maintains an overall procurement portfolio of close to $42 billion. Applying
 the Certified Fraud Examiners Association’s professionally recognized “5 percent average of procurement dollars susceptible to fraudulent activity” to Postal
 Service expenditures means that $600 million in Postal Service funds are potentially lost to fraud each year.

 Major contract and health care provider fraud investigations by their nature are time consuming and complex. Outcomes of any significance can take
 years before they are realized; however, the return on investment for the Postal Service can be even more significant, leading to improved processes, cost
 avoidances, restitution, recoveries, and the suspension and debarment of companies and individuals.




                                                                                                                                        April 1 – September 30, 2009 | 23
CONTRACT FRAUD / ROBBERIES




                                                   market value and in turn collect kickbacks on these            ROBBERIES
                                                   sales. The contractor in this case also pled guilty and
                                                   sentencing is pending. The Manager resigned from the           Robberies not only pose a threat to postal employees, but
                                                   Postal Service.                                                also jeopardize the public's trust in the mail and attack the
                                                                                                                  financial integrity of the Postal Service. The mail remains a
                                              Q    In May, the OIG was notified by the Department of              compelling target for larceny, especially in today’s difficult
                                                   Justice (DOJ) that the Postal Service would receive            economy. Robbers who accost letter carriers usually
                                                   $4.5 million as a result of an anti-trust investigation        are seeking mail containing valuables (such as jewelry,
                                                   where a $45 million fine was imposed against an                illegal drugs, or financial information) or access to mail
                                                   air cargo company. This anti-trust investigation               receptacles that give them greater access to even more
                                                   was a joint effort by the OIG, FBI, Department of              mail. Those who target Postal Service facilities are generally
                                                   Transportation, DCIS, and ICE under the direction              after cash, money orders, and stamps.
                                                   of the DOJ investigating the international air cargo
                                                   industry. The Postal Service is one of the nation’s            In the second half of FY 2009, the Postal Service
                                                   largest air cargo customers and is the largest                 experienced 39 robberies or attempted robberies of postal
                                                   governmental victim in this antitrust case. In 2006,           employees or Post Offices. Postal Inspectors arrested
                                                   the Postal Service accounted for 37.6 percent of the           38 suspected robbers and reported 38 convictions, some
                                                   air cargo market share and the Postal Service spends           from cases in prior reporting periods.
                                                   about $700 million annually on air cargo costs. The
                                                   investigation centered on allegations that carriers            The following cases are examples of investigations
                                                   were artificially increasing profits through a price fixing    conducted during the reporting period.
                                                   scheme, where air cargo carriers were engaged in a
                                                                                                                  Q      A man stepped up to the counter of the Utica, MS, Post
                                                   conspiracy to fix the rates and surcharges the carriers
                                                                                                                         Office in February and requested a large envelope.
                                                   charged their customers. Dozens of air cargo carriers
                                                                                                                         As the Postmaster bent down to get it, the man
                                                   were allegedly involved in the conspiracy that involved
                                                                                                                                                lunged forward and struck the
                                                                                                                                                Postmaster, then jumped over
                                                                                                                                                the counter, took money from
                                                                                                                                               tthe cash drawer, and fled on
                                                                                                                                               ffoot. Postal Inspectors as well as
                                                                                                                                               oofficers from the Hinds County
                                                                                                                                               SSheriff's Department and Utica
                                                                                                                                                Police Department responded to
                                                                                                                                               tthe scene, and the Postmaster
                                                                                                                                               wwas transported to the hospital.
                                                                                                                                               AAfter Postal Inspectors processed
                                                                                                                                                latent finger and shoe prints at
                                                                                                                                               tthe scene, local police received an
                                                                                                                                               aanonymous tip as to the location
                                                                                                                                               oof the robber. Postal Inspectors
                                                                                                                                               aand deputies located the suspect,
                                                                                                                                               wwho allowed a consent search
                                                                                                                                               oof his home, and found shoes
                                                                                                                                                matching prints found on the
                                                                                                                                                Post Office counter, $200 in
In May, the OIG was notified by the Department of Justice that the Postal Service would receive $4.5 million as a result of an anti-trust       cash under the suspect’s bed,
investigation where a $45 million fine was imposed against an air cargo company.                                                                and $130 under another bed,
                                                                                                                                                as well as two large knives; they
                                                                                                                                                also spoke with the suspect's
                                               not only base cargo rates charged per kilogram, but
                                                                                                                         girlfriend, who reported he had given her a large sum
                                               also surcharges related to fuel, security, war risk, and
                                                                                                                         of cash that day. The couple was arrested on state
                                               U.S. Customs fees. The investigation is continuing
                                                                                                                         charges of robbery and held at the Hinds County jail;
                                                                                                                         in March, they were arrested and presented before
                                                                                                                         a federal magistrate in Jackson for their roles in the
                                                                                                                         robbery and for theft of postal funds. They each pled
                                                                                                                         guilty, and the suspect was sentenced, in August, to




24 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                                BURGLARIES




    11 years and 2 months in federal prison for robbing           activity. And, finally, Postal Inspectors pursue burglars who
    the Post Office and assaulting the Postmaster, was            target postal units located in retail establishments. The
    ordered to pay restitution to the Postal Service, and         successful resolution of these cases increases customers’
    was ordered to pay $8,100 to the Postmaster to cover          confidence in the mail and assures accountability for Postal
    medical bills from the assault. The suspect's girlfriend      Service assets and the assets of its customers.
    was sentenced to 1 year of federal probation and was
    ordered to pay restitution to the Postal Service.             The following cases highlight burglary investigations
                                                                  conducted during the reporting period.
Q   A Georgia man was indicted in July on charges of
    robbing the Riverdale, GA, Post Office after he was           Q    The LeBlanc, LA, Post Office was burglarized in June
    arrested earlier at his home by Postal Inspectors,                 2008 when a suspect kicked in the door leading to the
    Special Agents from the Bureau of Alcohol, Tobacco,                workroom floor from the customer lobby. The burglar
    Firearms, and Explosives (ATF), and deputies from                  ransacked the Post Office, stealing mail and rifling
    the U.S. Marshals Service. The robbery occurred on                 several parcels, which were emptied of their contents.
    September 16, 2008, when an SSA was transporting                   Evidence collected at the scene and processed at the
    postal funds to a bank and was accosted and robbed of              National Forensic Laboratory turned up a fingerprint
    the bank bag containing postal funds. Postal Inspectors            that, when compared to the FBI’s Automated
    developed a suspect from similar recent robberies                  Fingerprint Identification System (AFIS), revealed
    in the Atlanta area. Subsequently, investigators                   a suspect. The man was indicted on one count of
    determined that, over the course of 20 years, the                  burglarizing a Post Office. He pled guilty in February
    suspect had been arrested 28 times and sentenced to                and was sentenced in July to a year in federal prison
    prison five separate times on robbery, illegal drug, and           and 3 years of supervised release, and was ordered to
    weapons charges. At the time of the Riverdale robbery,             pay restitution to the Postal Service for the damage he
    the suspect was on parole after serving 10 years of                caused to the Post Office.
    a 15-year sentence for multiple armed robberies in
                                                                  Q    A burglar broke into the Ucon, ID, Post Office in July
    the Atlanta area. Due to his extensive criminal history,
                                                                       and made off with stamp stock and cash, as well as
    the suspect faces up to 20 years in federal prison, if
                                                                       a postal money order imprinter and two 100-count
    convicted. He is being held in custody without bond
    until a trial date is set.
Q   A man brandishing a handgun and wearing a
    handkerchief over his face robbed the Bergen Station,
    NJ, Post Office in May 2008. He entered the Post
    Office from the rear dock and confronted several
    employees, who he forced into an office before
    running off with a substantial amount of cash. Postal
    Inspectors conducted surveillances, interviewed
    suspects and a witness, issued subpoenas, and
    distributed wanted posters before finally identifying
    the suspect, who they arrested in August 2008. The
    suspect pled guilty to the robbery and was sentenced
    in May 2009 to nearly 12 years in prison and 5 years’
    supervised release, and was ordered to make full
    restitution to the Postal Service


BURGLARIES
The Postal Inspection Service has investigative jurisdiction
over burglaries or attempted burglaries of buildings
owned or leased by the Postal Service. Postal Inspectors
immediately respond and devote investigative attention
to these crimes. Priority attention is given to burglaries
resulting in substantial losses to the Post Office and believed   Postal Inspectors responded to the scene after a burglar broke into the Ucon, ID, Post Office in July and made
to be the work of “professionals,” and any related fencing        off with stamp stock and cash, as well as a postal money order imprinter and two 100-count packets of blank
                                                                  money orders. They identified a suspect who was convicted in August and now awaits sentencing.




                                                                                                                                                 April 1 – September 30, 2009 | 25
DANGEROUS MAIL INVESTIGATIONS




                                                   packets of blank money orders. Postal Inspectors               In the second half of FY 2009, the Dangerous Mail
                                                   responded to the scene, along with detectives from             Investigations Group recertified 323 Postal Inspectors to
                                                   the Bonneville County Sheriff’s Office, and determined         meet the requirements of the Occupational Safety and
                                                   it was likely linked to other recent burglaries in the         Health Association for hazwoper certification and conducted
                                                   area. Based on an image captured by a surveillance             quality assurance and refresher exercises. The group
                                                   video, Postal Inspectors and detectives executed a             also delivered more than 988 educational seminars to
                                                   search warrant on a suspect’s home and found 11 of             employees, business owners, and other law enforcement
                                                   the postal money orders taken in the burglary, as well         and government agencies addressing mail safety and
                                                   as items from other area burglaries. Postal Inspectors         handling protocols.
                                                   interviewed the suspect, who claimed the idea to
                                                   burglarize a Post Office came from reading Westerns.           The results have been dramatic. Postal Inspectors
                                                   He purportedly was responsible for six other burglaries        responded to 1,998 incidents involving suspicious items,
                                                   at businesses in Bonneville and Bannack County and             substances, and other restricted nonmailable items
                                                   has served 8 years of federal time for armed bank              found in mail or at postal facilities in the past 6 months.
                                                   robbery, with other felony convictions for forgery and         Nevertheless, Postal Inspection Service efforts reduced the
                                                   malicious injury. He was convicted for the Post Office         number of postal facility evacuations by about 30 percent
                                                   burglary in August and is awaiting sentencing.                 from the same period last year. The change translated to
                                                                                                                  reductions in lost workhours (66.6 percent), in delayed
                                              Q    The Postmaster of the Stebbins, AK, Post Office called         mail, and in operating costs associated with evacuations.
                                                   Anchorage Postal Inspectors after arriving at work             Further, unnecessary requests for emergency responses
                                                   the morning of February 17 and finding rifled mail             by local first responders were reduced, freeing responders
                                                   stacked against the employee entrance. A Registered            to be available in the event of other emergencies.
                                                   Mail parcel containing cash, as well as three postal
                                                   money orders, were missing; also, collect on delivery
                                                                                                                  Suspicious Substances in the Mail
                                                   (COD) mailpieces, parcels, flats, and letters had
                                                   been rifled. Postal Inspectors could not immediately           Postal Inspectors respond rapidly to reports of unidentified
                                                   respond to Stebbins to investigate the burglary due to         substances in the mail and threats involving chemical or
                                                   blizzard conditions; the town is about 427 miles from          biological material. Although the incidents may not involve
                                                   Anchorage and is accessible only by airplane. Once in          criminal intent, a rapid response ensures that Postal
                                                   Stebbins, Postal Inspectors identified four suspects,          Inspectors are on hand at the earliest opportunity when
                                                   one of whom is a minor. State charges were filed               mail is intentionally used to convey chemical, biological,
                                                   against the minor in August, and the other suspects            radiological, or explosive substances.
                                                   were indicted in September on federal charges of mail
                                                   theft and burglary of a Post Office.                           Postal Inspectors trained as Dangerous Mail Investigations
                                                                                                                  Specialists use established threat-assessment protocols
                                                                                                                  along with sophisticated state-of-the-art screening
                                                                                                                  equipment to respond to mail and mail facilities reporting
                                              DANGEROUS MAIL                                                      suspicious substances. They determine whether the
                                              INVESTIGATIONS                                                      substances are hazardous and could pose a threat to postal
                                                                                                                  employees, customers, or facilities.
                                              Dangerous mail refers to mail containing explosives and
                                              biological, chemical, or radiological substances. Postal            In the second half of FY 2009, Postal Inspectors responded
                                              Inspectors receive specialized training and equipment to            to 1,235 incidents nationwide involving unidentified
                                              address these threats and to protect postal employees,              suspicious powders and liquids and hoax mailings reported
                                              customers, and the mail system. The Postal Inspection               by postal employees, customers, or other federal agencies.
                                              Service partners with other agencies in the homeland security       The unidentified substances were found in the Postal
                                              community and assists with national security programs.              Service’s critical infrastructure, at postal facilities, or in the
                                                                                                                  mail. Postal Inspectors determined that all of the suspicious
                                              Postal Inspectors develop protocols for, and coordinate
                                                                                                                  substances reported were nonhazardous material.
                                              responses to, reports of alleged or suspected dangerous
                                              items in the mail or at mail facilities. Inspectors across the      The Postal Inspection Service’s screening program has
                                              country respond to the incidents, resolve alleged and actual        proven to be enormously successful for the Postal Service.
                                              threats, and conduct investigations of the incidents and any        While the majority of incidents involve nonhazardous
                                              related criminal activity.                                          substances, a response by Postal Inspectors ensures
                                                                                                                  that employees can depend on having a safe and secure
                                                                                                                  workplace and that countless postal facilities are kept open




26 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                              DANGEROUS MAIL INVESTIGATIONS




rather than being needlessly evacuated. The result is fewer        PA, Post Office that a postal customer had found
lost workhours, better employee morale and productivity,           red powder in her mailbox and on her mail. Postal
and improved delivery standards for the Postal Service.            Inspectors tested the powder and identified it as
                                                                   potassium dichromate, a highly toxic substance that,
Following are examples of suspicious substances                    if absorbed through the skin, can cause death. Postal
investigations in the second half of FY 2009.                      Inspectors linked the powder to a microbiologist
                                                                   employed by a chemical company; she was married
Q   In October 2008, Chase Bank locations in eight states,
                                                                   to a man who had fathered a child with the victim. The
    Federal Deposit Insurance Corporation offices, and
                                                                   suspect targeted the victim by placing toxic substances
    the Office of Thrift Supervision began receiving letters
                                                                   on her mail, her car, and the door handles of her
    containing written threats and an unknown substance.
                                                                   home. Postal Inspectors conducted surveillance and
    An additional letter was mailed to JPMorgan Chase
                                                                   captured images of the suspect placing chemicals
    headquarters in New York threatening to “McVeigh” the
                                                                   around the house. They arrested her in June 2007 and,
    building. The message contained in the 65 mailings
                                                                   after executing a search warrant, found stolen mail
    was that financial institutions were stealing investors’
                                                                   belonging to the victim, potassium dichromate, and a
    money and should expect repercussions. Due to the
                                                                   plastic tube containing a substance marked “Glycacil,”
    nature of the crime, Postal Inspectors and FBI Special
                                                                   which is also toxic. In addition to her 6-year sentence,
    Agents conducted a joint investigation in coordination
                                                                   the judge ordered she pay restitution of nearly
    with bank investigators. A suspect was developed
                                                                   $10,000 to the victim.
    who had in the past mailed similar communications
    to federal agencies. Following a surveillance of the
    suspect’s home in Albuquerque, NM, the man was             Suspicious Items in the Mail
    arrested; the substance found in the letters was           In addition to responding to reports of dangerous
    confirmed to be insect bait. He pled guilty in March       substances associated with the mail, Dangerous Mail
    to two counts involving threats and false information      Investigations Specialists respond to reports of suspicious
    and was sentenced in June to 3 years in prison and         items in the mail, such as improvised explosive devices
    3 years’ supervised release. He also was ordered to        (IEDs) and hoax devices. Fortunately, explosive items in the
    pay a fine of $5,000 and restitution of $87,734 as         mail are rare. Over the past 6 months, Postal Inspectors
    compensation to emergency responders.                      investigated four incidents involving IEDs sent via the mail.
Q   Postal Inspectors arrested a Chicago man, in January,      If an IED detonates, the life and safety of those in the
    on two counts of mailing articles containing HIV-          vicinity of the explosion are the first priorities of Postal
    infected blood with the intent to kill or injure. Their    Inspectors and other responders. Once these priorities are
    investigation found the suspect had mailed three           addressed, Postal Inspectors secure the crime scene and
    First-Class Mail letters (one to President-Elect Obama,    process the area for evidence.
    one to the President’s chief of staff, and a third to
    an Illinois State agency) containing a reddish-orange      In the second half of FY 2009, Postal Inspectors
    powder and papers containing the man’s HIV-infected        responded to 663 incidents of explosive devices placed in
    blood. An initial federal competency hearing was held      private mail receptacles, hoax bomb devices, suspicious
    in Springfield in April based on the suspect’s belief      items found in postal facilities or equipment, and
    that God or Allah was talking to him and directed him      mailed explosive devices. Their investigations resulted
    to mail the letters, and that a secret bank account in     in 32 arrests and 27 convictions, some from cases
    Switzerland would resolve the world’s financial crisis.    originating in other reporting periods. Most of the incidents
    The judge ordered the suspect be further evaluated in      involved harmless items, sometimes inadvertently left
    4 months to determine if he will be able to participate    behind by customers. The remainder involved hoax devices
    in his own defense.                                        or homemade explosives used to vandalize mailboxes.
                                                               Postal Inspectors investigate even the threatened use
Q   A woman, currently serving a 6-year sentence,
                                                               of dangerous material in the mailstream and other
    appeared before the U.S. Court of Appeals for the
                                                               miscellaneous misuses of the mail.
    Third Circuit in early 2009 to appeal her conviction
    for violating the federal chemical weapons statute. On     Following are examples of suspicious items investigations
    September 17, the court announced it had rejected          conducted in the second half of FY 2009.
    her appeal. It is the first conviction upheld under
    the Chemical Weapons Convention Implementation             Q   Postal Inspectors arrested a woman in April for mailing
    Act. The case began in March 2007, when Postal                 threatening communications after eight Post Offices
    Inspectors responded to a call from the Norristown,            in southern Minnesota received letters on February 4




                                                                                                                                      April 1 – September 30, 2009 | 27
CHILD EXPLOITATION VIA THE MAIL




                                                   threatening that a bomb would be placed at each of             Service’s Mobile Mail Screening Station, a transportable,
                                                   their facilities. On March 16, eight more Post Offices         self-sufficient platform that provides mail-screening for
                                                   in Minnesota received similar letters, and on March            chemical, biological, radiological, nuclear, and explosive
                                                   24, a letter containing a bomb threat was received at          threats. The program also deploys vans equipped with X-ray
                                                   the Faribault Daily News. All appeared to have been            units and field-screening equipment.
                                                   written by the same person. On March 27, Postal
                                                   Inspectors identified a woman as a suspect, who                During FY 2009, Postal Inspectors screened mail at
                                                   had recently been released from prison after serving           17 events, including the National Football League’s
                                                   a sentence for a similar crime. Postal Inspectors              Super Bowl XLIII and the G-20 Economic Summit in
                                                   interviewed the woman, who claimed she wrote                   Pittsburgh, PA. The Postal Inspection Service was tasked
                                                   the letters to scare people because she had been               with providing security for mail and mail-related matter
                                                   institutionalized her whole life, found life outside of jail   at selected sites, and with providing investigative and
                                                   to be difficult, and “just wanted to go back.” She was         intelligence support during the event.
                                                   convicted in August.
                                                                                                                  Postal Inspectors assigned to the events performed these
                                              Q    Two brothers were arrested and indicted in June by             activities as part of their work with the FBI’s National Joint
                                                   a federal grand jury for their roles in mailing a parcel       Terrorism Task Force and its Intelligence Operations Center,
                                                   bomb that was opened in February 2004 by a City of             as well as with DHS’s National Operations Center.
                                                   Scottsdale, AZ, employee. Postal Inspectors determined
                                                   that, from September 2003 to January 2009, the                 CHILD EXPLOITATION VIA
                                                   brothers conspired to promote racial discord on behalf         THE MAIL
                                                   of the “White Aryan Resistance” (WAR). Among other
                                                   overt acts alleged in the indictment, the bomb was             Postal Inspectors arrested 108 suspects and identified
                                                   constructed in a cardboard box made to look like a             31 child molesters in this reporting period as part of the
                                                   package and was addressed to an employee in Office             Postal Inspection Service's continuing efforts to bring to
                                                   of Diversity and Dialogue. The bomb exploded when the          justice those who unlawfully use the mail to traffic in child
                                                   victim opened the box, injuring him and another person.        pornography or otherwise sexually exploit children. Postal
                                                                                                                  Inspectors also identified and rescued 60 children from
                                              Q    On March 11, Postal Inspectors and ATF agents in
                                                                                                                  incidents of sexual abuse and exploitation.
                                                   Cleveland, OH, arrested two suspects after executing
                                                   federal search warrants at their homes. The warrants           Because nearly all cases of child exploitation investigated
                                                   were issued from the District of Puerto Rico and               by Postal Inspectors involve the Internet as well as the
                                                   charged the suspects with several violations involving         mail, the Postal Inspection Service has become an integral
                                                   the illegal mailing of firearms. The suspects allegedly        partner in the DOJ’s Project Safe Childhood initiative. The
                                                   purchased numerous semiautomatic handguns in                   initiative is aimed at preventing the sexual exploitation of
                                                   Cleveland and shipped them via Express Mail to San             children through the Internet by using a well-coordinated,
                                                   Juan. The arrests were based on surveillance videos            multi-pronged approach involving federal, state, and local
                                                   from Post Offices, Express Mail records, and firearms          law enforcement agencies.
                                                   purchase records, which implicated the two suspects
                                                   and possibly another co-conspirator, who is being              During the second half of FY 2009, Postal Inspectors
                                                   sought for questioning by Postal Inspectors. Postal            initiated 121 investigations involving child exploitation. The
                                                   Inspectors have identified 21 Express Mail labels linked       investigations included high-impact, quality casework that
                                                   to this scheme, all mailed from the Cleveland area. The        emphasized the identification and dismantling of major
                                                   investigation is continuing.                                   commercial distribution enterprises that relied on the
                                                                                                                  mail and the Internet to conduct illegal activities. Postal
                                              Mail Screening at National Special                                  Inspectors worked in close cooperation with trial attorneys
                                              Security Events                                                     of DOJ’s Child Exploitation and Obscenity Section, where
                                                                                                                  a Postal Inspector is assigned full time on all cases of
                                              Public gatherings are certified as National Special Security
                                                                                                                  national and international significance.
                                              Events when they are considered attractive targets for
                                              terrorists or assassins due to their visibility or political        Following are examples of investigations conducted during
                                              connection. The Postal Inspection Service’s mail-screening          the reporting period.
                                              program supports the Postal Service’s responsibilities
                                              dictated by the Department of Homeland Security (DHS)               Q   In October 2006, Postal Inspectors were requested
                                              Presidential Directives in its National Response Plan.                  by the chief investigator of the Sex Offender Civil
                                              The program is supported by the Postal Inspection                       Commitment (SCC) Facility in Washington State to




28 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                NARCOTICS TRAFFICKING




    assist with an investigation of suspected contraband         Often working with other law enforcement officials, Postal
    flowing into the facility through its mailroom. Although     Inspectors arrested 627 suspects for drug trafficking
    residents are allowed to possess computers and               via the mail in this reporting period. Their investigations
    digital media, they may not access the Internet;             resulted in the seizure of about 21,000 pounds of
    communications are limited to phone and mail. Postal         illegal narcotics found in the mail, as well as more than
    Inspectors uncovered multiple contraband violations          $2.79 million in cash and monetary instruments related to
    via the mail, including mailings of child and adult          ongoing investigations.
    pornography, illegal drugs, and alcohol, and they seized
    more than 30 computers from residents suspected of           Following are examples of narcotics investigations
    harboring pornography. In one case, Postal Inspectors        conducted during the reporting period.
    determined a resident was receiving DVDs in the mail
                                                                 Q   When Postal Inspectors in McAllen, TX, began tracking
    containing child and adult pornography disguised as
                                                                     a substantial increase in the amount of marijuana
    movies from commercial vendors, or on flash cards
                                                                     being mailed from South Texas in 2008, they
    sewn into the lining of clothes and carried in by corrupt
                                                                     coordinated a national effort from January through
    staff. In September 2009, seven SCC residents were
                                                                     late May to shut down the criminal operators. Two
    indicted on charges of possessing child pornography;
                                                                     drug trafficking rings emerged as the main suspects,
    six had previous convictions for molesting children. On
                                                                     allegedly mailing at least 450 parcels containing an
    the following day, Postal Inspectors, FBI special agents,
                                                                     estimated 7,700 pounds of marijuana to New York
    Washington State Patrol detectives, SCC investigators,
                                                                     and other states over the past year. Coordinating their
    and SCC security staff executed federal arrest warrants
                                                                     investigation with the local U.S. Attorney’s Office,
    for the seven residents, who were detained pending
                                                                     Postal Inspectors arrested eight suspects in May on
    trial. The Postal Inspection Service is the lead agency
                                                                     federal charges of possession with intent to distribute
    investigating all child pornography allegations at SCC
                                                                     a controlled substance and use of a communication
    involving the mail.
                                                                     facility to distribute controlled substances. Additional
Q   A Charlotte, NC, man was sentenced in May to a                   arrests are anticipated.
    minimum of 115 years and a maximum of 142 years in
                                                                 Q   As part of a national investigation of major trafficking
    state prison for crimes involving the sexual exploitation
                                                                     rings, Postal Inspectors arrested a New York City ring
    of a minor. He had refused to plead guilty to six felony
                                                                     member in February after he accepted an Express
    counts and demanded a trial; however, during a 3-day
                                                                     Mail package containing 12 pounds of marijuana. In
    trial — following testimonies from the victim, her
                                                                     the past month, the suspect had been receiving three
    father, and Postal Inspectors — changed his plea to
                                                                     to five packages of marijuana daily via Express Mail
    “guilty as charged.” In September 2006, a federal
                                                                     service. He had co-conspirators in other states mail
    search warrant was executed by Postal Inspectors
                                                                     drugs to apartment addresses; they waited for the
    after the man accepted a mailing of child pornography
                                                                     arrival of the parcels and intercepted them before the
    at his home. He first came to the attention of law
                                                                     true addressees received them. The case broke when
    enforcement when he mailed an undercover Postal
                                                                     the suspect was acting as a lookout to intercept a
    Inspector a CD of multiple images of sexual abuse
                                                                     drug package, spotted law enforcement officers down
    involving a 7-year-old girl. He mailed another CD to the
                                                                     the street and fled, allowing the unsuspecting female
    Postal Inspector with images showing him engaging in
                                                                     addressee to pick up the parcel. When she found the
    sexual activity with an 8-year-old girl. The investigation
                                                                     drugs she returned the package to the Post Office. The
    found the suspect’s brother-in-law and 7-year-old
                                                                     suspect appeared at her door several times demanding
    niece had moved in with the family after the wife was
                                                                     she hand over the package, even brandishing a
    deployed to Iraq with the U.S. Military. He had been
                                                                     handgun and saying, “You know what will happen if
    sexually abusing the child since April 2006 and was
                                                                     I don’t get my box back.” Postal Inspectors arrested
    unable to estimate the number of times it occurred.              the suspect the next time he showed up to intercept a
                                                                     mailing; he was convicted on August 31 on narcotics
NARCOTICS TRAFFICKING                                                and firearms-related charges and now awaits
                                                                     sentencing. Further arrests are expected.
Postal Inspectors interdict mailings of illegal drugs and
drug proceeds to protect employees and customers from            Q   Postal Inspectors seized more than 80 pounds of
the violence related to drug trafficking and to preserve             marijuana between May and July from six parcels
the integrity of the mail. Postal Inspectors also investigate        linked to a ring in Philadelphia, PA. They arrested
organized narcotic distribution groups and individuals who           two suspects for possession of narcotics with intent
use the mail to traffic in illegal drugs.                            to distribute after receiving complaints from Letter




                                                                                                                                April 1 – September 30, 2009 | 29
HOMICIDES, ASSAULTS, AND THREATS




                                                   Carriers, who reported they had been aggressively                 nearly $6,500. The Mail Handler was removed from the
                                                   pursued on their routes by individuals seeking drug               Postal Service.
                                                   parcels from Texas, Arizona, and California. One man is
                                                   a suspect in a 2007 homicide investigation.                       Employee Drug Investigations
                                                                                                                     Special Agents investigate postal employees selling
                                              OFFICIAL MISCONDUCT                                                    narcotics while on postal property or while on duty.
                                              Misconduct on the part of Postal Service employees includes            Information on the possession or personal use of illegal
                                              misuse of Postal Service computers, destruction or theft of            drugs by postal employees is referred through management
                                              Postal Service property, falsification of official documents           to the Employee Assistance Program for attention. Illegal
                                              and forgery, theft of funds, abuse of authority, sabotage of           drugs in the workplace can negatively impact employee
                                              operations, narcotics usage or sale of drugs while on duty,            productivity and safety, affect employee judgment and
                                              and alcohol abuse. Following is an example of a case the               increase stress levels, leading to acts of violence or hostility.
                                              OIG investigated involving employee misconduct.                        Use and sale of narcotics on duty by employees can also
                                                                                                                     contribute to other crimes such as theft, embezzlements,
                                              A Mail Handler at the Cleveland P&DC was sentenced in                  and fraudulent workers’ compensation claims.
                                              court, in August, to 3 years of probation and ordered to
                                              pay restitution of nearly $6,500 to the Postal Service for             For the 6-month period, Special Agents investigated
                                              his conviction on an FMLA scam covering the last 5 years.              89 cases of postal employees suspected of possessing or
                                              Based on information that the Mail Handler had been                    using illegal drugs on duty, and 47 employees were removed
                                              altering FMLA forms he submitted to receive FMLA leave                 from the Postal Service. Following are examples of cases on
                                              since 2004, Special Agents verified that the forms had                 narcotics-related offenses by postal employees.
                                              been photocopied and the dates changed. The forging of
                                              these documents allowed the Mail Handler to take about                 Q   While a New Jersey Letter Carrier, a 25-year Postal
                                              352 hours of FMLA sick leave, costing the Postal Service                   Service employee, was in uniform and in a postal
                                                                                                                         vehicle, he engaged in drug transactions with a
                                                                                                                         known drug trafficking organization. The Letter Carrier
                                                                                                                         told Special Agents he had been using a controlled
                                                                                                                         substance for about 11 years, mostly on his days off
                                                                                                                         work. He was sentenced to 1 year of probation after
                                                                                                                         pleading guilty to conspiracy as a result of an OIG
                                                                                                                         joint investigation with a County Drug Task Force. The
                                                                                                                         investigation began in July 2008. The Letter Carrier
                                                                                                                         retired from the Postal Service.
                                                                                                                     Q   Three employees at the Cleveland P&DC were
                                                                                                                         prosecuted and removed from the Postal Service
                                                                                                                         for using illegal drugs while on duty. In May, based
                                                                                                                         on allegations and information from another drug
                                                                                                                         investigation, Special Agents and sheriff’s deputies
                                                                                                                         conducted a K-9 drug sweep and search at the postal
                                                                                                                         facility. As a result of the search, two Mail Handlers and
                                                                                                                         a Custodian were found with marijuana in their vehicles.

                                                                                                                     HOMICIDES, ASSAULTS,
                                                                                                                     AND THREATS
                                                                                                                     A safe working environment is the top priority of the
                                                                                                                     Postal Inspection Service’s Workplace Violence Program.
Postal Inspectors around the country are increasing their visibility at Postal Service facilities, visiting postal   To achieve its goals, Postal Inspectors respond to and
managers and employees as part of their routine assignments. Pictured here is a Postal Inspector speaking            investigate Postal Service-related physical assaults and
with a Postmaster and an SSA at a Maryland Post Office. He discussed the threat of assaults and other                credible threats, and all threats and incidents receive
dangers employees may face, such as robberies, unknown substances in the mail, and workplace violence,               appropriate review. The Workplace Violence Program offers
and he provided tips on how to minimize risks by following security protocols and keeping an eye out for             resources and training that focus on preventing violence
suspicious activity.                                                                                                 through early intervention and the use of partnerships




30 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                  EXECUTIVE INVESTIGATIONS AND INTERNAL AFFAIRS




between Postal Service managers and employees. To                 EXECUTIVE INVESTIGATIONS
ensure its employees have a safe place to work, the Postal        AND INTERNAL AFFAIRS
Service employs several proactive strategies and tools for
reducing workplace violence. Integral to this effort are its      OI conducts criminal and administrative investigations
Threat Assessment Teams (TATs), which operate at each             of Postal Service executives, and OIG and Postal
postal district. TATs use a cross-functional, multidisciplinary   Inspection Service personnel, as well as whistleblower
approach to assess and manage risks, help reduce                  reprisal investigations.
incidents of inappropriate behavior, and resolve conflicts.
The cases that follow are examples of investigations in this      Whistleblower Reprisal Activity
area during the reporting period.
                                                                  The Postal Service is not covered by the Whistleblower
Q   The Gallatin, TN, Postmaster notified Postal Inspectors       Protection Act, but has its own policy governing
    in August of an alleged sexual assault of a Rural             whistleblower retaliation. The policy prohibits retaliation
    Carrier. The Rural Carrier had entered a convenience          against an employee because the employee (or applicant
    store to deliver mail on her route when the cashier           for employment) disclosed information the employee
    came out from behind the counter and embraced her,            reasonably believes concerns: 1) a violation of any
    making prolonged contact. The Carrier immediately left        rule, law or policy, or 2) a gross waste of funds, gross
    the store and had just gotten into her long-life vehicle      mismanagement, abuse of authority or a substantial and
    (LLV) when the cashier reappeared, entered the LLV,           specific danger to public health or safety.
    and repeated his behavior. The Rural Carrier forced
    him from the LLV and reported the assault. Postal             Generally, the misconduct is a violation of law, rule, or
    Inspectors investigated the incident and identified           regulation, or a direct threat to public interest — fraud,
    a second victim. A state warrant was issued for               health, safety violations, and corruption are just a few
    assault and the subject was arrested. He pled guilty in       examples. The employee must reasonably believe his or her
    September and was sentenced to 1 year of probation;           employer has committed a violation of some law, rule, or
    he was also ordered to attend sensitivity training and        regulation; testify or commence a legal proceeding on the
    must have no contact with the Rural Carrier.                  legally protected matter; or refuse to violate the law.

Q   Following his arrest by Postal Inspectors, an East            Allegations received:                                              87
    St. Louis, IL, man pled guilty in August to assaulting
                                                                  OIG investigations initiated:                                      22
    a federal employee. The man had attacked a Letter
    Carrier with an ax handle while he was delivering mail        Investigations closed with no finding of retaliation or deferred
    on his route. The Letter Carrier was able to fend off         to other adjudicative body:                                        31
    the blows with his mail satchel and was not injured           Allegations closed with no action:                                 79
    in the attack. The suspect claimed the reason for the         Open investigations:                                               12
    unprovoked attack was that the Letter Carrier was
    wasting his tax dollars by not delivering the mail in a       OIG found reprisal:                                                 1
    timely manner.




                                                                                                                                          April 1 – September 30, 2009 | 31
SECURITY AND CRIME PREVENTION
                                                                                                                                                      SECURITY




SECURITY AND CRIME PREVENTION
As Chief Security Officer for the Postal Service, the Chief Postal Inspector is responsible
for the physical protection of all postal facilities, personnel, and assets, as well as the
Postal Service’s information security program. The Chief Postal Inspector maintains liaison
with other investigative and law enforcement agencies, including the DHS, the Federal
Emergency Management Agency (FEMA), and other national emergency coordinators.

SECURITY                                                           Personnel Security
                                                                   The Postal Inspection Service initiates background
Security of Postal Assets                                          investigations and adjudicates security clearances for
Postal Inspectors and staff from the Postal Service’s Mail         postal employees and contractors. Staff at its Security
Transportation Equipment (MTE) office continued to work            Investigations Service Center (SISC) is tasked with
on the Equipment Recovery Project during the second half           digitizing and archiving security files for Postal Inspection
of FY 2009. The goal of the project is to recover stolen           Service personnel and for closed criminal cases. They are
or misused postal pallets and flat tubs from nonpostal             currently expanding capabilities and resources to support
locations across the country.                                      active investigations and projects. Digitizing the files
                                                                   not only facilitates access to archived and active case
In addition to successfully recovering equipment, Postal           information, but also saves the Postal Service hundreds
Inspectors aggressively pursued criminal investigations in         of thousands of dollars in outsourcing, storage, retrieval,
several states related to the illegal sale of stolen pallets and   and supply costs.
tubs. Following are examples of investigations conducted
during the reporting period.                                       The SISC received about 25,000 requests for background
                                                                   investigations and security clearances in the second half
Q   The CEO of a pallet company in Miami was sentenced             of FY 2009. The majority of the applications came from
    in June to 5 months in prison and 1 year of supervised         postal contractors, who are required to have some level
    release, and was ordered to pay $419,000 in                    of security clearance before gaining access to mail or
    restitution to the Postal Service for stealing and             postal facilities.
    reselling more than 21,000 plastic postal pallets in
    Pompano Beach and Haines City, FL, and Atlanta,
                                                                   Security Force
    GA. The court-ordered restitution covers both
    reimbursement for the pallets and investigative costs          The Postal Inspection Service maintains an armed, uniformed
    incurred by the Postal Inspection Service in pursuing          Security Force of Postal Police Officers (PPOs) who provide
    the case.                                                      protection for postal employees, mail, and property. PPOs
                                                                   are assigned to facilities considered most at risk for crime.
Q   Postal Inspectors arrested a suspect in July for stealing      Their presence deters criminal activity and creates a safe
    $28,800 worth of postal pallets after they spotted the         environment for postal employees and customers.
    equipment at a recycling company. Their investigation
    revealed the owner of the recycling company had paid           PPO duties include responses to reports of rifled mail,
    $2.25 each for about 1,200 pallets, which cost the             burglar alarms, and medical emergencies. For example,
    Postal Service more than $20 a piece. The suspect              at the Postal Service’s National Headquarters facility in
    regularly scouted the loading docks of Tucson-area             late September, PPOs were contacted when an employee
    businesses for pallets he could steal and resell.              complained of chest pains and had difficulty breathing.
                                                                   PPOs responded immediately and provided oxygen, while
As internal controls for MTE have improved and awareness           also contacting a local emergency medical unit, which
of the problem grows, more postal equipment is being               transported the employee to a nearby hospital.
located and returned to circulation. In the second half of
FY 2009, Postal Inspectors recovered 9,751 plastic pallets
and other postal equipment with an estimated total value of
more than $279,000.




                                                                                                                                   April 1 – September 30, 2009 | 33
NATIONAL PREPAREDNESS




                                              Access-Control Protection for Postal Facilities                     NATIONAL PREPAREDNESS
                                              The Postal Inspection Service teamed with Postal Service            During the second 6 months of FY 2009, the National
                                              staff from the Information Technology and Facilities                Preparedness Group continued to perform responsibilities
                                              offices to deploy the Enterprise Physical Access Control            related to incident management, infrastructure protection,
                                              System (ePACS). ePACS is a security system that links               aviation mail security, and emergency performance
                                              the Postal Service’s computerized access control systems            measurement — all key activities in preparing for,
                                              nationwide through its local area network. When actions             responding to, and assisting with recovery from major
                                              are taken in one system, such as an employee termination            incidents affecting postal employees and operations.
                                              or a suspension of access, they are reflected system-
                                              wide. ePACS significantly enhances the security of postal           The Postal Inspection Service’s goal is to offer protection
                                              employees, facilities, and assets. ePACS is now installed in        to employees and customers, provide for the security of
                                              176 facilities nationwide.                                          the mail and the postal infrastructure, and ensure business
                                                                                                                  continuity by anticipating threats to the Postal Service.
                                              In the second half of FY 2009, the access control system at         Managers at each of the postal areas and Homeland
                                              National Headquarters was updated to meet the new ePACS             Security Coordinators at each district synchronize their
                                              standard. The new system will be one of the largest ePACS           work with Postal Inspectors nationwide to ensure readiness
                                              sites nationally, comprising more than 3,500 employees,             for all hazards, implement risk-mitigation plans and
                                              1,000 contractors, and 130 card readers.                            procedures, and deliver prompt, effective incident-response
                                                                                                                  and recovery operations across the country. To accomplish
                                              Facility Security Reviews                                           this goal, group staff maintains a high level of national
                                              Postal Inspectors worked with staff from the Postal                 preparedness through coordinated planning and oversight.
                                              Service’s Facilities office, during the second half of the
                                              fiscal year, to conduct risk assessments of new postal              The Postal Inspection Service also continued to implement,
                                              facilities and postal facilities undergoing renovations. The        manage, and refine resources pertinent to emergency
                                              assessments ensure appropriate security measures are                responses and incident management. In the past 6 months,
                                              incorporated into construction plans for the facilities. This       staff from the National Preparedness Group issued a
                                              practice assures that facilities offer appropriate protection       National Preparedness Management Instruction and National
                                              for postal employees, customers, and assets.                        Preparedness Program Guide. An updated Integrated
                                                                                                                  Emergency Management Plan (IEMP) now clearly delineates
                                              In reviews of existing postal facilities, Postal Inspectors         the roles and responsibilities of emergency responders
                                              identified problems with doors, windows, fencing and                during all stages of a response and for all incident types.
                                              gates; hardware-related issues, such as damaged fences;             Group staff developed new response-plan templates
                                              and procedural issues, such as doors that were propped              for facilities lacking biohazard detection systems and is
                                              open and employees who were not wearing IDs. Postal                 preparing a Pandemic Plan to address preparation, response,
                                              Inspectors issued recommendations to postal managers to             and recovery actions needed during pandemic events.
                                              correct the problems.
                                                                                                                  Maintaining Postal Emergency Programs
                                              Infrastructure Security Assessment Program                          and Systems
                                              Security staff conducted reviews under the Infrastructure           Over the past year, National Preparedness staff began
                                              Security Assessment Program throughout FY 2009. The                 implementing the consolidated Postal Notification
                                              program uses standardized methodology to assess security            Emergency Management System, or PNEMS, which
                                              and measure compliance with Postal Service and Postal               combines the existing Watch Desk program and
                                              Inspection Service security policies at postal installations        Postal Alert Network System (PANS). PNEMS delivers
                                              throughout the country.                                             automated notifications to Postal Inspection Service
                                                                                                                  staff and personnel from the Postal Service’s Emergency
                                              Postal Inspectors and Homeland Security Coordinators                Management Teams (EMTs).
                                              visited facilities to gather information from managers
                                              and use on-site observations of physical security, mail             PNEMS supplements existing notification processes
                                              security, and internal security to assess compliance.               by providing Postal Inspection Service personnel with
                                              At the conclusion of the initial assessments, reviewers             Essential Crisis Management (ECM), which is incident
                                              and facility managers developed improvement plans to                management software, to coordinate activities related to
                                              address security deficiencies. The reviewers later made             emergency responses. ECM improves communications
                                              an unannounced follow-up visit to monitor the progress of           between responders and postal management teams during
                                              improvement strategies.                                             critical incidents.




34 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                               NATIONAL PREPAREDNESS




National Preparedness staff oversaw the maintenance
of large generators at numerous postal facilities during
the reporting period. Group members renewed contracts
for Emergency Preparedness Response and Recovery
Services (EPRRS), certified the Critical Reserve Stockpile
for postal employees, and deployed food and water during
numerous test exercises held during the reporting period.
Work continued on updating the Postal Service’s Geospatial
Information System (GIS) Technologies, which identify
critical postal facilities in the path of approaching storms,
provide flood-plain modeling and real-time storm updates,
and help estimate anticipated impacts on postal assets.

Collectively, these programs and systems ensure the Postal
Service’s emergency-response capabilities during critical
incidents. National Preparedness staff also met with postal
Area personnel, District Managers, and EMT members in
disaster-prone areas to assess levels of readiness and the
implementation of protective measures.

Test, Training, and Exercise Program
This program ensures that Postal Service personnel,
equipment, and procedures are in a constant state of              Postal Inspectors, working with the cooperation of state and local first responders, conducted a full-scale
readiness to manage an emergency without interrupting             biohazard detection system (BDS) drill in August at the Charlotte, NC, P&DC. Following a simulated BDS
operations. The Postal Inspection Service conducts, reviews,      alert, postal employees evacuated the building and a Unified Command was staffed with representatives
and evaluates training on proper procedures for emergency-        of the Postal Inspection Service, Postal Service, Charlotte Fire Department, Charlotte-Mecklenburg Police
management personnel and other essential staff. Testing           Department, DHS, and state and county health departments. Volunteers were “decontaminated,” hazwoper-
ensures that essential equipment and information systems,         trained responders donned approved protective gear, and the simulated BDS item was prepared for
and the processes and procedures needed to use them, are          transportation to a forensic lab. The Postal Emergency Management Team followed response protocols,
viable and conform to proper specifications. The exercises        including activating continuation-of-operation plans, accounting for and recalling outgoing mail trucks, and
promote preparedness, improve response capabilities               rerouting incoming mail trucks. The exercise facilitators deemed the exercise a success.
for individuals and functions, assure that all systems are
appropriate, and determine the effectiveness of command,          as the Postal Inspection Service is a stakeholder in the
control, and communications processes.                            National Level Exercise and Principal Level Exercise.
                                                                  The Postal Inspection Service partners with other federal
The Postal Inspection Service participated in local and           agencies to collaborate, coordinate, critique, and provide
national emergency response tests during the past 6 months        essential feedback in support of its national response-
to assess the integration of its facilities’ plans with other     readiness operations.
emergency response providers by testing local preparedness
and continuity-of-operations plans. The activities were           About 90 personnel from the National Preparedness group
designed to improve coordination among Postal Service             completed federally mandated training during the reporting
functional areas, minimize duplication of planning, and           period to gain national credentials in emergency-response
establish a standardized emergency management process.            training. By partnering with other Postal Inspection Service
                                                                  field divisions, staff successfully conducted a “train-
Also in the second half of FY 2009, the Postal Inspection         the-trainer” session in Incident Command Systems and
Service conducted Tabletop Exercises at more than 42 postal       developed 21 Postal Inspection Service trainers to deliver
locations nationally to test its ability to respond to natural,   response programs to federal partners nationwide.
technological, or manmade incidents. The exercises provided
incident-management instruction and 2- to 4-hour sessions         Natural and Manmade Disasters
of incident simulations. They also tested Postal Inspectors’
use of the Incident Command System, communications,               The Postal Inspection Service responds to emergencies
resources, and strategic and tactical decision-making.            related to hurricanes, floods, fires and other incidents
                                                                  affecting postal operations. Staff coordinates the
Staff members helped implement the Federal Emergency              deployment of emergency equipment and supplies and
Management Agency’s National Exercise Schedule (NEXS),            assists with damage assessments and recovery, including




                                                                                                                                                  April 1 – September 30, 2009 | 35
GLOBAL SECURITY AND INVESTIGATIONS




                                              hazardous and toxic-material removal. Safely removing               GLOBAL SECURITY AND
                                              hazardous materials from the postal system and educating            INVESTIGATIONS
                                              employees and customers about nonmailable items are
                                              priorities of the Postal Inspection Service.                        The mission of the Global Security and Investigations
                                                                                                                  Division is to protect the Postal Service’s international and
                                              To ensure compliance with security measures, Postal                 military mail operations and related assets worldwide.
                                              Inspectors and National Preparedness staff conducted                In support of this mission, division personnel conduct
                                              security-assessment reviews at postal facilities nationwide         domestic and international investigations and liaison with
                                              in the second half of 2009. Reviews are tailored to meet            foreign postal administrations, security personnel, and other
                                              the risks inherent in each geographical region. The staff           law enforcement agencies.
                                              evaluates compliance with security requirements for
                                              building and vehicle security, accountable mail handling,           Postal Inspectors engage in mail security and prevention
                                              and the local enforcement of employee identification                initiatives and investigative work in support of this mission.
                                              requirements. Both before and after disasters, National             Postal Inspectors continue to work closely with the Postal
                                              Preparedness staff employs a wide array of tools and                Service’s offices of Global Business and International Postal
                                              processes to establish performance measures that will               Affairs, as well as other stakeholders worldwide. Their
                                              ensure effective and cost-efficient security for employees,         efforts include security consulting and investigations with
                                              assets, and business operations.                                    foreign postal administrations through the Postal Security
                                                                                                                  Group (PSG) of the Universal Postal Union (UPU) and other
                                              During the reporting period, Postal Inspectors and                  international postal unions.
                                              Homeland Security Coordinators participated in responses
                                              to these large-scale events occurring across the country            Investigations continue at the five gateway cities, which
                                              and affecting postal employees and customers:                       feature the Postal Service’s international service centers
                                                                                                                  (ISC): Miami, San Francisco, Los Angeles, Chicago and
                                              Q    Flooding in the Midwest in March and April.                    New York, where Postal Inspection Service gateway task
                                              Q    Flooding in north Florida in April.                            forces comprising Postal Inspectors and OIG Special Agents
                                                                                                                  work together to prevent mail theft, stop revenue loss,
                                              Q    Flooding in Ohio and Pennsylvania in July.                     and ensure the security of international mail. Task force
                                              Q    Hoax anthrax threat in south Maine in July.                    investigations have resolved significant security issues both
                                                                                                                  in the United States and abroad.
                                              Q    Hurricanes Enrique and Felix in August.
                                                                                                                  Following are examples of investigations conducted during
                                              Hazardous Material                                                  the reporting period.
                                              Under an interagency agreement, the Postal Inspection               Q   Members of the Miami International Airport Task Force
                                              Service works to ensure that its operations meet                        arrested a Colombian national, in August, as a result of
                                              Department of Transportation program requirements                       an undercover sting to halt the mailing of stolen U.S.
                                              regarding the transportation of hazardous materials.                    and Canadian business checks intended for delivery to
                                                                                                                      Colombia. Postal Inspectors investigated the case with
                                              The Postal Inspection Service’s Hazmat Communications                   Colombian law enforcement officers and the Colombian
                                              Plan promotes awareness of hazmat protocols among postal                postal administration.
                                              employees and customers, and staff continually reviews
                                              and re-evaluates communications to ensure they meet                 Q   The JFK Gateway Task Force in New York received
                                              current needs. In the second half of FY 2009, four articles             a parcel seized during an interdiction conducted
                                              were placed in internal postal communications vehicles to               under Operation Stamp Out in Memphis, TN (more
                                              publicize the introduction of new civil penalties and remind            information on Operation Stamp Out appears later
                                              retail employees to ask postal customers hazmat-related                 in this section). The intercepted parcel was mailed
                                              questions when submitting packages for mailing.                         from Lagos, Nigeria, and contained $324,700 in
                                                                                                                      counterfeit postal money orders. Task force members
                                              The Postal Inspection Service is responsible for investigating          delivered the parcel, with Special Agents from the ICE
                                              incidents related to the enforcement of civil penalties. Four           and officers from the Ramapo, NY, Police Department,
                                              incidents involving the mailing of hazardous materials                  and arrested a suspect who accepted delivery of the
                                              are currently under investigation by the Postal Inspection              parcel on July 21. He was remanded pending a future
                                              Service. Civil penalties may be assessed depending on the               immigration hearing.
                                              outcome of investigations against customers who mailed or
                                              caused to be mailed hazardous material.




36 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                      CYBER INTELLIGENCE




Q   Postal Inspectors on the Chicago Gateway Task Force         CYBER INTELLIGENCE
    received reports of mail theft, most of which involved
    military mail traveling between Chicago, IL, and            The mission of the Postal Inspectors, Intelligence Analysts,
    Frankfurt, Germany. Task force members conducted            and support personnel of the Cyber Intelligence Group is
    surveillance and testing operations, resulting in the       to address cyber threats targeting the Postal Service and
    detention of 15 airline contract employees. As a            its customers, and to develop solutions that can mitigate
    result of the investigation by Postal Inspectors, the       those threats. In FY 2009, their mission was accomplished
    contractors’ access badges were confiscated and             through these actions:
    security clearances revoked in January.                     Q    Participating as an agency member of the National
                                                                     Cyber and Forensic Training Alliance (NCFTA) and the
Global Security Initiatives                                          Computer Emergency Response Team Coordination
In a continued proactive effort to protect the revenue               Center (CERT CC) in Pittsburgh, PA. NCFTA is a non-
and assets of the Postal Service, Global Security and                profit group that allies academia, law enforcement, and
Investigations staff implemented and maintained a number             industry groups to combat cyber criminals around the
of security initiatives in FY 2009, some of which are                globe through joint initiatives addressing significant
described below.                                                     cyber threats.

Click-N-Ship Initiative. The Postal Service can suffer          Q    Aiming core intelligence work at significant criminal
significant losses as well as damage to its brand integrity          targets affecting the Postal Service and its customers.
when postal products or services are targeted by criminal       Q    Building relationships with foreign and domestic law
schemes. Recently, the Postal Service has suffered from              enforcement and intelligence agencies, businesses,
a barrage of schemes generally referred to as reshipping             and academic institutions.
fraud. Criminals involved in reshipping fraud exploit the
Postal Service’s Click-N-Ship program, its retail facilities
(known as Postal Stores), and mail processing and dispatch
systems to fraudulently obtain and use postage to mail
stolen goods to foreign countries.

To counter these schemes, Postal Inspectors from the
Global Security and Investigations Division conducted
interdictions at each of the Postal Service’s five ISCs,
seeking parcels bearing fraudulent postage-paid shipping
labels. To date, Postal Inspectors have seized 1,509 parcels,
realizing savings to the Postal Service of more than
$220,000 in fraudulent postage. As a direct result of the
interdiction, by August 2009 fraudulent sales via Click-N-
Ship fell to less than 1 percent, representing a significant
improvement and cost-savings to the Postal Service.

Operation Stamp Out. To combat a rise in the importation
and distribution of counterfeit postal products into the
United States, the National Intellectual Property Rights
Coordination Center (IPR Center) worked with the Postal
Inspection Service to organize Operation Stamp Out. Led
by the Global Security and Investigations Division, the
initiative leverages external resources to support overall
cost-containment goals. Operation Stamp Out combines
expertise provided by ICE, the Postal Inspection Service,
and Customs and Border Protection to identify and
investigate transnational criminal organizations responsible
                                                                Under Operation Stamp Out, a Postal Inspection Service initiative begun in FY 2009, Postal Inspectors were
for counterfeiting postal money orders, stamps, and meter
                                                                joined by agents from ICE and Customs and Border Protection to interdict counterfeit postal products coming
stamps. Since July, interdictions associated with Operation
                                                                in to the United States from other countries. Authorization was provided to interdict not only U.S. Mail, but also
Stamp Out have resulted in the seizure of more than 6,400
                                                                mail shipped via FedEx and UPS. Since July, interdictions associated with Operation Stamp Out have resulted
counterfeit financial documents with a face value of more
                                                                in the seizure of more than 6,400 counterfeit financial documents with a face value of more than $10 million.
than $10 million. About $3 million worth of the counterfeits
                                                                About $3 million worth of the counterfeits were postal money orders.
were postal money orders.



                                                                                                                                                  April 1 – September 30, 2009 | 37
CYBER INTELLIGENCE




                                              Q    Providing timely, accurate reporting of cyber crime-related    mail the stolen goods. Postal Inspectors and other federal
                                                   business risks affecting current and upcoming Postal           law enforcement officials executed a search warrant at
                                                   Service operations, customers, and business partners.          the suspect’s home in July and arrested him after seizing
                                                                                                                  several laptops, cell phones, $2,000 in cash, a pilot’s
                                              Q    Mitigating criminal risks and financial exposure to
                                                                                                                  license, several IDs, a U.S. Military IED training manual, and
                                                   protect postal revenue.
                                                                                                                  stolen mail containing debit cards. He was deemed a flight
                                              Q    Providing comprehensive cyber-security recommendations         risk and, on August 25, agreed to a plea deal that included
                                                   that are associated with the development of new,               a 2-year prison sentence, the forfeiture of electronic
                                                   consumer-based e-Commerce products.                            equipment, deportation, and testimony on an unrelated
                                                                                                                  investigation involving the statutory rape of a 13-year-old
                                              Cyber Intelligence staff devotes significant attention              girl lured to Virginia Beach via the Internet.
                                              to protecting the Postal Service’s Intranet and Internet
                                              networks from criminal activity. Postal Inspectors working          Cyber Intelligence staff also has been actively engaged in
                                              with NCFTA have been focusing particularly on the                   an ongoing project to redesign the Postal Service’s Internet
                                              criminal exploitation of the Postal Service’s Click-N-Ship          Web site. Many of the applications on the site operate
                                              online postage application, available at www.usps.com.              independently and use different log-on procedures, user
                                              In FY 2009, Cyber Intelligence personnel identified and             authentications, and payment systems; the new project
                                              blocked 15,951 stolen credit card numbers being used by             will result in a multichannel system that consolidates all
                                              criminals to establish 30,600 online accounts to illegally          online transactions into a single interface. The operational
                                              obtain postage-paid shipping labels. Cyber Intelligence             scope of and anticipated revenue from these services are
                                              staff also share pertinent fraud information with credit            vast and make the Postal Service extremely vulnerable to
                                              card companies and Internet payment services to assist              cyber fraud. Long-term goals forecast that a potential 50
                                              mailers in protecting their businesses as well, and for good        percent of annual postal revenue could be funneled through
                                              reason — when Postal Inspectors identify and share stolen           online transactions via millions of user accounts. Revenue
                                              credit card data, online payment provider PayPal, a major           protection, information security, and Internet-Intranet
                                              customer of the Postal Service, estimates it saves about            infrastructure stability are vital to the success of the Postal
                                              $10,000 a day.                                                      Service, and the Cyber Intelligence Group is working to
                                                                                                                  ensure that opportunities for criminal exploitation that could
                                              Cyber Intelligence Investigations                                   negatively impact postal revenue, liability, and customer
                                                                                                                  confidence are eliminated.
                                              The Cyber Intelligence group also initiates and conducts
                                              criminal investigations. Postal Inspectors assigned to
                                              NCFTA identified a Russian male who was operating a                 Securing Data Breaches
                                              variety of schemes in the Virginia Beach area. The schemes          Cyber Intelligence staff began developing a Data
                                              involved the sale of compromised credit cards, the theft of         Compromise Response Plan (DCRP), in FY 2009, to provide
                                              mail, and the fraudulent use of Click-N-Ship products — all         the Postal Service with a strategy to address potential
                                              components of an international counterfeit check scam.              breaches of critical data. As a business function and
                                                                                                                  asset, the Postal Service holds or processes significant
                                              The 7-month investigation identified the Russian, who               records integral to the postal infrastructure, as well
                                              had been living illegally in the United States for more than        personal information on employees and customers. Any
                                              4 years, as the primary suspect. Postal Inspectors working          compromise of confidential or privileged information
                                              undercover purchased 59 compromised credit cards                    entrusted to the Postal Service would require a rapid,
                                              from an online “carding” forum, believed to be run by the           comprehensive, and coordinated response. DCRP defines
                                              suspect, with available credit of more than $592,000. After         roles and responsibilities for critical incident response
                                              reviewing the suspect’s e-mail accounts, they determined            team members, defines incident severity levels, outlines
                                              he was working with accomplices in Russia who were                  a process flow for incident management, and includes
                                              operating a check counterfeiting scheme. His accomplices            methodologies for conducting response activities. In
                                              mailed him electronic versions of checks and pre-paid               support of this initiative, the Cyber Intelligence group is
                                              Express Mail Click-N-Ship labels. He printed the checks,            an active participant in Homeland Security Presidential
                                              signed them, and mailed them (using the pre-paid postage)           Directive 5, which requires that federal agencies develop
                                              to individuals recruited to negotiate the checks and mail           a comprehensive framework to facilitate coordinated
                                              the money overseas. He also used stolen credit card                 responses by government, the private sector, and allies to a
                                              information to order merchandise from online retailers for          significant cyber incident.
                                              shipment to U.S. addresses and to buy online postage to




38 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                            CONSUMER EDUCATION AND FRAUD PREVENTION




CONSUMER EDUCATION AND                                          searches, the group aims to remind consumers to be on
FRAUD PREVENTION                                                alert at precisely the moment they may likely be faced
                                                                with scams.
Postal Inspectors lead anti-fraud projects and work with
other agencies and groups to teach Americans how to             National Preparedness Month
protect themselves from fraudulent scams that involve the
mail. An informed public is the first line of defense against   National Preparedness Month is held each September to
con artists, and Postal Inspectors are committed to             encourage Americans to prepare for emergencies in their
helping Americans learn about fraud prevention. Programs        homes, businesses and communities. This year’s theme
led by the Postal Inspection Service, often working             encouraged people to “Get a kit, make a plan, be informed,
with Postal Service staff, draw attention to recent fraud       get involved.”
trends to help postal customers become more aware of            The Postal Inspection Service sponsored month-long events
fraudulent products, materials, and services that may rely      in September to help educate postal employees about
on the mail, and to improve the public’s knowledge of how       how to prepare their homes for a hurricane or flood, what
to combat fraud.                                                they should include in a basic emergency supply kit, and
                                                                what factors they should consider in advance-planning for
Fraud-Prevention Information for Postal                         contacting emergencies.
Employees and Customers
                                                                Employees were encouraged to follow these three steps to
The Postal Inspection Service offers consumer-fraud
                                                                prepare for potential emergencies:
information, fraud alerts, wanted and reward posters,
and related information on its website: www.usps.com/            1. Stock a supply kit with items needed to survive an
postalinspectors. Postal customers can report suspected             emergency.
identity theft, mail theft or tampering, mailbox vandalism,      2. Make a family plan ahead of time to know what to do
and mail fraud online at the site.                                  during an emergency.
The Postal Inspection Service also publishes brochures           3. Be informed about potential emergency situations that
and publications designed to educate postal customers               could occur.
about mail-related crime. Publications on identity fraud,
sweepstakes scams, and other crimes conducted through           Victim-Witness Assistance
the mail are available online for viewing and printing at the   Program
Postal Inspection Service’s Internet Web site.
                                                                Federal legislation mandating certain
Partnering With Industry to Deliver Public                      rights for victims and witnesses of
                                                                crime was initially passed in 1982. As
Service Announcements                                           part of the Victim Witness Protection
Microsoft Corporation, in collaboration with the Postal         Act, Congress instructed the Attorney
Inspection Service, the Federal Trade Commission, and           General to assure that all federal law
Western Union, launched a series of online public service       enforcement agencies adopt guidelines
announcements (PSAs) in September to help protect               consistent with the purpose of the
consumers from scams related to mortgage foreclosure            act and related legislation. The Crime
rescue offers, bogus promises of credit repair, and             Victims’ Rights Act of 2004 added the
advance-fee fraud, also known as lottery scams. The             most far-reaching legislation to date
search advertising-driven PSAs appear on Bing, Microsoft’s      supporting victim rights.
new search engine, and targets consumers most vulnerable
to these types of crimes, providing them with valuable and      The Postal Inspection Service works
trustworthy information.                                        with the DOJ and the law enforcement
                                                                community to support the U.S. Attorney
The PSAs will be triggered by targeted search terms             General’s Guidelines for Victims and
entered on Bing, such as “mortgage fraud,” “lottery,” and       Witnesses. The Postal Inspection
“money transfer.” Users who click on the sponsored ad will      Service’s responsibility is to identify
be directed to a landing page with guidance on avoiding         potential victims related to its criminal
scams and information about how to report a scam, if they       investigations, provide them with timely
have been victimized. By tying the information to online

                                                                                                            Victims’ Rights poster.




                                                                                                                                      April 1 – September 30, 2009 | 39
CONSUMER EDUCATION AND FRAUD PREVENTION




                                              notification of their rights, and inform them of the services                The backbone of the Postal Inspection Service’s Victim
                                              available to assist them.                                                    and Witness Assistance Program is Publication 308, Know
                                                                                                                           Your Rights: A Guide for Victims & Witnesses of Federal
                                              Beyond legal mandates, victims may require the personal                      Crimes, which also is available in Spanish. Postal Inspection
                                              attention of a trained staff member — which often proves                     Service staff provides the brochure to potential victims
                                              to be the service most valued and remembered. By                             and witnesses of crimes when it is the lead investigative
                                              identifying victims at the beginning of the investigation,                   agency. The brochure informs them of their rights related to
                                              the U.S. Attorney’s Office may keep victims apprised of                      the investigative process, including notifications of arrests
                                              significant events during the judicial process. If defendants                and other case activity. It advises them on what to do if they
                                              are incarcerated, the Bureau of Prisons continues to keep                    are threatened or harassed and it informs them of available
                                              the victims apprised of incarcerated events up to the                        services that provide assistance in recovering from the
                                              defendant’s release.                                                         physical and emotional effects of a crime.
                                              The Postal Inspection Service is only the second federal
                                              law enforcement agency to gain direct access to DOJ’s
                                                                                                                           National Crime Victims’ Rights Week 2009
                                              Victim Notification System. Access was granted due to the                    The Postal Inspection Service teamed with DOJ and the
                                              high volume of Postal Inspection Service investigations that                 National Center for Victims of Crime to showcase “National
                                              impact large numbers of victims.                                             Crime Victims’ Rights Week,” April 26 through May 2. This
                                                                                                                           year, the annual campaign honored the Victims of Crime
                                              Victim Outreach                         Last 6 Months of FY 2009             Act (VOCA) legislation passed 25 years ago that shaped
                                                                                                                           the nation’s response to victims of crime. Prior to passage
                                              Notifications                                                       41,559
                                                                                                                           of VOCA, advocates struggled to gain recognition of victim
                                              Information and Referrals                                             406    rights. After the law’s enactment, victim compensation,
                                              Criminal Justice Support                                              975    training, and technical assistance, plus a host of other
                                                                                                                           programs, began to reach the public. Posters and
                                              Identity Theft Assistance                                           2,632
                                                                                                                           information cards were distributed to 15,000 Post Offices
                                              Senior Assistance                                                      82    and more than 7 million customers who visited these
                                              Victim Advocacy                                                       900    facilities through May 2.




                                                  A ‘THANK YOU’ LETTER TO POSTAL INSPECTORS — FROM A
                                                  POSTMASTER
                                                  [Postal Inspector] Bobby G. looked into my 70-year-old eyes, and very emphatically, very strongly, very determined,
                                                  very respectfully, very compassionately, said, “We are going to keep you safe.” And they have done exactly that. They
                                                  also kept me well informed, almost daily, as the case progressed. I also attended court proceedings.

                                                  I have received many telephone calls from Postal Inspection Service personnel up the chain of command, concerned
                                                  about my needs, both emotional and physical, and my well-being in general. Our side of the Postal Service has been
                                                  just as diligent, concerned, and caring. I even received a personal letter from Mr. Potter. I have known for a long time
                                                  that I worked for the best employer in the world, but the professionalism, dedication, and caring have all pushed the
                                                  Postal Service up a few more notches.




40 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
The United States Postal Service
has two law enforcement agencies
with distinct areas of investigative
responsibility to serve the needs
of stakeholders, postal employees,
and the American public.



Who do I call?
Postal Inspection Service                 Office of Inspector General
Q   Security of employees, facilities,    Q   Theft, delay, or destruction of mail by
    and equipment                             employees and contractors
Q   Revenue and postage fraud             Q   Injury compensation fraud
Q   International mail security           Q   Embezzlements and financial crimes
Q   Violent crimes:                       Q   Contract fraud
    - Threats and assaults of employees   Q   Kickbacks
    - Burglaries and robberies
                                          Q   Computer crimes
Q   Mail theft by nonemployees
                                          Q   Narcotics
Q   Dangerous mail and bombs
                                          Q   Employee misconduct
Q   Mail fraud
                                          Q   Internal affairs and executive
Q   Identity theft                            investigations
Q   Narcotics in the mail                 Q   Whistleblower reprisals
Q   Child pornography and obscenity

Contact: 877-876-2455                     Contact: 888-USPS OIG
http://postalinspectors.uspis.gov/        www.uspsoig.gov
http://postalinspectors.uspis.gov/
APPENDICES
                                                                                                                                                      APPENDIX A




APPENDICES
The Inspector General Act of 1978 requires semiannual reports on the immediately preceding 6-month periods ending September 30 and March 31. These
reports are sent to Congress and made available to the public.

This report summarizes OIG and Postal Inspection Service activities and illustrates significant problems, abuses, and deficiencies, along with recommendations
and corrective actions related to the administration of U.S. Postal Service programs and operations during the reporting period.

The appendices on the following pages fulfill the requirements of the Act.

APPENDIX A
Reports Issued to Postal Service Management
For the period April 1 – September 30, 2009

OIG audit teams conduct performance and financial audits, evaluations, and other reviews to address the business of the Postal Service. Each team issues audit
reports (AR) or management advisory reports (MA) in accordance with the identified needs of the project.

Summary
For the period April 1 – September 30, 2009

                                                                                                                         Unsupported
Risk Categories                     Number of Reports     Funds Put to Better Use         Questioned Costs           Questioned Costs               Revenue Impact
Strategic                                           11             $7,072,298,497               $15,313,493                 $8,159,472                              —
Financial                                          110                        —                 $21,687,018                 $1,091,385                    $8,477,380
Operational                                         46              $593,159,267             $1,229,278,258                $41,103,975                 $518,533,023
TOTAL                                             167              $7,665,457,764           $1,266,278,769                $50,354,832                  $527,010,403



Fiscal Year 2009 Summary
For the period October 1, 2008 – September 30, 2009

                                                                                                                         Unsupported
Risk Categories                     Number of Reports     Funds Put to Better Use         Questioned Costs           Questioned Costs               Revenue Impact
TOTAL                                             383              $7,905,486,474           $1,424,258,854               $175,570,839                  $771,069,131




   Definitions:
   Questioned Costs. A cost that is unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, contract, and so forth.

   Unsupported Costs. A cost that is not supported by adequate documentation. Unsupported costs are included with the amounts shown as
   Questioned Costs.

   Funds Put to Better Use. Funds that could be used more efficiently by implementing recommended actions.

   Revenue Impact. Amounts from revenue generating functions such as retail sales, rent, leases, or fees that were underpaid or not realized. In addition,
   this category includes increased revenue from existing functions and generating revenue from new sources.




                                                                                                                                      April 1 – September 30, 2009 | 43
APPENDIX A




Reports With Quantifiable Potential Monetary Benefits

                                                                                                  Funds Put to                                Unsupported
                                                                                                    Better Use        Questioned Costs    Questioned Costs    Revenue Impact
STRATEGIC RISK
Engineering
Custodial Maintenance: Nationwide; DA-AR-09-011(R); 8/13/2009                                      $996,588,215                     —                   —                 —
Custodial Maintenance: New York District; DA-AR-09-007; 4/7/2009                                    $48,267,945                     —                   —                 —
Delivery Bar Code Sorter Maintenance Opportunities; DA-AR-09-009; 7/23/2009                         $69,538,189              $8,159,472          $8,159,472               —
Overall Equipment Effectiveness: Delivery Bar Code Sorter;
DA-AR-09-010; 7/23/2009                                                                               $5,076,183             $5,481,804                 —                 —
Sustainability: Promoting Energy and Recycling Compliance;
DA-MA-09-001; 6/12/2009                                                                               $1,946,954             $1,672,217                 —                 —
Network Optimization
Salt Lake City Airport Mail Center Closure; EN-AR-09-004; 9/21/2009                                     $881,011                    —                   —                 —
Risk Analysis Research Center
Estimates of Postal Service Liability for Retiree Health Care Benefits;
ESS-MA-09-001(R); 7/22/2009                                                                     $5,950,000,000                      —                   —                 —


FINANCIAL RISK
Field Financial
Fiscal Year 2009 — Negative Master Trust Account Balances;
FF-AR-09-226; 9/30/2009                                                                                           —           $101,284            $101,284           $45,990
Fiscal Year 2009 Connecticut District Financial Risk Audit;
FF-AR-09-225; 9/30/2009                                                                                           —            $63,014             $63,014           $26,260
Fiscal Year 2009 Kentuckiana District Business Mail Entry Unit Financial Risk Audit;
FF-AR-09-221; 9/17/2009                                                                                           —                 —                   —           $123,560
Fiscal Year 2009 Phoenix Financial Risk Audit; FF-AR-09-200; 7/24/2009                                            —            $81,502             $66,945           $84,592
Northland District — Business Mail Entry Financial Risk;
FF-AR-09-224; 9/28/2009                                                                                           —                 —                   —             $3,664
Philadelphia District Post Office Financial Risk Audit; FF-AR-09-223; 9/25/2009                                   —           $704,979            $606,306          $240,508
Rio Grande District — Vending Operations Risk; FF-AR-09-205; 8/6/2009                                             —              $6,128             $6,128            $9,241
Fiscal Year 2009 Financial Installation Audit
Anderson Post Office — Anderson, CA; FF-AR-09-164; 5/13/2009                                                      —             $1,300               $1,121               —
Ash Creek Post Office — Urbandale, IA; FF-AR-09-143; 4/15/2009                                                    —               $489                $489             $7,489
Birmingham Main Office Window Unit — Birmingham, AL;
FF-AR-09-194; 7/10/2009                                                                                           —             $8,782               $1,100          $111,490
Brooklyn Business Mail Entry Unit — Brooklyn, NY; FF-AR-09-168; 5/18/2009                                         —                 —                   —             $9,246
Calabasas Branch — Woodland Hills, CA; FF-AR-09-137; 4/3/2009                                                     —              $1,621                 —             $2,027
Camp Hill Post Office — Camp Hill, PA; FF-AR-09-154; 4/30/2009                                                    —                 —                   —            $14,550
Conshohocken Post Office — Conshohocken, PA; FF-AR-09-153; 4/28/2009                                              —              $4,740             $4,740            $2,010
Cornerstone Station — Houston, TX; FF-AR-09-198; 7/15/2009                                                        —               $521                $337            $2,266
El Paso Business Mail Entry Unit — El Paso, TX; FF-AR-09-184; 6/18/2009                                           —                 —                   —            $16,243
Eugene River Road Station — Eugene, OR; FF-AR-09-201; 7/21/2009                                                   —              $1,375             $1,375                —




44 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                APPENDIX A




                                                                                 Funds Put to                           Unsupported
                                                                                   Better Use   Questioned Costs    Questioned Costs        Revenue Impact
Gulfport Downtown Station — Gulfport, MS; FF-AR-09-150; 4/27/2009                         —                 $756               $756                        $545
Hales Corners Post Office — Hales Corners, WI; FF-AR-09-166; 5/15/2009                    —              $26,273                  —                        $560
Hampden Station — Baltimore, MD; FF-AR-09-155; 5/5/2009                                   —               $5,370              $2,872                     $4,573
Hampton Park Station — Capital Heights, MD; FF-AR-09-202; 7/27/2009                       —              $27,078              $9,002                          —
Highland Springs Branch — Richmond, VA; FF-AR-09-149; 4/29/2009                           —               $3,799              $3,556                       $810
Hopkins Post Office — Hopkins, MN; FF-AR-09-210; 8/17/2009                                —               $6,544                  —                      $1,000
Kensington Post Office — Kensington, MD; FF-AR-09-185; 6/18/2009                          —               $6,809              $6,809                     $1,748
Kent Downtown Station — Kent, WA; FF-AR-09-139; 4/10/2009                                 —               $2,052               $775                           —
Kinston Post Office — Kinston, NC; FF-AR-09-147; 4/30/2009                                —               $6,794              $4,240                       $500
Lakeville Post Office — Lakeville, MN; FF-AR-09-151; 4/24/2009                            —               $1,284                  —                           —
Nashville General Mail Facility Window Unit — Nashville, TN;
FF-AR-09-171; 5/20/2009                                                                   —               $1,542              $1,542                     $4,740
New Brunswick Business Mail Entry Unit — Edison, NJ; FF-AR-09-182; 6/17/2009              —                   —                   —                      $7,566
Orlando Main Office Window Unit — Orlando, FL; FF-AR-09-138; 4/6/2009                     —               $8,308              $8,308                          —
Portland Main Post Office — Portland, OR; FF-AR-09-199; 7/16/2009                         —               $1,864              $1,864                     $6,631
San Francisco Business Mail Entry Unit — San Francisco, CA;
FF-AR-09-188; 6/24/2009                                                                   —                   —                   —                      $3,584
San Jose Main Post Office — San Jose, CA; FF-AR-09-173; 6/2/2009                          —              $14,397             $12,715                       $546
South Livingston Post Office — Livingston, NJ; FF-AR-09-203; 7/29/2009                    —                $1,797             $1,797                          —
St. Louis Main Finance Unit Post Office — St. Louis, MO;
FF-AR-09-209; 8/13/2009                                                                   —              $65,527             $58,716                       $919
St. Paul Main Office Station — St. Paul, MN; FF-AR-09-152; 4/27/2009                      —                   —                   —                      $5,839
Waseca Business Mail Entry Unit — Waseca, MN; FF-AR-09-190; 6/24/2009                     —                   —                   —                      $3,350
Westminster Post Office — Westminster, MD; FF-AR-09-213; 8/20/2009                        —               $4,599              $2,592                     $1,811
Supply Management
Equitable Adjustment Proposal Submitted by Pitney Bowes Government Solutions;
CA-CAR-09-015; 5/12/2009                                                                  —            $2,514,232                 —                           —
Firm Fixed Price Proposal Submitted by Evogen, Incorporated;
CA-CAR-09-020; 7/30/2009                                                                  —             $356,397             $62,131                          —
Firm Fixed Price Proposal Submitted by Western Industrial Contractors,
Incorporated; CA-CAR-09-016; 6/4/2009                                                     —           $8,984,664                  —                           —
Flats Sequencing System Contractual Remedies; CA-AR-09-006; 7/1/2009                      —             $500,000                  —                 $7,733,522
Proposal Submitted by IBM Global Business Services, Public Sector/Federal;
CA-CAR-09-022; 9/10/2009                                                                  —            $3,941,415                 —                           —
Proposal Submitted by Lockheed Martin Systems Integration, Owego, Distribution
Technologies; CA-CAR-09-014; 5/5/2009                                                     —            $3,013,403                 —                           —
Proposal Submitted by Northrop Grumman Corporation, Electronic Systems
Company; CA-CAR-09-013; 5/1/2009                                                          —             $879,530             $60,871                          —
Termination Settlement Proposal Submitted by C.R. Daniels, Incorporated;
CA-CAR-09-019; 7/24/2009                                                                  —             $336,849                  —                           —




                                                                                                                                April 1 – September 30, 2009 | 45
APPENDIX A




                                                                                                  Funds Put to                                Unsupported
                                                                                                    Better Use        Questioned Costs    Questioned Costs   Revenue Impact
OPERATIONAL RISK
Delivery
Delivery Vehicle Fuel Management; DR-AR-09-009; 9/28/2009                                           $21,423,261              $1,784,914                —                 —
Management of Delivery Point Sequencing Percentage Increases for City
Delivery — Nationwide Review; DR-AR-09-010; 9/28/2009                                               $88,216,079            $177,042,301                —                 —
Postal Service 2009 National Rural Mail Count — Nationwide Review;
DR-AR-09-006; 6/26/2009                                                                                           —           $598,593            $598,593               —
Vehicle Maintenance Facilities — Scheduled Maintenance Service in the Eastern
Area; DR-AR-09-005; 4/23/2009                                                                        $10,898,100                    —                  —                 —
Vehicle Maintenance Facilities Scheduled Maintenance — National Capping Report;
DR-AR-09-007; 6/30/2009                                                                                           —        $40,505,382         $40,505,382               —
Inspection Service & Facilities
Postal Service Aviation Security Capping Report; SA-AR-09-008; 9/29/2009                                          —                 —                  —          $6,087,840
Network Optimization
Assessment of Overall Plant Efficiency; NO-MA-09-002; 5/8/2009                                                    —       $969,495,708                 —                 —
Boston Airport Mail Center Outsourcing; EN-AR-09-003; 5/14/2009                                         $318,330              $501,466                 —                 —
Powered Industrial Vehicle Management System at the Oakland Processing and
Distribution Center; NO-AR-09-007; 7/23/2009                                                        $14,598,866                     —                  —                 —
Sunday Mail Processing Operations; NO-AR-09-012; 9/25/2009                                          $38,250,365                     —                  —                 —
Sales and Service
Mail Processing Equipment’s Ability to Read Postage on First-Class Letters;
MS-AR-09-008; 5/28/2009                                                                                           —                 —                  —        $512,445,183
Transportation
Air Networks — Chicago O’Hare Airport Mail Center Operations;
NL-AR-09-011; 9/30/2009                                                                                           —         $10,588,950                —                 —
Air Networks — Federal Express Transportation Agreement — Southeast Area;
NL-AR-09-007; 7/31/2009                                                                             $43,387,262              $8,630,104                —                 —
Fuel Management Consumption Strategies for Surface Network Operations;
NL-AR-09-010; 9/30/2009                                                                            $364,195,083                     —                  —                 —
Fuel Management Initiatives for Surface Network Operations — Fuel Purchasing
Strategy; NL-MA-09-001; 8/5/2009                                                                                  —        $20,000,000                 —                 —
Postal Vehicle Service Transportation — Philadelphia Bulk Mail Center;
NL-AR-09-005; 7/17/2009                                                                              $4,336,804                     —                  —                 —
Postal Vehicle Service Transportation Routes — Philadelphia Processing and
Distribution Center; NL-AR-09-006; 7/20/2009                                                         $5,386,529                     —                  —                 —
Vehicle Management — National Trailer Lease Renewal — Western Area;
NL-AR-09-008; 8/14/2009                                                                               $2,148,588              $130,840                 —                 —
TOTAL                                                                                            $7,665,457,764          $1,266,278,769        $50,354,832      $527,010,403




46 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                    APPENDIX A




Report Listing
Complete listing of all OIG reports issued to Postal Service management.

For the period April 1 – September 30, 2009

STRATEGIC                                              Northland District — Business Mail Entry Financial   Eugene River Road Station — Eugene, OR;
                                                       Risk; FF-AR-09-224; 9/28/2009                        FF-AR-09-201; 7/21/2009
Engineering
Automated Flats Sorting Machine 100 Images:            Philadelphia District Post Office Financial Risk     Evergreen Main Post Office — Evergreen, CO;
Security of Sensitive Customer Data;                   Audit; FF-AR-09-223; 9/25/2009                       FF-AR-09-189; 6/24/2009
DA-AR-09-008; 4/10/2009                                Postal Service's Relocation Policy;                  Fairplay Main Post Office — Fairplay, CO;
Custodial Maintenance: Nationwide;                     FF-AR-09-211; 8/26/2009                              FF-AR-09-146; 4/21/2009
DA-AR-09-011(R); 8/13/2009                             Rio Grande District — Vending Operations Risk;       Festus Post Office — Festus, MO;
Custodial Maintenance: New York District; DA-          FF-AR-09-205; 8/6/2009                               FF-AR-09-186; 6/19/2009
AR-09-007; 4/7/2009                                    Fiscal Year 2009 Financial Installation Audit        Fort Dodge Business Mail Entry Unit — Fort
Delivery Bar Code Sorter Maintenance                   Anderson Post Office — Anderson, CA;                 Dodge, IA; FF-AR-09-142; 4/15/2009
Opportunities; DA-AR-09-009; 7/23/2009                 FF-AR-09-164; 5/13/2009                              Fort Lauderdale Business Mail Entry Unit — Fort
Electrification of Postal Service Delivery Vehicles;   Ash Creek Post Office — Urbandale, IA;               Lauderdale, FL; FF-AR-09-181; 6/16/2009
DA-WP-09-001; 8/28/2009                                FF-AR-09-143; 4/15/2009                              Foxboro Post Office — Foxboro, MA;
Flats Sequencing System: First Article Retest          Ayer Business Mail Entry Unit — Ayer, MA;            FF-AR-09-156; 5/1/2009
Results; DA-AR-09-012; 9/4/2009                        FF-AR-09-157; 5/4/2009                               Franklin Post Office — Franklin, TN;
Overall Equipment Effectiveness: Delivery Bar Code     Birmingham Main Office Window Unit —                 FF-AR-09-216; 8/21/2009
Sorter; DA-AR-09-010; 7/23/2009                        Birmingham, AL; FF-AR-09-194; 7/10/2009              Front Royal Business Mail Entry Unit — Front
Sustainability: Promoting Energy and Recycling         Brooklyn Business Mail Entry Unit — Brooklyn, NY;    Royal, VA; FF-AR-09-180; 6/12/2009
Compliance; DA-MA-09-001; 6/12/2009                    FF-AR-09-168; 5/18/2009                              Grand Rapids Business Mail Entry Unit — Grand
Network Optimization                                   Bryan Business Mail Entry Unit — Bryan, TX;          Rapids, MI; FF-AR-09-161; 5/7/2009

Performance Goals for Market-Dominant Products;        FF-AR-09-208; 8/10/2009                              Gulfport Downtown Station — Gulfport, MS;
EN-AR-09-005; 9/28/2009                                Calabasas Branch — Woodland Hills, CA;               FF-AR-09-150; 4/27/2009

Salt Lake City Airport Mail Center Closure;            FF-AR-09-137; 4/3/2009                               Hales Corners Post Office — Hales Corners, WI;
EN-AR-09-004; 9/21/2009                                Camp Hill Post Office — Camp Hill, PA;               FF-AR-09-166; 5/15/2009

Risk Analysis Research Center                          FF-AR-09-154; 4/30/2009                              Hampden Station — Baltimore, MD;
                                                       Chippewa Falls Business Mail Entry Unit —            FF-AR-09-155; 5/5/2009
Estimates of Postal Service Liability for Retiree
Health Care Benefits;                                  Chippewa Falls, WI; FF-AR-09-169; 5/19/2009          Hampton Park Station — Capital Heights, MD;
ESS-MA-09-001(R); 7/22/2009                            Clearwater Beach Station — Clearwater, FL;           FF-AR-09-202; 7/27/2009

FINANCIAL                                              FF-AR-09-140; 4/20/2009                              Henry Business Mail Entry Unit — Henry, IL;
                                                       Clearwater Main Post Office — Clearwater, FL;        FF-AR-09-220; 9/4/2009
Field Financial
                                                       FF-AR-09-207; 8/6/2009                               Highland Springs Branch — Richmond, VA;
Fiscal Year 2009 — Negative Master Trust Account                                                            FF-AR-09-149; 4/29/2009
Balances; FF-AR-09-226; 9/30/2009                      Conshohocken Post Office — Conshohocken, PA;
                                                       FF-AR-09-153; 4/28/2009                              Hinsdale Branch — Hinsdale, IL;
Fiscal Year 2009 Connecticut District Financial Risk                                                        FF-AR-09-165; 5/14/2009
Audit; FF-AR-09-225; 9/30/2009                         Cornerstone Station — Houston, TX;
                                                       FF-AR-09-198; 7/15/2009                              Holcomb Post Office — Holcomb, KS;
Fiscal Year 2009 Kentuckiana District Business                                                              FF-AR-09-218; 8/31/2009
Mail Entry Unit Financial Risk Audit;                  Des Moines Main Office Station — Des Moines, IA;
FF-AR-09-221; 9/17/2009                                FF-AR-09-193; 7/2/2009                               Hopkins Post Office — Hopkins, MN;
                                                       El Paso Business Mail Entry Unit — El Paso, TX;      FF-AR-09-210; 8/17/2009
Fiscal Year 2009 Phoenix Financial Risk Audit;
FF-AR-09-200; 7/24/2009                                FF-AR-09-184; 6/18/2009                              Imlay City Business Mail Entry Unit — Imlay City,
                                                                                                            MI; FF-AR-09-175; 6/4/2009




                                                                                                                                    April 1 – September 30, 2009 | 47
APPENDIX A




Jesup Business Mail Entry Unit — Jesup, GA;                        Pearl City Business Mail Entry Unit — Pearl City,     Wichita Business Mail Entry Unit — Wichita,
FF-AR-09-196; 7/14/2009                                            HI; FF-AR-09-145; 4/20/2009                           Kansas; FF-AR-09-197; 7/14/2009
Kennewick Business Mail Entry Unit — Kennewick,                    Plantation Station — Bossier City, LA;                Wilton Business Mail Entry Unit — Wilton, IA;
WA; FF-AR-09-206; 8/6/2009                                         FF-AR-09-217; 8/26/2009                               FF-AR-09-170; 5/20/2009
Kensington Post Office — Kensington, MD;                           Pocomoke City Post Office — Pocomoke City, MD;        Woodbridge Business Mail Entry Unit —
FF-AR-09-185; 6/18/2009                                            FF-AR-09-177; 6/9/2009                                Woodbridge, VA; FF-AR-09-214; 8/20/2009
Kent Business Mail Entry Unit — Kent, WA;                          Portland Main Post Office — Portland, OR;             Financial Reporting
FF-AR-09-141; 4/14/2009                                            FF-AR-09-199; 7/16/2009                               Compliance with the Bank Secrecy Act;
Kent Downtown Station — Kent, WA;                                  Rando Cordova Business Mail Entry Unit — Rando,       FT-AR-09-011; 9/22/2009
FF-AR-09-139; 4/10/2009                                            Cordova, CA; FF-AR-09-174; 6/5/2009                   Financial Reporting Information under the Postal
Kinston Post Office — Kinston, NC;                                 Rembert Post Office — Rembert, SC;                    Accountability and Enhancement Act of 2006;
FF-AR-09-147; 4/30/2009                                            FF-AR-09-159; 5/5/2009                                FT-MA-09-003; 9/25/2009
Ladd Post Office — Ladd, IL;                                       Rochester Business Mail Entry Unit — Rochester,       Independent Report on Withholdings and
FF-AR-09-163; 5/20/2009                                            MI; FF-AR-09-148; 4/23/2009                           Contributions for Health Benefits, Life Insurance,
                                                                                                                         Retirement, and Employee Headcount Data;
Lafayette Plaza Station — Albany, GA;                              Rockford Business Mail Entry Unit — Rockford,
                                                                                                                         FT-AR-09-010; 9/18/2009
FF-AR-09-215; 8/20/2009                                            MN; FF-AR-09-162; 5/8/2009
                                                                                                                         Officer Compensation for Calendar Year 2008;
Lakeville Post Office — Lakeville, MN;                             San Francisco Business Mail Entry Unit —
                                                                                                                         FT-WP-09-002; 6/17/2009
FF-AR-09-151; 4/24/2009                                            San Francisco, CA; FF-AR-09-188; 6/24/2009
                                                                                                                         Supply Management
Lenoir City Business Mail Entry Unit — Lenoir City,                San Jose Main Post Office — San Jose, CA;
TN; FF-AR-09-191; 6/29/2009                                        FF-AR-09-173; 6/2/2009                                Agreed Upon Procedures Review of Contract
                                                                                                                         Number 512582-06-F-0008 with EMCOR Group
Linthicum Heights Post Office — Linthicum, MD;                     South Livingston Post Office — Livingston, NJ;
                                                                                                                         Inc.; CA-CAR-09-012; 4/6/2009
FF-AR-09-192; 7/2/2009                                             FF-AR-09-203; 7/29/2009
                                                                                                                         Contractor Purchasing System Review of Siemens
Maple Grove Business Mail Entry Unit — Maple                       St. Louis Main Finance Unit Post Office — St.
                                                                                                                         Energy and Automation Incorporated;
Grove, MN; FF-AR-09-183; 6/18/2009                                 Louis, MO; FF-AR-09-209; 8/13/2009
                                                                                                                         CA-CAR-09-017; 7/10/2009
Maryville Post Office — Maryville, TN;                             St. Paul Main Office Station — St. Paul, MN;
                                                                                                                         Equitable Adjustment Proposal Submitted by Pitney
FF-AR-09-167; 5/15/2009                                            FF-AR-09-152; 4/27/2009
                                                                                                                         Bowes Government Solutions;
Mathews Main Post Office — Mathews, LA;                            Stephenville Business Mail Entry Unit —               CA-CAR-09-015; 5/12/2009
FF-AR-09-212; 8/19/2009                                            Stephenville, TX; FF-AR-09-195; 7/14/2009
                                                                                                                         Firm Fixed Price Proposal Submitted by Evogen,
Mobridge Business Mail Entry Unit — Mobridge,                      Stuttgart Business Mail Entry Unit — Stuttgart, AR;   Incorporated; CA-CAR-09-020; 7/30/2009
SD; FF-AR-09-176; 6/5/2009                                         FF-AR-09-144; 4/15/2009
                                                                                                                         Firm Fixed Price Proposal Submitted by Western
Nashville General Mail Facility Window Unit —                      Topeka Main Post Office — Topeka, KS;                 Industrial Contractors, Incorporated;
Nashville, TN; FF-AR-09-171; 5/20/2009                             FF-AR-09-219; 9/2/2009                                CA-CAR-09-016; 6/4/2009
New Brunswick Business Mail Entry Unit —                           Utica Business Mail Entry Unit — Utica, NY;           Fiscal Year 2006 Incurred Costs of Logistics
Edison, NJ; FF-AR-09-182; 6/17/2009                                FF-AR-09-187; 6/24/2009                               Management Institute; CA-CAR-09-018; 7/9/2009
Newark Business Mail Entry Unit — Newark, NJ;                      Vandalia Business Mail Entry Unit — Vandalia, IL;     Flats Sequencing System Contractual Remedies;
FF-AR-09-158; 5/4/2009                                             FF-AR-09-222; 9/16/2009                               CA-AR-09-006; 7/1/2009
Oconomowoc Post Office — Oconomowoc, WI;                           Veedersburg Post Office — Veedersburg, IN;            Information Technology’s Preferred Portfolio
FF-AR-09-179; 6/12/2009                                            FF-AR-09-172; 5/21/2009                               Partnering Program; CA-AR-09-007; 9/29/2009
Orlando Main Office Window Unit — Orlando, FL;                     Waseca Business Mail Entry Unit — Waseca, MN;         Key Performance Indicators of C.H. Robinson,
FF-AR-09-138; 4/6/2009                                             FF-AR-09-190; 6/24/2009                               Contract Number 5BMSTR-05-B-3002;
                                                                                                                         CA-CAR-09-021; 8/27/2009
Oshkosh Post Office — Oshkosh, NE;                                 Westminster Post Office — Westminster, MD;
FF-AR-09-204; 7/30/2009                                            FF-AR-09-213; 8/20/2009                               Management of Contract Changes: Convergys
                                                                                                                         Government Solutions, LLC;
Oviedo Branch — Oviedo, FL;                                        Whippany Post Office — Whippany, NJ;
                                                                                                                         CA-AR-09-004; 4/9/2009
FF-AR-09-178; 6/9/2009                                             FF-AR-09-160; 5/6/2009




48 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                   APPENDIX A




Pre-award Survey of Western Industrial               Vehicle Maintenance Facilities Scheduled               Color-Coding of Standard Mail and Mail Condition
Contractors, Inc. Accounting System;                 Maintenance — National Capping Report;                 Reporting at the West Palm Beach Processing and
CA-CAR-09-023; 9/30/2009                             DR-AR-09-007; 6/30/2009                                Distribution Center; NO-AR-09-006; 6/10/2009
Proposal Submitted by IBM Global Business            Human Capital                                          Color-Coding of Standard Mail and Mail Condition
Services, Public Sector/Federal;                     MVA Reduction Target-Setting Process;                  Reporting at the Santa Clarita Processing and
CA-CAR-09-022; 9/10/2009                             HM-MA-09-002; 9/1/2009                                 Distribution Center; NO-AR-09-008; 8/6/2009
Proposal Submitted by Lockheed Martin Systems        Suspension of Postmaster Convention Leave              Fort Worth Processing and Distribution Center
Integration, Owego, Distribution Technologies;       Benefit; HM-MA-09-001; 8/24/2009                       Delayed Mail Issues; NO-AR-09-009; 9/14/2009
CA-CAR-09-014; 5/5/2009
                                                     Information Systems                                    Powered Industrial Vehicle Management System
Proposal Submitted by Northrop Grumman                                                                      at the Oakland Processing and Distribution Center;
Corporation, Electronic Systems Company;             Address Quality; IS-AR-09-007; 7/30/2009               NO-AR-09-007; 7/23/2009
CA-CAR-09-013; 5/1/2009                              Business Partner Connectivity — Leased Line            Powered Industrial Vehicle Management System at
Supply Management’s Oversight of Delegations of      Firewalls; IS-AR-09-013; 9/29/2009                     the Washington Network Distribution Center;
Authority; CA-AR-09-005; 6/1/2009                    Chase Insight Application Review;                      NO-AR-09-010; 9/22/2009
Termination Settlement Proposal Submitted by C.R.    IS-AR-09-011; 9/11/2009                                Sunday Mail Processing Operations;
Daniels, Incorporated;                               Disaster Recovery Capabilities of the Enterprise       NO-AR-09-012; 9/25/2009
CA-CAR-09-019; 7/24/2009                             Payment Switch; IS-AR-09-009; 7/30/2009                Sales and Service
OPERATIONAL                                          External Public Key Infrastructure Services —          Customer Complaints; MS-AR-09-009; 7/10/2009
Cost, Revenue, & Rates                               Fiscal Year 2009; IS-AR-09-012; 9/18/2009
                                                                                                            Mail Processing Equipment’s Ability to Read
Controls Over the Bulk Mail Revenue, Pieces, and     Physical Access Controls at the Information            Postage on First-Class Letters;
Weight System; CRR-AR-09-007; 9/30/2009              Technology and Accounting Service Centers;             MS-AR-09-008; 5/28/2009
                                                     IS-AR-09-008; 7/28/2009
Electronic Verification System Rejected                                                                     Performance-Based Incentive Programs for Sales
Transactions; CRR-AR-09-006; 8/19/2009               UNIX Access Controls at the Information                Employees; MS-AR-09-007; 4/27/2009
                                                     Technology and Accounting Service Centers;
Follow-up Audit of the Management Operating          IS-AR-09-010; 8/10/2009                                Transportation
Data System; CRR-AR-09-004; 4/14/2009                                                                       Air Networks — Chicago O’Hare Airport Mail
                                                     Inspection Service & Facilities
Service Performance Measurement System —                                                                    Center Operations; NL-AR-09-011; 9/30/2009
Delivery Confirmation;                               Handling of Package at the Eastmont Station;
                                                     SA-AR-09-007; 9/30/2009                                Air Networks — Federal Express Transportation
CRR-AR-09-005; 8/14/2009                                                                                    Agreement — Southeast Area;
Delivery                                             Market Rental Rates for 117 Leased Postal Service      NL-AR-09-007; 7/31/2009
                                                     Facilities; SA-MA-09-002; 9/30/2009
Albuquerque District — Albuquerque City Delivery                                                            Fuel Management Consumption Strategies for
Unit Locations; DR-AR-09-008; 7/6/2009               Postal Service Aviation Security Capping Report;       Surface Network Operations;
                                                     SA-AR-09-008; 9/29/2009                                NL-AR-09-010; 9/30/2009
Delivery Vehicle Fuel Management;
DR-AR-09-009; 9/28/2009                              Postal Service Aviation Security Program at            Fuel Management Initiatives for Surface Network
                                                     Contract Postal Units; SA-AR-09-005; 7/7/2009          Operations — Fuel Purchasing Strategy;
Effects of the Flats Sequencing System on Delivery
                                                     Postal Service Aviation Security Program at Critical   NL-MA-09-001; 8/5/2009
Operations — Northern Virginia District;
DR-AR-09-011; 9/28/2009                              Postal Service Facilities; SA-AR-09-004; 6/3/2009      Postal Vehicle Service Transportation —
                                                     Postal Service Lease Process;                          Philadelphia Bulk Mail Center;
Management of Delivery Point Sequencing
                                                     SA-AR-09-006; 9/29/2009                                NL-AR-09-005; 7/17/2009
Percentage Increases for City Delivery —
Nationwide Review; DR-AR-09-010; 9/28/2009           Network Optimization                                   Postal Vehicle Service Transportation Routes —
                                                                                                            Philadelphia Processing and Distribution Center;
Postal Service 2009 National Rural Mail Count —      Assessment of Overall Plant Efficiency;                NL-AR-09-006; 7/20/2009
Nationwide Review; DR-AR-09-006; 6/26/2009           NO-MA-09-002; 5/8/2009
                                                                                                            Vehicle Management — National Trailer Lease
Vehicle Maintenance Facilities — Scheduled           Boston Airport Mail Center Outsourcing;                Renewal — Capping Report;
Maintenance Service in the Eastern Area;             EN-AR-09-003; 5/14/2009                                NL-AR-09-009; 9/28/2009
DR-AR-09-005; 4/23/2009
                                                     Canton Processing and Distribution Facility            Vehicle Management — National Trailer Lease
                                                     Outgoing Mail Consolidation;                           Renewal — Western Area;
                                                     NO-AR-09-011; 9/22/2009                                NL-AR-09-008; 8/14/2009




                                                                                                                                   April 1 – September 30, 2009 | 49
APPENDIX B




APPENDIX B
Findings of Questioned Costs
For the period April 1 – September 30, 2009

As required by the IG Act, the following pages show the total number of audit reports and the total dollar value of questioned costs in audit reports.

Questioned Cost: A cost that is unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, or contract.


                                                                                                                                                             Unsupported Costs
                                                                                                                                                                    Included in
Description                                                                                                   Number of Reports      Questioned Costs         Questioned Costs
Reports for which no management decision was made at the beginning of the reporting period                                    3              $68,678,225             $67,963,970
Reports requiring management decision that were issued during the reporting period                                          50           $1,266,278,769             $50,354,832
TOTAL                                                                                                                        53          $1,334,956,994             $118,318,802


Reports for which a management decision was made during the reporting period (i+ii)                                          49          $1,329,847,011             $118,256,671
   (i) Dollar Value of disallowed cost                                                                                      —            $1,215,564,997             $50,292,701
   (ii) Dollar value of cost not disallowed                                                                                 —                $114,282,014            $67,963,970
Reports for which no management decision was made by the end of the reporting period                                          4               $5,109,983                 $62,131
Negotiations are ongoing
Reports for which no management decision was made within 6 months of issuance                                                 1                 $475,322                     —
(See Note 1 for a list of individual reports)
Reports for which no management decision was made within 1 year of issuance                                                 —                         —                      —
(See Note 2 for a list of individual reports)
Contract reports with significant audit finding                                                                             —                         —                      —
(See Note 3 for a list of individual reports)



Note 1 — Reports for which no management decision was made within 6 months of issuance:

                                                                                                                                                  Unsupported Costs Included in
Subject                                                            Report/Case Number                   Report Date      Questioned Costs                     Questioned Costs
Audit of Portions of a Termination for Convenience                          CA-CAR-09-011                   3/16/2009             $475,322                                   —
Settlement Proposal Submitted by Northrop Grumman
Electronic Systems
TOTAL                                                                                                                             $475,322                                   —


Note 2 — Reports for which no management decision was made within 1 year of issuance:
None for this report period


Note 3 — Contract reports with a significant audit finding:
None for this report period




50 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                      APPENDIX C




APPENDIX C
Recommendations That Funds Be Put to Better Use
For the period April 1 – September 30, 2009

As required by the IG Act, the following pages show the total number of audit reports and the total dollar value of recommendations for funds that can be put to
better use by management.

Funds Put to Better Use: Funds that could be used more efficiently by implementing recommended actions.



Description                                                                                  Number of Reports    Dollar Value
Reports for which no management decision was made at the beginning of the reporting period                  2       $2,056,098
Reports issued during the reporting period                                                                  18   $7,665,457,764
TOTAL                                                                                                       20   $7,667,513,862


Reports for which a management decision was made during the report period (i&ii)                            20   $7,667,513,862
   (i) Value of recommendations agreed to by management                                                          $7,219,361,351
   (ii) Value of recommendations that were not agreed to by management                                            $448,152,511
Reports for which no management decision was made within 6 months of issuance                              —                —
(See Note 1 for a list of individual reports)
Reports for which no management decision was made within 1 year of issuance                                —                —
(See Note 2 for a list of individual reports)


Note 1 — Reports for which no management decision was made within 6 months of issuance
None for this report period


Note 2 — Reports for which no management decision was made within 1 year of issuance
None for this report period




                                                                                                                                      April 1 – September 30, 2009 | 51
APPENDIX D




APPENDIX D
Reported Non-Monetary Benefits
For the period April 1 – September 30, 2009

Overview

Many of our audit reports identify areas for improvement that result in non-monetary benefits to the Postal Service. These benefits include improvements to
service, protection of assets and improvements in the reliability of data.


                                                                                                                        Type of Measure                  Value or Amount
IMPROVED SERVICE
Recommendations that address the Postal Service’s efforts to improve the quality and accessibility of its products      Number of Recommendations                     29
and services
Number of customer service audits conducted                                                                             Number of Audits                              17
SAFEGUARDING ASSETS
Assets or Accountable Items at Risk
Inadequate internal controls put the value of assets or accountable items (such as cash and stamps) at risk of loss     Dollar Value                         $149,444,228
Physical Safety and Security
Dollar value of physical assets (plant, computer equipment, vehicles, and so forth) at risk of loss due to inadequate   Dollar Value                                  —
physical protection
Recommendations that address the safety and security of Postal Service employees and/or the work environment            Number of Recommendations                     17
Number of employee/facility safety and security audits conducted                                                        Number of Audits                              21
Information Technology Security
Inadequate controls/protection put the value of data, IT assets (software, networks), and employee work time at risk    Dollar Value                                  —
of loss
Number of data security/IT security audits conducted                                                                    Number of Audits                              14
Revenue at Risk
Dollar value of revenue that the Postal Service is at risk of losing.                                                   Dollar Value                          $16,679,868
(Mailer seeking alternative solutions for current services)
Disbursements at Risk
Dollar value of disbursements made where proper Postal Service internal controls and processes were not followed        Dollar Value                         $423,014,486
Goodwill / Branding
An “adverse impact” on goodwill is an actual event/problem that harms the Postal Service’s reputation or a potential    Number of Issues Identified                   16
problem that could negatively impact the Postal Service “brand name”
RELIABILITY OF DATA
Records at Risk
Data at risk of corruption or loss due to inadequate internal controls and or protection                                Number of Data Records at Risk                —
Dollar value of data used to support management decisions that is not fully supported or completely accurate            Dollar Value                                  —




52 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                                        APPENDIX E




APPENDIX E
Reports with Significant Recommendations Pending Corrective Actions
For the period April 1 – September 30, 2009

As required by the IG Act, the following pages include a list of each audit report for which no management decision has been made by the end of the
reporting period.


                                              Report Title, Recommendation Summary
                                                            R = Recommendation number
Report Number              Issue Date                       TID = Target Implementation Date
NO-AR-05-011               6/17/2005          Efficiency of the Los Angeles International Service Center
                                              R-1 — Reduce mail processing workhours by 85,000. TID: October 2010
FT-AR-06-016               3/31/2006          Postal Service’s Share of Health Insurance Premiums for Retired Employees
                                              R-1 — Establish and communicate policies and procedures to continuously monitor the accuracy of the Postal Service’s share of health
                                                    insurance premiums paid for retires and survivors. TID: September 2009
HM-AR-06-004               5/19/2006          Postal Service’s Injury Compensation Programs’ Controversion and Challenge Process in Selected Areas
                                              R-2 — Provide sufficient oversight of injury compensation control offices by including steps to validate the proper tracking and
                                                    monitoring of controverted and challenged claims in the Human Resource Information System and the Claim Control Register in
                                                    their Area Program reviews. TID: February 2010
HM-AR-06-006               8/29/2006          Postal Service’s Grievance-Arbitration Service Centers
                                              R-8 — Automate the processing and payment of arbitrator invoices using an existing Postal Service electronic purchasing system.
                                                    TID: September 2012
EN-AR-07-002               12/5/2006          Service Implications of Area Mail Processing Consolidations
                                              R-4 — Revise the Collection Point Management System to track changes to collection box pick-up times. TID: September 2010
SA-AR-07-002               3/30/2007          Postal Service Security Controls and Processes for the Capital Metro Area
                                              R-1 — Provide consolidated standard operating procedures and guidance to assist in performing duties and responsibilities consistently
                                                    and in a timely manner. TID: December 2009
                                              R-4 — Establish requirements for mandatory security training including periodic refresher training, for responsible security personnel at
                                                    the area-, district-, and facility-levels. TID: December 2009
                                              R-5 — Develop performance measures to assess the achievement of security goals. TID: December 2009
SA-AR-07-003               5/9/2007           Postal Service Security Controls and Processes for the Pacific Area
                                              R-2 — Develop appropriate performance measures for physical security to assess the achievement of security goals and incorporate
                                                    them into performance plans for area-, district-, and field-level security personnel. TID: December 2009
HM-AR-07-002               5/16/2007          Postal Service’s Workplace Safety and Workplace-Related Injury Reduction Goals and Progress
                                              R-1 — Closely monitor conversion to the SAP Environmental Health and Safety module. Ensure the upgraded system captures costs by
                                                    facility, district/performance cluster, and area office, as well as the costs for identified key categories. TID: September 2010
DR-MA-07-004               6/14/2007          Management of Retail Work Hours in Relation to the Workload for Mobile Units — Triboro District
                                              R-1 — Revise the Handbook for Retail Operations, to include standard procedures for mobile units. TID: July 2009
                                              R-2 — Distribute the revised Handbook for Retail Operations to Area officials for implementation. TID: October 2009
IS-AR-07-016               8/20/2007          Audit of Database Administration Practices
                                              R-2 — Establish policies and procedures for the protection and use of sensitive data in the test, development, and production
                                                    environments. TID: March 2010
IS-AR-07-017               8/29/2007          Separation of Duties at the Eagan, Minnesota; San Mateo, California; and St. Louis, Missouri Information Technology and
                                                    Accounting Service Centers
                                              R-1 — Assess the risk of the duties of all Information Technology and Accounting Service Center positions for the purpose of assigning
                                                    these positions as sensitive. TID: March 2010
                                              R-4 — Coordinate with the Inspection Service to ensure the proper clearance level is attributed to employees. TID: March 2010




                                                                                                                                                       April 1 – September 30, 2009 | 53
APPENDIX E




                                                         Report Title, Recommendation Summary
                                                                       R = Recommendation number
Report Number                     Issue Date                           TID = Target Implementation Date
FT-AR-08-005                      1/24/2008              New York International Service Center — Inbound International Mail
                                                         R-1 — Establish and communicate policies and procedures to address the complete processing and billing cycle for inbound
                                                               international mail. TID: March 2010
                                                         R-3 — Direct International Accounting Branch and appropriate systems personnel to establish controls to ensure that foreign postal
                                                               administrations are correctly billed for all valid dispatches, including dispatch numbers used more than once in a calendar year.
                                                               TID: March 2010
CRR-AR-08-002                     2/12/2008              Security Review of the Electronic Verification System
                                                         R-2 — Revise Publication 91, Confirmation Services Technical Guide, to require mailers to utilize a secure file transfer method when
                                                               transmitting manifests for electronic verification to the Postal Service. TID: December 2009
EN-AR-08-002                      2/29/2008              St. Louis Airport Mail Center Outsourcing
                                                         R-2 — Establish a post-implementation review program for Airport Mail Centers (AMC) that compares anticipated savings with actual
                                                               results. TID: September 2009
                                                         R-3 — Conduct a post-implementation review for the St. Louis AMC closure and outsourcing initiative using the guidance established in
                                                               recommendation 2. TID: September 2009
IS-AR-08-006                      3/6/2008               Identity Theft Potential in Postal Service Information Systems
                                                         R-1 — Ensure that employees and contractors accessing identified systems have the appropriate security clearance and that the
                                                               clearance status is documented with the access request. TID: June 2009
IS-AR-08-008                      3/11/2008              National Accounting Oracle Financials Application Data Encryption Follow-Up
                                                         R-2 — Perform verification tests to ensure management identifies and adequately protects all sensitive information in accordance with
                                                               policy. TID: September 2009
IS-AR-08-009                      3/14/2008              Update Processes for Active Directory and CA-ACF2
                                                         R-1 — Review the manager roles in the two systems to determine how these roles can be integrated. TID: September 2010
                                                         R-2 — Review the capabilities and establish requirements for tracking employees assigned to detail positions and how to pass on timely
                                                               and accurate data to another system. TID: September 2010
FF-AR-08-131                      3/19/2008              Fiscal Year 2007 Financial Installation Audits — Business Mail Entry Units
                                                         R-2 — Provide proper management oversight and instructions to schedule periodic verifications when Periodicals mailings are received
                                                               during non-business hours. TID: November 2009
CRR-AR-08-003                     3/31/2008              Application Controls Review of the Electronic Verification System
                                                         R-1 — Re-evaluate all warning messages in the Product Tracking System to determine whether they impact the postage calculation.
                                                               TID: December 2009
                                                         R- 2 — Strengthen the edit rules in the Product Tracking System to enforce the requirements for destination entry discounts.
                                                               TID: March 2010
FT-AR-08-010                      3/31/2008              Fiscal Year 2007 Postal Service Financial Statements Audit — St. Louis Information Technology and Accounting
                                                                 Service Center
                                                         R-2 — Modify policies and procedures to include the destination facility validation in the highway extra trips payment process.
                                                               TID: June 2009
DA-AR-08-005                      5/21/2008              Status of Intelligent Mail Enabling Infrastructure
                                                         R-2 — Ensure contingency plans for the server consolidation program include extended maintenance for micro-computers or provide for
                                                               other appropriate contingency plans, if deployment is delayed beyond 2009. TID: November 2009
DA-AR-08-006                      6/4/2008               Flats Sequencing System: Production First Article Testing Readiness and Quality
                                                         R-4 — Develop a recovery schedule to ensure the Preliminary Production Baseline Technical Data Package will be available before the
                                                               production First Article Test begins. TID: September 2009
                                                         R-5 — Ensure that the initial Maintenance Diagnostic and Support System and the Program Control System functionalities are available
                                                               for First Article Testing and develop a schedule for future design releases. TID: July 2009
                                                         R-6 — Validate the supplier’s ability to provide qualified personnel to support Flats Sequencing Systems on all mail processing tours.
                                                               TID: December 2009
                                                         R-7 — Ensure that the supplier follows the quality control plan and the configuration control process and validates that the first five
                                                               production systems are built to the same drawing configuration. TID: October 2009




54 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                        APPENDIX E




                             Report Title, Recommendation Summary
                                           R = Recommendation number
Report Number   Issue Date                 TID = Target Implementation Date
SA-MA-08-002    6/17/2008    Location of Southeast Area Office Space
                             R-2 — Conduct a detailed analysis to determine the optimal location for the Southeast Area office. TID: September 2009
IS-AR-08-012    6/25/2008    Security Vulnerability Assessment of the Electronic Travel Voucher System
                             R-5 — Work together to implement Triple Data Encryption Standard cryptography to encrypt credit card numbers stored within the
                                   Electronic Travel Voucher System. TID: September 2009
EN-AR-08-004    7/16/2008    Miami Airport Mail Center Outsourcing
                             R-1 — Perform a post-implementation review to determine the cost savings from the Miami Airport Mail Center outsourcing initiative.
                                   TID: September 2009
FF-MA-08-001    7/21/2008    Fiscal Year 2008 — Use of No-Fee Money Orders
                             R-2 — Evaluate the feasibility of restricting the use of no-fee money orders for local purchases in order to reduce the Postal Service’s
                                   exposure to financial loss. TID: December 31, 2009
SA-AR-08-008    7/23/2008    Leased Facility Maintenance Responsibility in the Great Lakes Area
                             R-2 — Require the Great Lakes Facilities Service Office to collect the $62,625 in recoverable supported questioned costs.
                                   TID: January 2013
SA-AR-08-009    7/23/2008    Postal Service Continuity of Operations for the Great Lakes Area
                             R-1 — Update contact information of key continuity of operations personnel at least semiannually, or more often as changes occur.
                                   TID: December 2009
                             R-2 — Complete continuity of operations training, including Postal Alert and Notification System training. TID: December 2009
                             R-3 — Identify and prioritize essential functions. TID: December 2009
                             R-4 — Establish a formal review process to ensure continuity of operations plans are completed, updated annually, and maintained in
                                   the Postal Alert and Notification System, as required. TID: December 2009
                             R-5 — Establish an area emergency management coordinating committee to provide oversight and assistance to district and facility
                                   Emergency Management Teams in establishing, implementing, and reviewing emergency management plans.
                                   TID: December 2009
                             R-6 — Establish specific guidance for identifying and selecting alternate facilities, to include, at a minimum, the number of alternate
                                   facilities that should be identified, and criteria regarding location, mail volume, and mail capacity. TID: December 2009
                             R-7 — Require personnel responsible for continuity of operations at primary and alternate facilities to conduct tests and exercises to
                                   ensure alternate facilities can effectively process the primary facilities’ mail. TID: December 2009
SA-AR-08-010    7/24/2008    Postal Service Continuity of Operations for the Pacific Area
                             R-1 — Establish a formal review process to ensure continuity of operations plans are completed, updated annually, and maintained in
                                   the Postal Alert Notification System, as required. TID: December 2009
SA-AR-08-013    8/22/2008    Security Clearances for Postal Service Employees
                             R-1 — Establish and implement a policy to periodically assess the risks associated with the duties of all Postal Service positions to
                                   determine which positions require a security clearance. TID: March 2010
                             R-2 — Revise the Administrative Support Manual, as appropriate, to reflect changes to the list of positions requiring a security
                                   clearance. TID: March 2010
CRR-AR-08-006   8/25/2008    Controls Over the International Reconciliation System
                             R-2 — Ensure all significant issues identified during Customer Acceptance Test are corrected before placing the software release into
                                   production. TID: September 2009
                             R-4 — Promptly incorporate edit requirements provided by the end-user into International Reconciliation System functionality.
                                   TID: September 2009
IS-AR-08-016    8/29/2008    Identity Theft Potential in the Change of Address Process
                             R-1 — Update the Internet and telephone Change of Address applications. TID: November 2009
NO-AR-08-007    9/15/2008    Powered Industrial Vehicle Management System at the Raleigh Processing and Distribution Center
                             R-1 — Use the Powered Industrial Vehicle Management System to the fullest extent possible to manage operations and continue to
                                   improve mail processing efficiency by reducing 9,000 workhours in tow and forklift operations by FY 2010.
                                   TID: October 2009




                                                                                                                                       April 1 – September 30, 2009 | 55
APPENDIX E




                                                         Report Title, Recommendation Summary
                                                                       R = Recommendation number
Report Number                     Issue Date                           TID = Target Implementation Date
EN-AR-08-007                      9/23/2008              Assessment of the Remote Encoding Center Network Consolidation Process
                                                         R-1 — Clarify the methodology used to select remote encoding centers for closure in future business cases. TID: February 2010
DR-AR-08-009                      9/29/2008              Vehicle Maintenance Facilities — Scheduled Maintenance Service in the Great Lakes Area
                                                         R-5 — Maintain the most efficient combination of vehicle maintenances facility and commercial resources based on geographical
                                                               location and costs; and, make optimal use of the Postal Service’s national vehicle shuttle agreement or other local commercial
                                                               shuttle services, when cost effective, for transporting vehicles to and from maintenance facilities. TID: January 2010
IS-AR-09-001                      10/8/2008              Electronic Travel Voucher System Controls
                                                         R-1 — Revise Postal Service Handbook F-15, Travel and Relocation, to require travelers to arrange for lodging at the prevailing
                                                               government lodging rate, whenever practical. TID: September 2010
                                                         R-2 — Revise Postal Service Handbook F-15, Travel and Relocation, to require travelers to obtain prior approval and justify exceeding
                                                               the government lodging rate within the notes on the electronic voucher. TID: September 2010
                                                         R-3 — Customize the Electronic Travel Voucher System Controls (ETVS) to require the traveler to input a value in the room tax field
                                                               (even if the room tax is zero) or provide the traveler with a check box to indicate taxes not applicable in cases where the lodging
                                                               stay is tax exempt. TID: September 2010
                                                         R-4 — Customize the ETVS to remove the option to combine room rate and room taxes into a single entry. TID: September 2010
MS-AR-09-001                      10/10/2008             Shortpaid Postage — Information-Based Indicia Priority Mail
                                                         R-2 — Update the Domestic Mail Manual (DMM) and other applicable manuals and handbooks to establish specific guidelines and
                                                               assign roles and responsibilities for identifying shortpaid postage on Information-Based Indicia (IBI) Priority Mail, including a
                                                               procedure for identifying counterfeit/duplicate IBI Priority Mail labels at mail entry points. TID: October 2009
                                                         R-3 — Provide formal training to employees who accept and process IBI Priority Mail. TID: October 2009
MS-AR-09-002                      10/14/2008             Shortpaid Postage — Information-Based Indicia Parcel Post Mail
                                                         R-2 — Update the DMM and other applicable manuals and handbooks to establish specific guidelines and assign roles and
                                                               responsibilities for identifying shortpaid postage on Information-Based Indicia (IBI) Post mail, including a procedure for
                                                               identifying counterfeit/duplicate IBI Post mail labels at mail entry points. TID: October 2009
                                                         R-3 — Provide formal training to employees who accept and process IBI Parcel Post mail. TID: October 2009
NO-AR-09-001                      12/3/2008              Powered Industrial Vehicle Management System at the Louisville, Kentucky Processing and Distribution Center
                                                         R-1 — Ensure the Powered Industrial Vehicle Management System at the Louisville P&DC functions as intended and produces efficiency
                                                               improvements. TID: September 2009
DA-AR-09-002                      12/24/2008             Radio Frequency Identification Technology: Asset Management.
                                                         R-1 — Explore opportunities to employ radio frequency identification technology to reduce the amount of losses in pallet inventories.
                                                               TID: November 2009
FF-AR-09-055                      12/26/2008             Fiscal Year 2008 Financial Installation Audits — Post Offices, Stations, and Branches
                                                         R-5 — Issue guidance to the field to destroy all copies of Postal Service Form 1096 and determine when all forms have been destroyed.
                                                               TID: December 2009
                                                         R-6 — Update the Administrative Support Manual for securing and retaining Postal Service Form 5659 and Form DS-11.
                                                               TID: December 2009
FT-MA-09-001                      1/13/2009              Postal Service Management Instruction — Expenses for Internal and External Events
                                                         R-2 — Consult with senior level management to further update the Management Instruction, Expenses for Internal and External Events
                                                               to require that all expenses associated with internal and external events be included in a unique general ledger account(s).
                                                               TID: September 2010
DR-AR-09-004                      1/30/2009              Vehicle Warranty Claims Process
                                                         R-5 — Collaborate with vehicle manufacturer’s to ensure the Postal Service receives detailed warranty reimbursement data to allow
                                                               reconciliation. TID: November 2009
NL-AR-09-001                      2/13/2009              Postal Vehicle Service Transportation Routes — Minneapolis Processing and Distribution Center
                                                         R-3 — Reassess the 9,247 hours and eliminate the hours as indicated by the reassessment or document the reasons for retaining the
                                                               hours. TID: November 2009




56 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                      APPENDIX E




                             Report Title, Recommendation Summary
                                           R = Recommendation number
Report Number   Issue Date                 TID = Target Implementation Date
CA-AR-09-002    2/18/2009    The Postal Service’s Certification Process for Non-Mail Freight Transportation Invoices
                             R-1 — Develop and implement written procedures for the independent review of invoices to confirm the receipt of goods and services,
                                   and to ensure accurate payment. TID: January 2010
IS-AR-09-004    2/20/2009    Access Controls in the Enterprise Data Warehouse
                             R-1 — Set expiration dates to match contract expiration dates. TID: December 2009
                             R-2 — Utilize eAccess to manage nonstandard access of contractors. TID: December 2009
                             R-3 — Update the Business Impact Assessment for the Enterprise Data Warehouse and recertify the system as required.
                                   TID: December 2009
DR-MA-09-001    2/23/2009    Management of City Letter Carriers’ Street Performance
                             R-1 — Revise existing Postal Service policies and Standard Operating Procedures to reduce the number of required Delivery Operations
                                   Information System reports from eight to four to aid supervisors in managing carrier street performance. TID: March 2010
                             R-2 — Modify the Delivery Operations Information System Route/Carrier Daily Performance Analysis Report to show “exceptions” —
                                   for example, only actual route times varying from projected route times. TID: March 2010
                             R-3 — Reinforce to delivery supervisors and managers the importance of holding performance discussions with city letter carriers,
                                   conducting street observations, and taking corrective actions for misconduct issues. TID: June 2009
                             R-5 — Deploy additional Global Positioning System technology for 400 motorized city routes in the Chicago District for more effective
                                   monitoring and tracking during street delivery. TID: January 2010
CRR-AR-09-003   3/5/2009     Controls Over International Air Transportation Payments
                             R-1 — Identify all potential payment deficiencies in the Surface Air Support System and implement system changes. TID: January 2010
                             R-3 — Consult with Supply Management concerning the recovery of contract payments to the initial contractor. TID: June 2009
                             R-4 — Develop exception reports capable of identifying errors in payments to air carriers. TID: January 2010
                             R-5 — Implement a reconciliation process to rectify payment errors to international air carriers in a timely manner. TID: January 2010
MS-AR-09-005    3/17/2009    Shortpaid Information-Based Indicia Stealth Postage
                             R-4 — Provide formal training to employees who accept and process Information-Based Indicia (IBI) stealth mailpieces.
                                   TID: October 2009
DA-AR-09-005    3/31/2009    Recycling Opportunities — Pacific Area
                             R-1 — Provide additional recycling training to maintenance and operations personnel responsible for conducting recycling activities and
                                   expand recycling programs throughout the area. TID: September 2009
                             R-2 — Improve awareness of policies and procedures that; require appropriately designated site personnel to certify the tonnage of
                                   recyclable material and trash collected by contractors. TID: July 2009
                             R-3 — Improve awareness of policies and procedures that; require accurate recording of recycling revenues. TID: July 2009
DA-AR-09-006    3/31/2009    New York District Building Equipment Maintenance
                             R-1 — Define business requirements for capturing maintenance benefits associated with remote building management systems.
                                   TID: October 2009
                             R-2 — Update building equipment maintenance staffing packages to reflect current staffing requirements and subsequently conduct a
                                   cost benefit analysis to reassess the need for labor distribution code 37 positions. TID: October 2009
                             R-3 — Issue a Maintenance Management Order to clarify requirements for periodically reviewing and updating building equipment
                                   maintenance staffing packages. TID: October 2009
IS-AR-09-006    3/31/2009    Intelligent Mail Barcode Project Planning and Application Development Life Cycle
                             R-1 — Establish an incremental approach for approval and funding for future project releases. TID: June 2009
                             R-3 — Ensure the Certification and Accreditation process is completed and all residual risks are identified and mitigated before
                                   deploying the IMB Full Service-Seamless Acceptance Service Performance Release 1 application. TID: December 2009




                                                                                                                                     April 1 – September 30, 2009 | 57
APPENDIX E




                                                         Report Title, Recommendation Summary
                                                                       R = Recommendation number
Report Number                     Issue Date                           TID = Target Implementation Date
MS-AR-09-006                      3/31/2009              Intelligent Mail/Seamless Acceptance Project Management
                                                         R-1 — Quantify strategic benefits to the Postal Service and mailers. TID: October 2009
                                                         R-2 — Prepare an integrated project budget and expenditure tool for future project releases to track costs and provide reports during
                                                               regular status meetings. TID: September 2009
                                                         R-4 — Incorporate effort-based work hour requirement estimates into work plans for future project releases. TID: September 2009
                                                         R-5 — Develop a risk management plan to address project risks. The plan should define a process for conducting risk management
                                                               activities. TID: None
                                                         R-6 — Develop a procurement plan consistent with the Postal Service’s purchasing guidelines to manage procurements related to the
                                                               project. TID: September 2009
SA-AR-09-003                      3/31/2009              National Leased Facility Maintenance Responsibility
                                                         R-1 — Establish and implement controls to ensure Postal Service personnel are aware of and follow existing written policies and
                                                               procedures for lessor maintenance and repairs. TID: Not provided
                                                         R-2 — Instruct the Facilities Service Offices to seek reimbursement for questioned costs identified during the audit.
                                                               TID: September 2009
DA-AR-09-007                      4/7/2009               Custodial Maintenance: New York District
                                                         R-1 — Update staffing packages to eliminate duplication in cleaning operations, to include an adjustment of cleaning frequencies as
                                                               determined by local conditions. TID: June 2009
                                                         R-2 — Review the benefits of extending contract eligibility to larger postal facilities for inclusion in the next collective bargaining
                                                               agreement beginning Nov. 21, 2010, and subsequently utilize contract staffing to fill custodial positions lost through attrition.
                                                               TID: None
MS-AR-09-007                      4/27/2009              Performance-Based Incentive Programs for Sales Employees
                                                         R-1 — Revise the business rules to incorporate guidance on factors field management should consider in assigning accounts to sales
                                                               employees. TID: September 2009
                                                         R-2 — Communicate the revised business rules to all sales employees. TID: September 2009
                                                         R-5 — Align performance incentives with overall business results. TID: October 2009
NO-MA-09-002                      5/8/2009               Assessment of Overall Plant Efficiency
                                                         R-1 — Reduce 22.9 million workhours by FY 2011 with an associated economic impact of $969 million. We will report $969 million in
                                                               unrecoverable questioned costs in the Semiannual Report to Congress. TID: October 2010
MS-AR-09-008                      5/28/2009              Postal Service Mail Processing Equipment’s Ability To Read Postage On First-Class Letters
                                                         R-1 — Develop and disseminate national Standard Operating Procedures for processing and handling Advanced Facer Canceller System
                                                               (AFCS) bypass letters to include procedures for identifying shortpaid and unpaid postage. TID: January 2010
                                                         R-2 — Use Limited Duty and Light Duty personnel to assist with identifying and processing shortpaid and unpaid letters.
                                                               TID: August 2009
                                                         R-3 — Determine the feasibility of modifying the AFCS to include postage due and fraudulent postage detection software (including
                                                               detection of reused stamps). These modifications should be considered for upcoming AFCS deployments. TID: January 2010
                                                         R-4 — Determine the feasibility of mandating that all postage payment methods be encoded with standardized symbol coding, special
                                                               ink, barcode or other tracking device to allow the AFCS to read postage amounts.
                                                               TID: January 2010
                                                         R-5 — Re-evaluate the phosphorescence coding methodology to include raising the coding denomination from the 10 cent stamp to the
                                                               current First-Class Mail card postage. This modification should be considered for upcoming AFCS deployments. TID: January
                                                               2010
                                                         R-6 — Determine the causes of shortpaid and overpaid Postage Validation Imprinter labels on First-Class Mail letters and develop
                                                               awareness training for retail employees. TID: None




58 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                         APPENDIX E




                             Report Title, Recommendation Summary
                                           R = Recommendation number
Report Number   Issue Date                 TID = Target Implementation Date
CA-AR-09-005    6/1/2009     Supply Management’s Oversight of Delegations of Authority
                             R-2 — Remind delegatees of their responsibility to ensure compliance with their delegation of authority letters and require delegatees to
                                   certify they have instituted a system of controls and oversight to ensure:
                                           Best value determinations are performed and documented.
                                           Annual reports are developed and provided to Supply Management detailing financial activities, including the number of
                                            contracts or agreements entered into and associated expenditures.
                                           Annual ethics training is completed and documented for staff involved in administering contracts or agreements.
                                            TID: January 2010
                             R-3 — Require the Travel, Retail, and Temporary Services Category Management Center to develop procedures for collecting reports
                                   required under the delegations of authority and for reviewing delegatees’ control and oversight systems to ensure the delegation
                                   of authority letter minimum control requirements are met. If minimum control requirements are not met, discontinuation should
                                   be considered, with the results and justification documented in an oversight file. TID: January 2010
DA-MA-09-001    6/12/2009    Sustainability: Promoting Energy and Recycling Compliance
                             R-1 — Reinforce energy and recycling polices with installation managers. TID: October 2009
                             R-2 — Require periodic talks to employees on energy and recycling practices. TID: August 2009
DR-AR-09-007    6/30/2009    Vehicle Maintenance Facilities Scheduled Maintenance — National Capping Report
                             R-4 — Establish an effective process for ensuring vehicle maintenance facility management and vehicle post office management
                                   include all contract and repair maintenance costs in the Vehicle Maintenance Accounting System or its replacement.
                                   TID: September 2009
CA-AR-09-006    7/1/2009     Flats Sequencing System Contractual Remedies
                             R-3 — Ensure that any contract utilizing milestone payments include the standard clauses for advance or progress payments, as
                                   appropriate, to limit risk and protect the Postal Service’s interest. TID: November 2009
SA-AR-09-005    7/7/2009     Postal Service Aviation Security Program at Contract Postal Units
                             R-1 — Provide training to contracting officer’s representatives and contract postal unit personnel on their roles and responsibilities to
                                   ensure aviation security is appropriately implemented at contract postal units. TID: January 2010
                             R-2 — Require contracting officer’s representatives and homeland security coordinators to coordinate with contract postal units to
                                   ensure contract postal unit personnel are aware of their aviation security responsibilities. TID: November 2009
                             R-3 — Ensure contractor officer’s representatives notify the contracting officer when transitioning their duties; and ensure contracting
                                   officers properly prepare letters of appointment when changes occur. TID: November 2009
                             R-4 — Establish and implement policies and procedures requiring aviation security reviews, including seeding of test mail packages
                                   at contract postal units, to measure the performance and effectiveness of contract postal units in preventing anonymous and
                                   potentially dangerous mail from entering the mailstream. TID: November 2009
MS-AR-09-009    7/10/2009    Customer Complaints
                             Revise the standard operating procedure to incorporate the following:
                             R-1 — A quality control process that requires District Consumer Affairs officials to review closed cases to ensure they are properly
                                   resolved and documented. TID: October 2009
                             R-2 — Guidance on how District Consumer Affairs officials and post office employees should handle resolved complaints when
                                   customers cannot be contacted. TID: October 2009
                             R-3 — Reiterate the importance of complying with the Headquarters customer complaints standard operating procedures to District
                                   Consumer Affairs officials and post office employees. TID: October 2009
NL-AR-09-006    7/20/2009    Postal Vehicle Service Transportation Routes — Philadelphia Processing and Distribution Center
                             R-1 — Ensure that Philadelphia Processing and Distribution Center managers follow prescribed fleet management procedures for
                                   making Postal Vehicle Service schedules effective, including conducting schedule and vehicle utilization reviews.
                                   TID: March 2010
                             R-2 — Verify elimination of the 6,859 workhours already agreed to by local and area management from Postal Vehicle Service trip
                                   schedules. TID: March 2010
                             R-4 — Verify the elimination of the eight highway contract route trips identified during OA’s audit by local management.
                                   TID: October 2009
                             R-5 — Eliminate the 14 highway contract route trips within the identified highway contract routes, already agreed to by local and area
                                   management. TID: October 2010




                                                                                                                                        April 1 – September 30, 2009 | 59
APPENDIX E




                                                         Report Title, Recommendation Summary
                                                                       R = Recommendation number
Report Number                     Issue Date                           TID = Target Implementation Date
DA-AR-09-009                    7/23/2009                Delivery Bar Code Sorter Maintenance Opportunities
                                                         R-1 — Emphasize adherence to the Maintenance Management Order requirements for production-based maintenance until an
                                                               automated support solution is available. TID: August 2009
                                                         R-2 — Request priority funding for a system support solution for production-based maintenance. TID: October 2010
DA-AR-09-010                     7/23/2009               Overall Equipment Effectiveness: Delivery Bar Code Sorter
                                                         R-1 –Coordinate regularly to minimize maintenance issues and improve Delivery Bar Code Sorter Overall Equipment Effectiveness.
                                                                TID: August 2009
                                                         R-2 – Require all machine operators and supervisors to have current Delivery Bar Code Sorter training. TID: December 2009
NO-AR-09-007                     7/23/2009               Powered Industrial Vehicle Management System at the Oakland Processing and Distribution Center
                                                         R-1 — Use the Powered Industrial Vehicle Management System to the fullest extent possible to manage operations and continue to
                                                               improve mail processing efficiency by reducing 38,000 workhours in tow and forklift operations by FY 2011, with an associated
                                                               economic impact of over $14.5 million present value dollars in savings occurring over 10 years. TID: None
IS-AR-09-009                    7/30/2009                Disaster Recovery Capabilities for the Enterprise Payment Switch
                                                         R-2 — Create a comprehensive application disaster recovery plan for the Enterprise Payment Switch solution. TID: September 2009
NL-AR-09-005                     7/17/2009               Postal Vehicle Service Transportation — Philadelphia Bulk Mail Center\
                                                         R-2 — Phase out the additional 8,750 postal vehicle service workhours that management agreed were in excess of the workload.
                                                               TID: July 2010
                                                         R-3 — Ensure the bulk mail center managers periodically assess workload and staffing requirements to maintain appropriate postal
                                                               vehicle service staffing levels. TID: October 2010
NL-AR-09-007                     7/31/2009               Air Networks — Federal Express Transportation Agreement — Southeast Area
                                                         R-1 — Use surface transportation to the extent possible for mail that does not require air transportation to meet Postal Service on-time
                                                               standards. TID: February 2010
                                                         R-2 — Transport mail to the maximum extent, possibly using the service-responsive capacity of passenger airlines under contract with
                                                               the Postal Service. TID: February 2010
                                                         R-3 — Sort mail into bypass containers as appropriate. TID: February 2010
NL-MA-09-001                    8/5/2009                 Management Advisory — Fuel Management Initiatives for Surface Network Operations — Fuel Purchasing Strategy
                                                         R-1 — Coordinate to assign appropriate accountability and cross-functional authority for the planning, implementation, and success of
                                                               the National Fuel Purchasing Strategy; and provide adequate support from the appropriate Headquarters’ functional areas and
                                                               the nine Postal Service geographical areas. TID: October 2009
                                                         R-2 — Ensure appropriate allocation of contracting, operational, and financial resources at all levels to support the timely
                                                               implementation of the National Fuel Purchasing Strategy. TID: October 2009
                                                         R-3 — Ensure adequate consideration of project management principles and best practices outlined in the report in planning and
                                                               implementing the National Fuel Purchasing Strategy, including development of a project management plan, which includes
                                                               project goals, performance measures, baselines and target dates, changes to target dates, and documented reasons for
                                                               changes. TID: June 2010
                                                         R-4 — Develop a risk mitigation plan to address major project risks to help achieve the stated goals of the National Fuel Purchasing
                                                               Strategy. TID: June 2010
                                                         R-5 — Develop measurement factors to monitor achievement of the stated goals of the National Fuel Purchasing Strategy, and consider
                                                               including these factors as part of the National Performance Assessment plan as appropriate. TID: June 2010
DA-AR-09-011                     8/13/2009               Custodial Maintenance: Nationwide
                                                         R-1 — Update staffing packages to eliminate duplication in cleaning operations, including an adjustment of cleaning frequencies as
                                                               determined by local conditions. TID: September 2009
                                                         R-2 — Conduct a Lean Six Sigma process improvement initiative in conjunction with the American Postal Workers Union to identify non-
                                                               value tasks in the current custodial standard and negotiate revisions. TID: November 2010




60 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                         APPENDIX E




                             Report Title, Recommendation Summary
                                           R = Recommendation number
Report Number   Issue Date                 TID = Target Implementation Date
NL-AR-09-008    8/14/2009    Vehicle Management — National Trailer Lease Renewal — Western Area
                             R-1 — Develop a comprehensive process to identify trailer requirements and manage trailer inventory and use. TID: September 2009
                             R-3 — Analyze the number of trailers needed to transport mail and equipment and return unneeded trailers to the Postal Service
                                   Headquarters for reallocation or return to the leasing contractor, saving the Postal Service about $1.5 million over the next 10
                                   years. TID: September 2009
                             R-4 — Analyze storage requirements and procure storage space in the most cost-effective manner. TID: September 2009
CRR-AR-09-006   8/19/2009    Electronic Verification System Rejected Transactions
                             R-1 — Develop and implement requirements to identify and track all rejected Electronic Verification System transactions to ensure
                                   mailers correct and resubmit the transactions for processing. TID: November 2010
FF-AR-09-211    8/26/2009    Postal Service’s Relocation Policy
                             R-2 — Clarify when the Postal Service should (1) fill vacancies locally versus nationally, (2) decline to pay relocations, and (3) reduce
                                   benefits (in addition to the already proposed relocation policy changes). TID: None (Audit Resolution)
DA-AR-09-012    9/4/2009     Flats Sequencing System: First Article Retest Results
                             R-1 — Install and test only one additional Flats Sequencing System until the system demonstrates operational stability and successfully
                                    passes the field acceptance test. TID: September 2009
IS-AR-09-011    9/11/2009    Chase Insight Application Review
                             R-1 — Develop, finalize, and test internal standard operating procedures for processing standard, non-standard, manual, and
                                   emergency wire transfer requests. TID: December 2009
NO-AR-09-012    9/25/2009    Sunday Mail Processing Operations
                             R-1 — Reduce 83,000 workhours, based on fiscal year (FY) 2008 usage, by the end of FY 2010 with an associated economic impact
                                   of approximately $38 million over a 10-year period. TID: None
DR-AR-09-009    9/28/2009    Delivery Vehicle Fuel Management
                             R-1 — Consider as part of the Postal Service’s National Fuel Purchasing Strategy expansion of mobile fueling for city and rural delivery
                                   units with 30 or more routes using Postal Service-owned vehicles, as well as other delivery units as necessary. TID: June 2010
DR-AR-09-010    9/28/2009    Management of Delivery Point Sequencing Percentage Increases for City Delivery — Nationwide Review
                             R-1 — Issue a memorandum to all area and district officials re-emphasizing establishment and operation of oversight Delivery Point
                                    Sequencing (DPS) Improvement Teams. The teams will have all functional staff representation as a critical element in monitoring
                                    operations vital to increasing the city delivery DPS percentage. TID: September 2009
                             R-2 — Require district officials to prioritize and execute tasks, such as updating address databases, monitoring and removing
                                   M-records, identifying and resolving sortation issues, and handling non-Delivery Point Sequencing mail in their delivery units.
                                   TID: October 2009
                             R-3 — Develop and execute an action plan to mitigate low city DPS percentages in delivery units.
                                   TID: October 2009
                             R-4 — Ensure accountability of DPS Improvement Team members for completing assigned tasks to increase and sustain city delivery
                                   DPS percentages and reduce operating costs. TID: October 2009
EN-AR-09-005    9/28/2009    Performance Goals for Market-Dominant Products
                             R-1 — Document the methodology used to develop future performance goals for market-dominant products. TID: None
                             R-3 — Ensure future annual service performance goals are published within 30 days after approval. TID: None
NL-AR-09-009    9/28/2009    Vehicle Management — National Trailer Lease Renewal — Capping Report
                             R-1 — Develop a policy to require areas to establish a comprehensive process to routinely identify trailer requirements and manage
                                   trailer inventory and use, including a process to routinely determine whether trailers are improperly used for storage. TID: None
CA-AR-09-007    9/29/2009    Information Technology’s Preferred Portfolio Partnering Program
                             R-1 — Require documented justification from IT program office personnel when they are not going to follow contractor
                                   recommendations regarding the pricing of task order proposals. TID: September 2009
                             R-2 — Implement industry best practices by moving forward with the award of multiple indefinite delivery indefinite quantity contracts
                                   for IT services that, unless otherwise justified, will provide for competition at the task order level. TID: September 2009




                                                                                                                                        April 1 – September 30, 2009 | 61
APPENDIX E




                                                         Report Title, Recommendation Summary
                                                                       R = Recommendation number
Report Number                     Issue Date                           TID = Target Implementation Date
IS-AR-09-013                      9/29/2009              Business Partner Connectivity — Leased Line Firewalls
                                                         R-1 — Review and validate all business partner connections to Postal Service information resources and notify the Network Connectivity
                                                               Review Board to terminate connections no longer required. TID: December 2009
                                                         R-2 — Modify Handbook AS-805, Information Security, to designate the portfolio managers responsible for informing the Network
                                                               Connectivity Review Board when a business partner connection is no longer required: TID: October 2011
                                                         R-3 — Modify Handbook AS-805, Information Security, to designate the portfolio managers responsible for periodically reviewing and
                                                               validating business partner connectivity to Postal Service networks. TID: October 2011
                                                         R-4 — Track all databases associated with connections on business partner leased line firewalls throughout the lifecycle of the database
                                                               and approve only those connections to databases the Network Connectivity Review Board tracks. TID: September 2009
                                                         R-6 — Modify Handbook AS-805D, Information Security Network Connectivity Process, to require the Network Connectivity Review
                                                               Board to inform Database Support Services of all business partner connection requests to Postal Service databases.
                                                               TID: October 2011
SA-AR-09-008                      9/29/2009              Postal Service Aviation Security Capping
                                                         R-1 — Strengthen internal controls requiring management reviews to ensure corrective actions are taken to improve the performance of
                                                               noncompliant offices. TID: June 2010
                                                         R-2 — Develop and implement performance measures or other appropriate evaluation factors to improve operations personnel
                                                               performance in following established policies and procedures for detecting and preventing anonymous and potentially dangerous
                                                               mail from entering the mailstream. TID: June 2010
NL-AR-09-010                      9/30/2009              Fuel Management Consumption Strategies for Surface Network Operations
                                                         R-1 — Revise the fuel consumption strategy for surface network operations covering Postal Service and HCR transportation to ensure
                                                               that it is comprehensive and implements the industry best practices identified in OA’s audit. TID: None
                                                         R-2 — Assess and implement all opportunities for owned, leased, and contracted vehicles to use technology to reduce wind resistance
                                                               and identify the most viable advanced aerodynamics options consistent with industry best practices and adjust contracts as
                                                               appropriate to account for the reduced fuel need TID: None
                                                         R-3 — Establish and implement tire inflation maintenance requirements for its owned heavy-duty vehicle fleet, as well as its leased, and
                                                               contracted vehicles consistent with industry best practices and adjust contracts as appropriate to account for the reduced fuel
                                                               need. TID: None
                                                         R-5 — Evaluate HCR routes, and where feasible, implement speed limit requirements consistent with industry best practices, without
                                                               negatively impacting service and adjust contracts as appropriate to account for the reduced fuel need. TID: None
NL-AR-09-011                      9/30/2009              Air Networks — Chicago O’Hare Airport Mail Center Operations
                                                         R-1 — Enforce existing productivity standards for the sack sorter operation and establish and enforce appropriate productivity standards
                                                               for the platform operation to reduce workhours and increase efficiency. TID: None
                                                         R-2 — Provide adequate supervision over the sack sorter and platform operations to include ensuring that volume and workhour
                                                               reporting requirements are followed. TID: None
                                                         R-3 — Ensure staff is scheduled commensurate with the mail flow and volume for Express Mail and Automated Package Processing
                                                               System operations and adjust operational workhours accordingly. TID: None
                                                         R-4 — Provide adequate levels of supervision for Express Mail and Automated Package Processing System operations and ensure
                                                               employees properly charge their workhours to the correct operations. TID: None




62 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                         APPENDIX F




APPENDIX F
Significant Management Decisions in Audit Resolution
For the period April 30 – September 30, 2009

As required by the IG Act, the following page discusses information concerning any significant management decision with which the Inspector General disagrees
and is currently in audit resolution.


Postal Service’s Relocation Policy
FF-AR-09-211                                                                                                                                                 8/26/2009
Recommendation 2                          Clarify when the Postal Service should (1) fill vacancies locally versus nationally, (2) decline to pay relocations and
                                          (3) reduce benefits (in addition to the already proposed relocation policy changes).




                                                                                                                                         April 1 – September 30, 2009 | 63
APPENDIX G




APPENDIX G
Investigative Statistics (OIG and Postal Inspection Service Combined)*
For the period April 1 – September 30, 2009

                                                                                       Convictions/        Admin.                                              Amt. to USPS     To Mgmt.
                                     Investigations                 Indictments/            Pretrial       Action               Cost    Fines, Restitution   (from previous    for Admin.
                                        Completed        Arrests    Informations        Diversions**        Taken          Avoidance        & Recoveries          column)***       Action
Mail Theft by Nonemployees
and Contractors1                               1,010        971               361              1,195               23             —                    —                 —            —
Theft, Delay, or Destruction
of Mail by Employees or
Contractors                                     875         251               207               230               446             —            $7,397,917         $165,549           456
Injury Compensation Fraud                       585           26                 27              18               132    $97,614,154       $902,032,633         $2,388,346           135
Assaults and Threats2                           282         131                  21              86               —               —               $2,260                 —            —
Official Misconduct                             826          79                  56              71               524             —            $654,836           $302,882           509
Robbery                                             39       38                  19              38               —               —              $79,845                 —            —
Burglary                                            83       45                  17              50               —               —              $65,292                 —            —
Financial Fraud                                 453         117               107               129               252      $2,371,550         $1,822,411        $1,774,006           323
Revenue Fraud                                       24       45                  13              40                16             —                    —                 —            —
Contract Fraud                                      80        14                 14              12                44    $12,044,104         $45,705,417        $5,108,698            57
Mail Fraud                                      550         534               504               563               —               —           $1,367,395            $2,029            —
Identity Theft                                  628         748               406               774                 3             —                    —                 —            —
                    3
Suspicious Items                                    40        32                   5             27               —               —                    —                 —            —
Nonmailable, Restricted, and
Perishable Matter4                                  71        42                 32              38               —               —                    —                 —            —
Suspicious Substances5                              25         4                   4              6               —               —                    —                 —            —
Child Exploitation and
Obscenity6                                      121         108                  78              95               —               —             $501,475                 —            —
Mailing of Controlled
Substances7                                     479         627               220               481               —               —           $2,790,000        $2,790,000            —
                        8
Money Laundering                                    61       23                  24              48               —               —             $694,920                 —            —
Vandalism and Arson                                 34       22                    8             27               —               —              $12,406            $2,087            —
TOTAL                                         6,266       3,857             2,123              3,928         1,440      $112,029,808       $963,126,807        $12,531,510         1,480


* Statistics include joint investigations with other law enforcement agencies.
** Convictions reported in this period may be related to arrests in prior reporting periods.
*** Amounts include case results of joint investigations with other OIG, federal, state, and local law enforcement entities.

1
    Includes theft and possession of stolen mail.
2
    Includes threats and assaults against on-duty postal employees.
3
    Includes non-threatening items, bombs, threats, hoaxes, and explosive material.
4
    Includes firearms, weapons, intoxicants, extortion threats, and miscellaneous matter.
5
    Includes non-threatening, hazardous, and hoax CBRN (CBRN refers to chemical, biological, radiological, and nuclear).
6
    Obscenity includes mailing of obscene matter, and sexually oriented advertisements.
7
    Includes narcotics, steroids, drug-related proceeds, and drug paraphernalia.
8
    Includes postal money orders.




64 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                                               APPENDIX G




Investigative Statistics (OIG and Postal Inspection Service Combined)*
For the period October 1, 2008 – September 30, 2009

                                                                                       Convictions/        Admin.                                              Amt. to USPS       To Mgmt.
                                     Investigations                 Indictments/            Pretrial       Action               Cost    Fines, Restitution   (from previous      for Admin.
                                        Completed         Arrests   Informations        Diversions**        Taken          Avoidance        & Recoveries          column)***         Action
Mail Theft by Nonemployees
and Contractors1                              2,206        2,251              780              2,329            72                —                    —                 —               —
Theft, Delay, or Destruction
of Mail by Employees or
Contractors                                   1,632          446              384               450            826                —           $7,573,928          $195,898              845
Injury Compensation Fraud                     1,098           44                 47              34            266     $185,909,778      $1,329,450,522         $8,109,978              259
Assaults and Threats2                           647          269                 32              96             —                 —               $2,260                 —               —
Official Misconduct                           1,793          149              118               137          1,076                —           $2,007,057          $610,784            1,051
Robbery                                         109           74                 33              38             —                 —              $79,845                 —               —
Burglary                                            115      100                 30              51             —                 —              $65,292                 —               —
Financial Fraud                                 831          235              228               231            513         $2,401,550          $4,171,414       $4,039,641              610
Revenue Fraud                                   173           86                 39              74             30                —                    —                 —               —
Contract Fraud                                  147           19                 19              13             69       $16,730,659        $53,732,237        $11,838,699               79
Mail Fraud                                     1,169       1,084              946              1,147            —                 —       $5,373,116,666        $2,068,529               —
Identity Theft                                1,283        1,494              760              1,561             3                —                    —                 —               —
                    3
Suspicious Items                                149           60                   7             58             —                 —                    —                 —               —
Nonmailable, Restricted, and
Perishable Matter4                              162           98                 63              92             —                 —                    —                 —               —
Suspicious Substances5                              88        12                 10              13             —                 —                    —                 —               —
Child Exploitation and
Obscenity6                                      292          187              141               173             —                 —             $501,475                 —               —
Mailing of Controlled
Substances7                                     933        1,278              394               945             —                 —           $4,740,273        $2,790,000               —
                        8
Money Laundering                                    124       48                 43             101             —                 —           $1,582,590                                 —
Vandalism and Arson                                 57        56                 16              30             —                 —              $12,406            $2,087               —
TOTAL                                        13,008        7,990            4,090              7,573        2,855      $205,041,987      $6,777,035,965        $29,655,616            2,844


* Statistics include joint investigations with other law enforcement agencies.
** Convictions reported in this period may be related to arrests in prior reporting periods.
*** Amounts include case results of joint investigations with other OIG, federal, state, and local law enforcement entities.

1
    Includes theft and possession of stolen mail.
2
    Includes threats and assaults against on-duty postal employees.
3
    Includes non-threatening items, bombs, threats, hoaxes, and explosive material.
4
    Includes firearms, weapons, intoxicants, extortion threats, and miscellaneous matter.
5
    Includes non-threatening, hazardous, and hoax CBRN (CBRN refers to chemical, biological, radiological, and nuclear.)
6
    Obscenity includes mailing of obscene matter, and sexually oriented advertisements.
7
    Includes narcotics, steroids, drug-related proceeds, and drug paraphernalia.
8
    Includes postal money orders.




                                                                                                                                                             April 1 – September 30, 2009 | 65
APPENDIX H




APPENDIX H
Summary of U.S. Postal Inspection Service Actions Under 39 USC 3005 and 3007
For the period April 1 – September 30, 2009


                                                      Complaints              Consent                            Cease &
Type of Scheme                                             Filed           Agreements             FROs      Desist Orders
Advance Fee                                                        2                     2             1                2
Charity                                                            1                     1            —                 1
Contests/Sweepstakes                                              15                    15            —                15    Financial Reporting on Investigative
Coupon Fraud                                                       1                     1            —                 1    Activities
False billings                                                    33                     2             2                6    Type
Internet Auction                                                   1                     1            —                 1    Personnel                    $145,620,922
Lotteries (Foreign and Domestic)                                   4                     3             1                4    Nonpersonnel                   26,340,215
Merchandise:                                                     —                     —              —               —      TOTAL                       $171,961,137
Failure to furnish                                                10                     4             1                5    Capital obligations             $691,024
Failure to pay                                                     2                     2            —                 2
Misrepresentation                                                  2                   —              —               —
Miscellaneous                                                   157                     33             5              36
Telemarketing                                                    —                     —              —               —
Work at home                                                       3                     2             1                2
TOTAL                                                           231                    66             11              75



Other Administrative Actions
Administrative Action Requests                                                                                        231
Temporary Restraining Orders Requested                                                                                  1
Temporary Restraining Orders issued                                                                                     1
Cases Using Direct Purchase Authority                                                                                  —
Civil Penalties (Section 3012) Imposed                                                                              $1,000
Test Purchases                                                                                                         —
Withholding Mail Orders Issued                                                                                        123
Voluntary Discontinuances                                                                                              —



Administrative Subpoenas Requested by the Postal Inspection Service
There were no requests during the reporting period.




66 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                                                      APPENDIX I




APPENDIX I
Closed Congressional and Board of Governors’ Inquiries
For the period April 1 – September 30, 2009

This appendix lists the Congressional and Board of Governors’ inquiries the OIG and the Postal Inspection Service closed during this reporting period. The Joint
Legal Services Center reviewed these inquiries and coordinated work with Postal Inspection Service and OIG offices to resolve allegations and disputes and to
help identify systemic issues. Inquiries are listed in the chronological order of receipt.



Inspector General Investigations (62)
Requestor           Allegation/Concern                                      Major Findings                                                                                           Closure Date
Representative,     An OIG investigation interfered with the                The allegations were not substantiated. Instead, the investigators found the complainant and                   5/7/2009
New Mexico          complainant's small business, constituting an           another postal employee colluded to conceal outside employment while collecting workers'
                    unfair labor practice.                                  compensation benefits. The investigation was a part of the congressional mandate that the OIG
                                                                            protect the integrity and efficiency of the Postal Service.
Senator,            Preferential treatment to a postal manager; misuse      The investigation did not substantiate the allegations, finding personnel actions were consistent             5/11/2009
Mississippi         of postal vehicle.                                      with Postal Service policy and guidelines. Findings regarding the misuse of a postal vehicle were
                                                                            forwarded to management.
Representative,     Falsification of information during an investigation,   The investigation did not substantiate the allegations.                                                       7/22/2009
Texas               threats against the subject.
Senator,            Mail tampering and theft by postal employees at         The investigation found no evidence of mail tampering or theft by postal employees.                           5/21/2009
Maryland            multiple facilities in Maryland.
Senator,            Lost or misplaced parcels presented for shipping at     The investigation did not substantiate the allegations, and noted the electronic records for more              5/7/2009
Maryland            a Maryland Post Office.                                 than 50 percent of complainant's mailings showed anomalies indicating tracking numbers
                                                                            obtained for parcels were not mailed or mailed at a later date.
Representative,     Mail tampering and potential identity theft.            The investigation did not substantiate the allegations, finding tears and rips were consistent with           4/14/2009
Maryland                                                                    the damage caused by mail sorting machines.
Governor, Florida   Mail theft of gift cards.                               Due to the lack of a tracking number on the package, the investigation did not determine what                  4/2/2009
                                                                            happened to the mail. Special Agents provided information on vendor replacement policy.
Representative,     Whistleblower reprisal resulting in termination.        The investigation revealed the employee was not terminated because of management's                            6/25/2009
Arizona                                                                     knowledge of a protected communication; the termination was based on legitimate
                                                                            business reasons.
Representative,     Letter carrier's safety compromised when a              The investigation substantiated the allegations and noted a prohibition on the use of letter carriers          5/5/2009
Florida             Postal Inspector improperly had him unwittingly         for controlled deliveries. Management counseled team leaders and took other corrective steps.
                    assist in a controlled delivery of drugs and the
                    resulting prosecution.
Senator, Texas      Lost or stolen mail containing books,                   The investigation did not substantiate the allegations of internal theft and noted no patterns of              4/2/2009
                    prescription drugs.                                     similar thefts in that area.
Senator, Texas      Delay of mail and mail tampering.                       The investigation did not substantiate the allegations; all mail pieces provided                              4/14/2009
                                                                            by complainant were delivered within postal time standards and showed no signs of tampering.
Senator,            Internal mail theft.                                    The investigation did not substantiate the allegation of internal mail theft, however, the allegation          5/1/2009
Maryland                                                                    was forwarded to the Postal Inspection Service because it appeared to be external mail theft.
Senator,            Former postal employee contests responsibility for      We found no evidence to support the employee's assertions and learned he was more                             5/13/2009
Maryland            accountability shortages.                               concerned about administrative relief.
Senator,            Postal Service should prosecute postal managers         The investigation found no evidence of behavior warranting criminal or civil action beyond the                5/26/2009
Maryland            who lost an Equal Employment Opportunity case.          award given by the court.
Senator, New        Internal mail theft.                                    The investigation did not substantiate the allegation, nor could Special Agents locate the lost              6/29/2009
Mexico                                                                      item with the available tracking information.
Representative,     Harassment by a Special Agent during an interview. The investigation did not substantiate the allegation.                                                            4/22/2009
Virginia




                                                                                                                                                                     April 1 – September 30, 2009 | 67
APPENDIX I




Requestor            Allegation/Concern                                     Major Findings                                                                                        Closure Date
Senator,             Theft of coins from the mail.                          The investigation substantiated the allegations, finding an employee was stealing coins, cash,            7/7/2009
Wisconsin                                                                   and prescription drugs from the mail. The OIG transmitted the findings to management and the
                                                                            U.S. Attorney's office for action deemed appropriate.
Senator,             Management intentionally delayed mail and              The investigation substantiated the delayed mail allegations and the findings went to                    6/30/2009
Texas                ordered employees to discard certain types of          management for action; the OIG also noted the stand-up talk did not impart the message that
                     mail at a Texas Post Office, and a stand-up talk       the Hotline welcomes employee reports of delayed mail, waste, and misconduct.
                     implied that such allegations to the OIG Hotline
                     are improper.
Senator,             Overcharge or misappropriation of funds on Post        The investigation did not substantiate the allegation.                                                   4/28/2009
South Dakota         Office box rental.
Senator,             Postal Service should prosecute postal managers        The investigation found no evidence of behavior warranting criminal or civil action beyond the           5/26/2009
Maryland             who lost an Equal Employment Opportunity case.         award given by the court.
Representative,      Internal mail theft of inaugural ball tickets.         The investigation did not substantiate the allegations; Special Agents determined the mailing            5/21/2009
South Carolina                                                              was damaged and then misrouted, but eventually reached its destination.
Representative,      Mail tampering, theft, delay; non-delivery; false      The investigation substantiated only the allegation that a carrier improperly endorsed the               6/15/2009
Virginia             endorsement of mail as "refused" by a carrier.         mailpiece; findings forwarded to management for action.
Representative,      Management misconduct; fraudulently reducing           The investigation substantiated allegations of falsifying mail volume reports; partially                  5/5/2009
Pennsylvania         mail volumes by falsifying mail volume reports;        substantiated the allegations of destroying mail; did not substantiate the allegations of diverting
                     diverting mail to other facilities; changing mail      mail to other facilities and changing mail processing color codes. The OIG reported allegations to
                     processing color codes; destruction of mail            management for action deemed appropriate.
                     in Philadelphia.
Representative,      Carrier stopped delivering mail to a home in           The investigation revealed employees wrongly believed the complainant's mailbox did not                   5/4/2009
Texas                retaliation for a complaint.                           meet postal standards. Misunderstanding of postal rules, not retaliation, was the basis for the
                                                                            suspension.
State Senator,       Misdelivery and non-delivery of mail; inadequate       An inaccurate listing of names at a complainant's cluster box, under the control of the                  4/28/2009
New York             implementation of an Accurate Delivery Verification    community association, was a factor; advised Triboro Consumer Affairs Office.
                     Card Program at a New York Post Office.
Representative,      Management misconduct; fraudulently reducing           The investigation substantiated allegations of falsifying mail volume reports; partially                  5/5/2009
Pennsylvania         mail volumes by falsifying mail volume reports;        substantiated the allegations of destroying mail; did not substantiate the allegations of diverting
                     diverting mail to other facilities; changing mail      mail to other facilities and changing mail processing color codes. The OIG reported allegations to
                     processing color codes; destruction of mail            management for action deemed appropriate.
                     in Philadelphia.
Representative,      Whistleblower reprisal for reporting supervisory       Complainant requested the OIG suspend its investigation.                                                 5/20/2009
Oklahoma             mismanagement and misconduct.
Senator, Texas       Mail tampering and theft of gift cards by postal       The investigation did not substantiate the allegations, and learned postal employees located two         5/14/2009
                     employees.                                             envelopes containing gift cards damaged by mail processing equipment and returned them to
                                                                            the sender.
Senator,             Mismanagement and wasteful spending at a               The investigation revealed management at the facility implemented a clerk standby operation,             5/13/2009
Tennessee            Tennessee facility; employees paid to sit in a room    which excesses employees based on workload to allow a determination of necessary work
                     for hours.                                             hours for mail conditions. Management's implementation was consistent with postal policy
                                                                            and union contracts.
Representative,      Theft of postal money orders.                          Investigation showed the money orders had not been stolen and were delivered and credited to              7/8/2009
New Jersey                                                                  the complainant's account.
Senator,             Mail tampering, theft, and misdelivery.                Investigation did not substantiate the allegations and found no evidence of mail tampering, theft,       5/21/2009
California                                                                  or misdelivery. The intended recipient received compensation from the Postal Service for the
                                                                            loss of an insured package.
Senator, Ohio        Delay of mail by employees at an Ohio Post Office.     Preliminary review found management took appropriate action regarding the handling of the                4/27/2009
                                                                            complainant's mail and employee misconduct issues.
Representative,      Mail tampering and identity theft.                     Investigation did not substantiate the allegations and found no evidence of mail tampering or             6/9/2009
Illinois                                                                    misconduct by postal employees.




68 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                                                       APPENDIX I




Requestor           Allegation/Concern                                      Major Findings                                                                                            Closure Date
Senator, Indiana    Whistleblower reprisal for cooperation during an        An OIG investigation showed the case did not meet the four necessary elements of whistleblower                  8/3/2009
                    OIG investigation; management wrongfully took           reprisal. The complainant failed to show that a protected communication was the basis for the
                    disciplinary action against complainant.                disciplinary action.
State Senator,      Non-delivery of political mailings.                     Inquiry revealed no evidence of misconduct related to the disappearance of the mailings, but                    5/5/2009
New York                                                                    Special Agents noted only five stations maintained proper log books.
Representative,     Mail theft of an international Registered Mail parcel   Investigation concluded the parcel was mishandled or stolen; however Special Agents did not                     8/1/2009
Ohio                after an attempted delivery.                            substantiate that a postal employee stole the package.
Representative,     Delay of mail; letter carrier route deviation.          Investigation did not substantiate the allegations; found widespread mail delays due to a                      7/15/2009
Georgia                                                                     county-mandated change in street address system which was not properly communicated to
                                                                            the Postal Service.
Representative,     An OIG Special Agent interfered with                    Special Agents believed they had complainant's permission to contact physician; IG Act provides                6/10/2009
New York            complainant's medical care, provided under              authority for such contact.
                    Workers' Compensation program.
Representative,     Mail tampering and theft by postal employees at a       A previous investigation found multiple mailers were sending complainant mail at an                            4/28/2009
New York            New York Post Office.                                   incorrect address.
Senator,            Mail tampering by postal employees at a West            Investigation did not substantiate the allegations. Special Agents learned management recovered                6/11/2009
West Virginia       Virginia Post Office.                                   a missing Express Mail piece and complainants assert problems have been resolved.
Representative,     Improper processing of a contractor's injury            Investigation did not substantiate allegations. Special Agents found management acted                           8/3/2009
Mississippi         report; harassment and discrimination; wrongful         appropriately in processing the injury report and found no evidence of misconduct by postal
                    investigation.                                          employees or the OIG towards the complainants.
Representative,     Harassment from OIG Special Agents through              Review showed the complainant was never the subject of an OIG or a Postal Inspection                           6/17/2009
Missouri            repeated surveillance.                                  Service investigation.
Representative,     Mail theft and delay.                                   Investigation did not substantiate the allegations. Special Agents found no evidence of mail theft             7/22/2009
Minnesota                                                                   or delay by postal employees.
Representative,     Postal manager conduct, including the improper          Investigation did not substantiate the allegation of intentional delay of a check, finding the                  7/2/2009
New York            delay of an IRS stimulus check to the complainant.      complainant moved without submitting a Change of Address form.
Governor, Florida   Nondelivery after wrongful filing of a Change of        Investigation revealed a Change of Address form submitted by a relative indicated all mail                     7/15/2009
                    Address form.                                           for family members should be forwarded to a new address. Management corrected and took
                                                                            additional steps to ensure the mail for each household was separated and delivered properly.
Senator,            Request for Postal Inspectors to return property        Review found the confiscated property was held by a District Attorney as evidence, out of the                  7/13/2009
California          confiscated during an investigation or provide          control of the Postal Inspection Service.
                    information on its probable return date; mail
                    delivery issues.
Senator, Alabama    Request for investigation in a Postal Inspection        Investigation did not find evidence of improprieties in the personnel process or actions taken.                6/10/2009
                    Service personnel action.
Senator,            Theft of prescription drugs sent by the Department      The investigation substantiated the allegations, finding an employee was stealing coins, cash,                  7/7/2009
South Dakota        of Veterans Affairs.                                    and prescription drugs from the mail. The OIG transmitted the findings to management and the
                                                                            U.S. Attorney's office for action deemed appropriate.
Senator, Arizona    Whistleblower reprisal resulting in reassignment.       An OIG investigation showed the reassignment did not result from complainant's disclosure.                     6/18/2009
Representative,     Internal mail theft and identity theft.                 Investigation did not substantiate the allegations due, in part, to the complainant not retaining for           7/8/2009
New York                                                                    OIG examination the damaged, empty envelope he received.
Representative,     Poor service, delay of mail, mail theft, receipt of     Investigation found no evidence of misconduct by postal employees. The damage to the mail was                  7/22/2009
Illinois            damaged mail.                                           consistent with damage normally caused by postal sorting machines.
Representative,     Mail tampering and theft by postal manager at a         Investigation did not substantiate the allegations, finding no evidence of mail tampering or theft             6/18/2009
Missouri            Missouri Post Office.                                   by postal employees.
Representative,     Mail delay at a Missouri facility.                      Investigation found a shortage of staffing caused significant delays in the re-wrap section. The                9/2/2009
Missouri                                                                    findings were forwarded to management for action deemed appropriate.
Representative,     Non-delivery of prescriptions mailed to rural           Investigation found no evidence of mishandled mail or theft by postal employees. Management                    7/22/2009
Alaska              residents in Alaska.                                    changed mail handling procedures, which altered the sorting locations of the prescriptions and
                                                                            resolved the concerns.




                                                                                                                                                                      April 1 – September 30, 2009 | 69
APPENDIX I




Requestor            Allegation/Concern                                        Major Findings                                                                                        Closure Date
Senator,             OIG agents offered to negotiate payment of cost           Investigation showed the complainant was responsible for the costs associated with the land;             9/21/2009
Minnesota            overruns on a construction contract; OIG Special          OIG Special Agents did not offer to negotiate with the complainant; the investigation was
                     Agents conducted an investigation in an untimely          prolonged by the complainant filing a revised claim, still seeking reimbursement for land costs.
                     and unprofessional manner.
Representative,      OIG investigation tainted employee's reputation;          The OIG conducted a 2008 investigation into allegations based upon its responsibility to detect          6/30/2009
New York             management violated of Uniformed Services                 fraud, waste, and misconduct in postal programs and operations under the IG Act, and did
                     Employment and Reemployment Rights Act of                 not substantiate the allegations against the complainant. The Department of Labor asserted
                     1994 (USERRA), including denial of a promotion.           jurisdiction over the complainant's USERRA claims; therefore, the OIG did not investigate the
                                                                               related allegations.
Representative,      Third-party complaint about an OIG personnel              No basis for investigative review.                                                                       7/14/2009
New York             action.
Senator,             Objection to an OIG investigation of the                  The OIG conducted its investigation into allegations based upon its responsibility to detect fraud,      7/14/2009
New Mexico           complainant, who has information that would tend          waste, and misconduct in postal programs and operations under the Inspector General Act of
                     to exonerate.                                             1978. Information provided by the complainant was added to the OIG investigative files, pursuant
                                                                               to the Privacy Act.
Senator,             Mail tampering and identity theft.                        Investigation did not substantiate the allegations and determined the tampering and theft were           9/14/2009
New York                                                                       likely external. OIG referred the matter to the Postal Inspection Service.
Representative,      Postal employee unlawfully opened or stole mail           Investigation revealed a postal employee delayed the mailings due to a belief the mailings were          8/14/2009
Illinois             sent from Representative's office.                        not permissible as franked mail. The investigation did not determine whether the mail was
                                                                               opened by postal employees.
Representative,      Management falsified time and attendance                  Preliminary review found the local union filed a grievance regarding the matter and a settlement         8/26/2009
Virginia             information at a Virginia facility.                       was reached.
Senator, Arizona     Status or outcome of an OIG investigation.                Review found the Postal Inspection Service and the FBI adequately addressed the allegations.             9/22/2009


Postal Inspection Service Investigations (31)
Requestor            Allegation/Concern                                        Major Findings                                                                                        Closure Date
Representative,      Mail fraud.                                               The complainant's actions deterred the attempted fraud. No further investigation planned.                 4/1/2009
Pennsylvania
Representative,      Mail fraud.                                               No jurisdiction over this civil contract dispute.                                                         4/7/2009
Virginia
Representative,      Potentially fraudulent activity due to receipt of large   A new letter carrier was instructed to halt such deliveries, which stemmed from a Change                  4/9/2009
California           quantities of mail not addressed to the complainant.      of Address order filed by a former resident of a nearby homeless shelter. Postal Inspectors
                                                                               attempted to find the filer. No fraud detected.
Representative,      Mail theft of a government check.                         Postal Inspectors determined the check intended for the complainant was stolen and cashed.               5/13/2009
Virginia                                                                       Due to a lack information regarding the check, Postal Inspectors could not determine the identity
                                                                               of the person responsible.
Senator,             Unsolicited mail; potential scam.                         The mailing, which we confirmed concerned a program authorized by federal statute, was                   4/16/2009
Arkansas                                                                       forwarded to the Criminal Investigations Service Center for review.
Representative,      Mail fraud scheme.                                        Allegations forwarded to Criminal Investigations Service Center for review.                              4/17/2009
Pennsylvania
City Council         Mail fraud scheme.                                        The Criminal Investigations Service Center entered the information provided by the complainant           4/16/2009
Member,                                                                        into the Fraud Complaint System for monitoring.
New York
Representative,      Sweepstakes mail fraud scheme.                            Allegations forwarded to Criminal Investigations Service Center for review.                              4/24/2009
Virginia
Senator, Virginia    Mail fraud scheme.                                        Allegations forwarded to Criminal Investigations Service Center for review.                              4/27/2009
Senator, Virginia    Unsolicited mail; potential scam.                         Allegations forwarded to Criminal Investigations Service Center for review.                              4/29/2009
Senator,             Unsolicited mail; potential scam.                         Allegations forwarded to Criminal Investigations Service Center for review.                              4/29/2006
Maryland




70 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                                                  APPENDIX I




Requestor         Allegation/Concern                                      Major Findings                                                                                         Closure Date
Representative,   Potentially threatening letter.                         Allegations forwarded to Criminal Investigations Service Center for review.                                  5/6/2009
Pennsylvania
Representative,   Mail fraud allegations against an employer.             Postal Inspectors could not complete an investigation due to lack of information provided by                5/21/2009
Colorado                                                                  the complainant.
Senator,          Potentially fraudulent and objectionable mailing.       Postal Inspectors determined the mailing was not non-mailable as a matter of law.                           6/11/2009
Pennsylvania
Representative,   Mail fraud scheme.                                      Allegations forwarded to Criminal Investigations Service Center for review.                                5/29/2009
Virginia
Senator,          Mail fraud.                                             Allegations forwarded to Criminal Investigations Service Center for review.                                  6/4/2009
Louisiana
Representative,   Mail fraud.                                             Allegations forwarded to Criminal Investigations Service Center for review.                                  6/4/2009
Pennsylvania
Representative,   Mail fraud.                                             Allegations forwarded to Criminal Investigations Service Center for review.                                 6/15/2009
Pennsylvania
Representative,   Mail fraud.                                             Allegations forwarded to Criminal Investigations Service Center for review.                                 6/16/2009
Florida
Senator,          Unauthorized change of address by an unknown            Postal Inspectors found complainant's address was changed without permission. Inspectors                    8/25/2009
Louisiana         person; identity theft.                                 advise was to place a fraud alert on credit reports.
Representative,   A box of trash, rather than an item purchased           Postal Inspectors contacted the sender, who sent another package with the items purchased.                 8/26/2009
Georgia           on-line, arrived in mail.
Senator,          Mail fraud.                                             Postal Inspectors determined the issue was a civil matter.                                                   8/3/2009
Tennessee
Representative,   Illegitimate unsolicited mailings.                      Postal Inspectors learned the sender was under investigation by a California agency. Inspectors             7/22/2009
California                                                                advised how to register for the Mail Preference Service to prevent receipt of similar mailings in
                                                                          the future.
Representative,   Postal Service discontinued residential mail service.   Consistent with postal policy, the local Postmaster discontinued service because there were                  8/6/2009
Virginia                                                                  no dwellings on the property associated with the addresses claimed by complainant. Postal
                                                                          Inspectors facilitated a meeting with management and the complainant, which resulted in an
                                                                          agreement allowing him to appeal to the District Consumer Affairs Office.
Representative,   Concerns about unsolicited mailings and                 A Postal Inspector determined the customer service department of the company could remove                   7/27/2009
California        complainant's unsuccessful attempts to opt out.         the complainant from the mailing list. No fraud detected.
Senator,          Mail withheld and destroyed by officials at a           Postal Inspectors reviewed and found no evidence of officials withholding, delaying, or                     9/17/2009
Pennsylvania      county prison.                                          destroying the complainant's mail.
Representative,   Foreign lottery mail fraud scheme.                      Postal Inspectors are working with U.S. Customs and Border Protection to shut down                          8/26/2009
Minnesota                                                                 such schemes.
Representative,   False representation in a scheme promising              Postal Inspectors conducted an investigation resulting in the closure of the mailbox used in the             9/8/2009
Pennsylvania      assistance in applying for housing grants.              scheme. The Postal Service issued a Cease and Desist Order; restitution is unlikely because of
                                                                          off-shore cashing practices the company used.
Representative,   Mail fraud scheme.                                      Allegations forwarded to Criminal Investigations Service Center for review.                                 8/31/2009
Pennsylvania
Representative,   Mail fraud scheme.                                      Allegations forwarded to Criminal Investigations Service Center for review.                                 9/14/2009
Virginia
Representative,   Mail fraud scheme.                                      Allegations forwarded to Criminal Investigations Service Center for review.                                9/23/2009
Pennsylvania




                                                                                                                                                                 April 1 – September 30, 2009 | 71
APPENDIX I




Joint Legal Services Center (42)
Requestor            Allegation/Concern                                     Major Findings                                                                                         Closure Date
Senator,             Lack of information on progress of a mail fraud        The case was thoroughly investigated by the Postal Inspection Service and referred to the Office           5/1/2009
Massachusetts        case.                                                  of the U.S. Attorney, for status information.
Representative,      Harassment, racism, favoritism, and falsification of   JLSC review found the workplace environment was stressful but did not substantiate allegations            5/20/2009
Texas                records by management at a Texas facility.             of racism and favoritism. JLSC noted District management was already actively involved in
                                                                            reviews of the facility's workplace.
Senator, Virginia    Inadequate Postal Inspection Service investigation     Review showed the Postal Inspector acted properly during the course of the investigation and its           5/7/2009
                     of a complaint.                                        presentation for prosecution.
Representative,      Hostile work environment; abuse of authority.          Review showed management did not abuse authority but did reveal some indicators                           6/18/2009
Arizona                                                                     that employees were unhappy with management in general, and transmitted the findings
                                                                            to management.
Representative,      Back pay owed to a postal employee for overtime        We could not substantiate any shortage of pay, in part because of our lack of access to records;          6/17/2009
North Carolina       worked.                                                management was requested to review the pay system for errors.
Senator, Florida     Obstruction of mail by a court clerk not delivering    The clerk handled the mail as authorized in his official employment capacity.                              4/9/2009
                     complainant's letter to a Justice.
Senator, Vermont     Misdelivery of mail; mail improperly opened and        Review showed a mail piece was delivered to a municipality because the complainant's address              4/20/2009
                     disseminated by a third party.                         seemed to indicate he was a local official. The inadvertent misdelivery led to its dissemination in
                                                                            a public forum during a municipal business session. The dissemination is not actionable as the
                                                                            Postal Service lost jurisdiction over the mail upon delivery; the U.S. Attorney's office therefore
                                                                            declined prosecution.
Senator, Texas       Harassment; violation of Postal policy; obstruction    Review did not substantiate allegations.                                                                  5/29/2009
                     of the EEO process by management at a Texas
                     Post Office.
Representative,      Employee transfer denied because of racial             Review declined so as not to interfere in pending litigation.                                              5/6/2009
Illinois             discrimination.
Ranking              The OIG ignored Hotline complaints regarding           Advised Subcommittee of previous audit, investigative, and workplace environment reviews                  4/21/2009
Member, House        delivery and customer service issues nationwide,       responsive to the issues raised.
Subcommittee         waste, fraud, and abuse including racial
                     discrimination, and labor contract violations at a
                     Texas facility.
Representative,      Discrimination and unfair employment practices by      Complainant declined to speak with OIG Special Agents under the advice of his attorney.                    6/9/2009
New Jersey           management at a New Jersey Post Office.
Representative,      FOIA request for an investigative file.                Two pages of records were released to the Member on behalf of his constituent.                            5/14/2009
Arkansas
Representative,      Inspection Service mail theft investigation should     Privacy interests barred release of information from the case file; matter of prosecution is left to       5/5/2009
North Carolina       have gone to prosecution.                              the discretion of other federal or local agencies.
Representative,      Availability of leave under the Family Medical Leave   Review found no misapplication of rules or laws. Managers, as the law requires, designated                9/17/2009
New Jersey           Act (FMLA) for an employee injured on the job.         the 2008 leave as FMLA when complainant provided information about injuries; this affected
                                                                            complainant's FMLA eligibility in the next calendar year.
Representative,      Complainant observed Letter Carrier harassment         OIG reviewed this allegation. Privacy interests bar the release of information to third parties.          6/10/2009
New York             by a manager.
Senator, Vermont     Management misconduct and interference                 Investigators and workplace evaluators did not substantiate allegations.                                  8/25/2009
                     with a State Police investigation; hostile work
                     environment; privacy violations.
Senator, Georgia     Mailing received included pornographic material.       Postal Inspectors determined the mailing, objectionable to the complainant, was not non-                  6/10/2009
                                                                            mailable as a matter of law; they provided information about enrolling in a Postal Service
                                                                            program which will bar mailer from sending additional sexually explicit items.
Representative,      Complainant observed Letter Carrier harassment         OIG reviewed this allegation. Privacy interests bar the release of information to third parties.          5/27/2009
New York             by a manager.
Representative,      Complainant observed Letter Carrier harassment         OIG reviewed this allegation. Privacy interests bar the release of information to third parties.          5/27/2009
New York             by a manager.




72 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                                                   APPENDIX I




Requestor           Allegation/Concern                                    Major Findings                                                                                          Closure Date
Senator, Illinois   Suggestions for improving postal leave accounting     Management expressed interest but noted suggested changes would violate union contract; best                 8/14/2009
                    policies for drivers.                                 course of action would be to approach the union.
Representative,     Information on how to file mail fraud complaints.     Form and filing instructions provided.                                                                        6/4/2009
California
Senator, Florida    Request for transfer due to hostile work              Management confirmed an assault occurred but provided no evidence that they informed Postal                  8/25/2009
                    environment created by a postal employee;             Inspectors at the time as required by postal rules. Workplace unit brought the matter to the
                    management failed to alert the Postal Inspection      attention of cognizant District managers and Inspectors. The complainant's transfer request was
                    Service of an assault on postal property;             the subject of an EEO filing with which the workplace unit will not interfere.
                    management failed to follow postal policy.
Senator, Florida    Request for transfer due to hostile work              Management confirmed an assault occurred but provided no evidence that they informed Postal                  8/25/2009
                    environment created by a postal employee;             Inspectors at the time as required by postal rules. Workplace unit brought the matter to the
                    management failed to alert the Postal Inspection      attention of cognizant District managers and Inspectors. The complainant's transfer request was
                    Service of an assault on postal property;             the subject of an EEO filing with which the workplace unit will not interfere.
                    management failed to follow postal policy.
Senator,            Improper change of address.                           Review showed change of address was filed with the local tax office, outside of postal                          6/15/09
Michigan                                                                  jurisdiction.
Representative,     Unsolicited mail.                                     Review showed no indication the mailing had fraudulent intent or that the mailer issued it as part           6/23/2009
Oregon                                                                    of a mail fraud scheme.
Representative,     Potentially fraudulent solicitation in the mail.      Review showed no indication the mailing had fraudulent intent or that the mailer issued it as part           6/23/2009
Pennsylvania                                                              of a mail fraud scheme.
Representative,     Request for OIG surveillance video.                   FOIA review determined release would be improper without a waiver from a third party in                      7/20/2009
Texas                                                                     the video.
Senator, Alabama    False representations in mailings used to solicit     Postal Inspectors investigated thoroughly, but found no support for prosecution by the U.S.                  7/22/2009
                    funds.                                                Attorney's Office or the Federal Trade Commission.
Representative,     Compensation issues for Postal Police Officers,       Contrary to complainant's assertion, the Postal Reform Act did not change PPO eligibility for                7/17/2009
Pennsylvania        including locality and availability pay; workplace    locality and availability pay. Legal counsel did not substantiate workplace allegations.
                    environment issues.
Representative,     Mail handler positions are being abolished, causing   Management confirmed several post offices are reposting jobs, but complainant has not lost                   8/12/2009
New Jersey          workplace stress.                                     his job. This process is part of a broad realignment effort to deal with unprecedented economic
                                                                          challenges, and the workplace unit found no basis to intervene.
Representative,     Request for assistance locating a certified letter.   Retrievable information on such a mailing is available only if the sender purchased delivery                 7/20/2009
Pennsylvania                                                              confirmation; if so, information is available on the postal public website.
Senator, Montana    Involuntary transfer.                                 The matter is the subject of pending EEO claim, and OIG will confine its activity to that process.            8/6/2009
Senator,            Request for assistance locating a certified letter.   Retrievable information on such a mailing is available only if the sender purchased delivery                 7/29/2009
Pennsylvania                                                              confirmation; if so, information is available on the postal public website.
Representative,     Questions about the validity of a mailing.            Review showed no indication the mailing had fraudulent intent or that the mailer issued it as part            8/4/2009
Pennsylvania                                                              of a mail fraud scheme.
Senator, Texas      Failure to accommodate employee's service-            Employee chose to file an EEO complaint on the same issues; workplace review found no                         9/3/2009
                    connected disability and uses medical information     overriding climate issues warranting further inquiry.
                    against him in an attempt to force him to retire.
Representative,     Mail theft.                                           Report had been entered in the Criminal Investigations Service Center database; Postal                       8/26/2009
Pennsylvania                                                              Inspectors contacted local police to advise on procedures.
Representative,     Mail fraud.                                           Allegations forwarded to Criminal Investigations Service Center for review.                                  8/25/2009
Pennsylvania
Senator,            Mail tampering.                                       Case closed after complainants declined to speak with Postal Inspectors.                                     9/14/2009
New York
Representative,     Request for information about crimes involving        Staff were directed to the Postal Inspection Service Legal Handbook discussion of "When Is It No              9/8/2009
Ohio                the mail.                                             Longer Considered 'Mail.'"




                                                                                                                                                                  April 1 – September 30, 2009 | 73
APPENDIX I




Requestor            Allegation/Concern                                     Major Findings                                                                                         Closure Date
Representative,      Presentation of additional evidence from victims of    Complainant directed to the Federal Bureau of Investigation and U.S. Attorney, where                      9/23/2009
Florida              investment fraud scheme investigation.                 prosecution is under consideration.
Senator, Ohio        Interference with mail delivery.                       Postal Inspectors attributed delivery problems to complainant filing multiple change of address           9/22/2009
                                                                            forms and worked with local postal officials to resolve the issue.
Representative,      Rate of compensation for postal spouse on              Directed complainant to Human Resources personnel for discussion of benefits.                             9/29/2009
Illinois             Reserve duty.


Inspector General Audits (15)
Requestor            Allegation/Concern                                     Major Findings                                                                                         Closure Date
Ranking              Violations of the Postal Service's relocation          Investigation did not substantiate that relocation rules were violated. Concurrent audit work             5/12/2009
Member, Senate       benefits program.                                      benchmarking comparable programs is discussed in the OA section of this publication.
Committee
Ranking              Violations of the Postal Service's relocation          Investigation did not substantiate that relocation rules were violated. Concurrent audit work             5/12/2009
Member, Senate       benefits program.                                      benchmarking comparable programs is discussed in the OA section of this publication.
Committee
Chairman, House      OIG studies on Postal Service use of alternative       OA has not yet conducted reviews specifically on efficacy of the Postal Service's alternative fuel        4/22/2009
Subcommittee         fuel vehicles; infrastructure considerations.          vehicles. Infrastructure is an important consideration, including energy storage and transfer;
                                                                            vehicle usage needs and patterns, operating maintenance requirements, and network planning.
Senator, Ohio        Consolidation at two Ohio facilities.                  The OIG provided information regarding plans for future audit work regarding the facilities.              4/28/2009
Chairman, House      Violations of the Postal Service's relocation          Investigation did not substantiate that relocation rules were violated. Concurrent audit work             5/12/2009
Subcommittee         benefits program.                                      benchmarking comparable programs is discussed in the OA section of this publication.
Ranking              Report all open recommendations from prior audits      The OIG provided information as requested.                                                                 5/1/2009
Member, House        and monetary benefits associated with them;
Committee            estimate how quickly each recommendation can
                     be implemented.
Representative,      Requested a copy of an OIG audit report.               The OIG provided a redacted report.                                                                       4/29/2006
California
Representative,      Concerns about consolidation of two Ohio facilities.   The OIG provided information regarding plans for future audit work regarding the facilities in            5/15/2009
Ohio                                                                        question.
Representative,      Concerns about consolidation of two Florida            The OIG provided information regarding plans for future audit work regarding the facilities.              6/15/2009
Florida              facilities.
Chairman, House      OIG provide information about the feasibility and      The Postal Service makes a particularly interesting national laboratory for testing technological         8/28/2009
Subcommittee         economics of a Postal Service fleet of electric        advancements of Electric Vehicles (EVs). Our study determined that use of EVs for Postal Service
                     plug-in delivery vehicles.                             deliveries is operationally feasible and could provide a valuable opportunity for the nation to test
                                                                            EV technology.
Senator, Iowa        Cost effectiveness of Postal Service contracts for     Review found the Postal Service used contractors to address a backlog of work which was                   6/29/2009
                     forensic laboratory services.                          at least as cost effective as hiring additional employees and allowed the labs to complete an
                                                                            important and time-sensitive project while reducing the backlog.
Representative,      Concerns about consolidation of two Florida            The OIG provided information regarding plans for future audit work regarding the facilities.              7/10/2009
Florida              facilities.
Representative,      Concerns about consolidation of two Texas              The OIG provided information regarding plans for future audit work regarding the facilities.              8/14/2009
Texas                facilities.
Senator,             Concerns about consolidation plans for a               The OIG provided information regarding plans for future audit work regarding the facilities.              9/23/2009
Pennsylvania         Pennsylvania facility.
Representative,      Concerns about consolidation plans for a               The OIG provided information regarding plans for future audit work regarding the facilities.              9/24/2009
Pennsylvania         Pennsylvania facility.




74 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                                            APPENDIX I




Referrals (12)
Requestor         Allegation/Concern                                    Referred To                                                                                        Closure Date
Representative,   Mail delivery and customer service issues.            Colorado Consumer Affairs Office.                                                                       4/27/2009
Colorado
Representative,   Whether information provided to the Federal           FBI.                                                                                                    5/13/2009
Texas             Bureau of Investigation regarding the Anthrax
                  investigation was properly investigated.
Representative,   Mail delivery and customer service issues.            South Jersey Consumer Affairs Office.                                                                    6/3/2009
New Jersey
Representative,   Postal employee termination.                          Postal Service Government Relations Office.                                                              7/1/2009
New Jersey
Representative,   Beneficiary access to postal benefits.                Postal Service Government Relations Office.                                                              7/9/2009
New Jersey
Senator, Texas    Work schedule adjustments in a Texas district.        Postal Service Government Relations Office.                                                             7/13/2009
Representative,   Return to duty following on-the-job injury.           Postal Service Government Relations Office.                                                             7/29.2009
California
Representative,   Validity of a mailing concerning elder law changes.   We could not confirm the existence of the organization named in the mailing and forwarded the           8/24/2009
Pennsylvania                                                            inquiry to the Criminal Investigations Service Center for further review.
Representative,   Postal Service incorrectly deducted complainant's     Postal Service Government Relations Office.                                                             8/17/2009
North Carolina    leave while on active duty.
Representative,   Assistance with a Family and Medical Leave Act        Postal Service Government Relations Office.                                                             8/18/2009
New Jersey        claim.
Senator,          Mail delivery issues.                                 Triboro Consumer Affairs Office.                                                                        9/21/2009
New York
Senator,          Postal Service sale of address information violates   Postal Service Government Relations Office.                                                            9/23/2009
Maryland          privacy rights.




                                                                                                                                                           April 1 – September 30, 2009 | 75
FREEDOM OF INFORMATION ACT/ WORKPLACE ENVIRONMENT




SUPPLEMENTAL INFORMATION                                                                               SUPPLEMENTAL INFORMATION
Freedom of Information Act                                                                             Workplace Environment
Beginning in fiscal year 2009, the Freedom of Information Act (FOIA)                                   The Joint Legal Services Center Workplace Environment unit reviews
functions for the Postal Inspection Service and Postal Service OIG were                                workplace environment and operational issues that may affect workplace
combined under the Joint Legal Services Center. The office operates                                    climate in postal facilities through the country. The OIG Hotline is the
independently of, but frequently coordinates with, its counterpart at the                              usual source for the complaints, but occasionally members of Congress,
Postal Service. The FOIA Office receives requests for records from the                                 the Governors, and postal management will raise concerns or forward
public, the media, and Postal Service employees. The FOIA, according to                                complaints appropriate for review by the unit. Complaint topics range from
the Department of Justice, “generally provides that any person has a right,                            sexual harassment and discrimination to workplace safety. Workplace
enforceable in court, to obtain access to federal agency records, except to                            Environment reviews are designed to identify systemic, rather than
the extent that such records (or portions of them) are protected from public                           individual, issues and foster postal management efforts toward providing
disclosure by one of nine exemptions.”                                                                 employees a stress-and adversity-free work environment.

For the period April 1 – September 30, 2009                                                            The unit accepts complaints from any postal employee, including OIG and
                                                                                                       Postal Inspection Service staff, providing an alternative to grievance and
                                                                                                       Equal Employment Opportunity processes. Reviews may result in fact-finding
Requests                                                            Number of Requests                 reports to management or referral for specific suggested action, such as
Carryover from prior period                                                                38          climate assessments.
Received during period                                                                    345
Total on hand during period                                                               383           Activities
                                                                                                        For the period April 1 – September 30, 2009
OIG Actions                                                         Number of Requests
Processed during the period                                                               351
                                                                                                        Complaints received                                                       Total
Requests denied in full                                                                    32
                                                                                                        Carryover from prior period                                                 34
Requests denied in part                                                                   123           Complaints received from OIG Hotline, Congress, Governors,
                                                                                                                                                                                   262
Requests Granted in Full                                                                   22           Management, Internal, and

No records                                                                                 39                                                                                       —
                                                                                                        Other
Requests referred                                                                          65           Total on hand during this period                                           296
Requests withdrawn                                                                         14
Fee-related reasons                                                                          1
Records not reasonably described                                                             2
                                                                                                        Workplace environment actions                                             Total
                                                                                                        Complaints closed during this period                                       267
Not a proper FOIA request for some other reason                                            39
                                                                                                                     Referred to Postal Service management                          90
Not an agency record                                                                         5
                                                                                                                     Referred to Office of Investigations                           18
Duplicate request                                                                            9
                                                                                                                     Referred to Postal Inspection Service                           6
Balance                                                             Number of Requests                               Referred to the Joint Legal Services Center                    —
Balance at the end of the period (pending)                                                 32                        Referred to Office of Audit                                     2
                                                                                                                     Referred to Stakeholder Relations                               1
Processing Days                                                          Number of Days                              Summary of findings to Congress/BOG/Postal
                                                                                                                                                                                    12
Median processing days to respond to a FOIA request                                          8                       Service management
                                                                                                                     Referred to database for statistical analysis and possible
                                                                                                                                                                                   137
                                                                                                                     systemic review
                                                                                                                     Fact-finding reports issued to OIG management                   1
                                                                                                        Referrals pending at the end of the period                                  29




76 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                              JURISDICTION AND LAWS




Jurisdiction and Laws

More than 200 federal laws are enforced by Postal              Narcotics and Controlled Substances
Inspectors and OIG Special Agents through investigations       (21 USC 841, 843, 844; 18 USC 1716)
of crimes that impact the Postal Service. A wide array of      Postal Inspectors initiate investigations related to
federal statutes are used to ferret out fraud, waste and       transporting and distributing narcotics through the
misconduct in government agencies, including the Postal        mail when employees are not involved. Special Agents
Service. Generally, crimes related to the U.S. Mail are        investigate the sale or distribution of illegal narcotics by
covered in Title 18, United States Code, Sections 1691-        employees in the postal workplace or while on duty.
1737, while others affecting the Postal Service are codified
under Title 39. Shown here are some of the most important      Delay, Destruction or Obstruction of Mail
areas of jurisdiction.                                         (18 USC 1700, 1701, 1702, 1703)
Assaults (18 USC 111, 1114)                                    Both agencies uphold federal statutes aimed at securing
                                                               customers’ mail, including statutes related to the
The protection of Postal Service employees is one of the       desertion, obstruction, delay, or destruction of mail.
Postal Inspection Service’s most important responsibilities.   Special Agents investigate incidents involving postal
Postal Inspectors promptly investigate assaults and threats    employees and contractors. Postal Inspectors investigate
that occur while postal employees are performing official      incidents involving outsiders.
duties or as a result of their employment.
                                                               Electronic Crimes
Bombs (18 USC 1716)                                            (18 USC 1029, 1030, 1037, 1343, 2701)
Although a rare crime, Postal Inspectors give high             Both agencies investigate electronic or “cybercrimes.”
investigative priority to the mailing of bombs, due to the     Postal Inspectors protect customers from fraud schemes
severe impact it can have on postal customers, employees,      and other crimes that may occur online and involve the
and operations.                                                misuse of the mail or of the Postal Service. Special Agents
                                                               investigate intrusions into the Postal Service computer
Burglary (18 USC 2115)
                                                               networks or misuse of those systems by postal employees.
Postal Inspectors respond to and investigate burglary
incidents.                                                     Embezzlement, Theft or Destruction of Public Money,
                                                               Property or Records (18 USC 641, 1711)
Child Exploitation
                                                               The OIG investigates theft or embezzlement of postal funds
(18 USC 1470, 2251- 2254, 2422-2425)
                                                               by postal employees.
The Postal Inspection Service is recognized as one of
the leading federal law enforcement agencies combating         Extortion (18 USC 873, 876, 877)
the production, distribution, receipt, and possession of       Postal Inspectors investigate extortion and blackmail when
child pornography and other crimes related to the sexual       demands for ransoms or rewards are sent through the mail.
exploitation of children through the mail and the Internet.
                                                               False Statements (18 USC 1001)
Contract Fraud (18 USC 201, 440, 441)
                                                               Both agencies use this statute in their investigations.
The OIG aids the Postal Service by aggressively
investigating allegations of fraud, waste, misconduct          Forfeiture (18 USC 981, 982)
and other contract improprieties in the thousands of
                                                               Agents from both agencies use criminal and civil forfeiture
postal contracts.
                                                               statutes, when appropriate, to seize assets associated with
Credit Card Fraud                                              criminal acts.
(15 USC 1644; Access Device Fraud: 18 USC 1029)
                                                               Identity Fraud (18 USC 1028)
Both agencies investigate credit card fraud, and often work
                                                               Identity fraud victimizes millions of Americans each year.
jointly on cases involving postal employees and outsiders.
                                                               Both agencies play a role in investigating this crime. The
Special Agents investigate postal employees who misuse
                                                               Postal Inspection Service investigates identity theft and
government credit cards or steal cards from the mail
                                                               account takeovers when there is a nexus to the mail or the
and use them or sell them to others. Postal Inspectors
                                                               Postal Service. Special Agents investigate cases where a
investigate cards stolen from the mail by outsiders.
                                                               postal employee steals mail to obtain personal information.




                                                                                                                              April 1 – September 30, 2009 | 77
JURISDICTION AND LAWS




                                              Injury Compensation Fraud (18 USC 287, 1919, 1920)                  Money Orders, Counterfeit Stamps, and Related
                                              Schemes by healthcare providers and postal employees                Crimes (18 USC 500, 501, 503, 1720)
                                              to defraud the workers’ compensation system cost the                Postal Inspectors pursue criminals who forge, alter, or
                                              Postal Service millions of dollars annually. Special Agents’        counterfeit postal money orders, postage stamps, and other
                                              investigative work saves the Postal Service millions in long-       stamp products. Special Agents investigate employees who
                                              term costs and deters others from abusing the system.               manipulate postal money orders or funds.

                                              Kickbacks, Bribes and Gratuities                                    Obscenity and Sexually Oriented Advertising
                                              (41 USC 51-53; 18 USC 201)                                          (18 USC 1461, 1463, 1735 and 39 USC 3010)
                                              Special Agents investigate contract irregularities and              Postal Inspectors follow court-established guidelines to
                                              frauds — including kickbacks, bribes, and gratuities to             uphold obscenity standards, which prohibit “obscene,
                                              postal employees.                                                   lascivious, indecent, filthy, or vile” mailings. Customers who
                                                                                                                  wish to halt mailings of sexually oriented advertisements
                                              Lotteries (18 USC 1301, 1302, 1303 and 39 USC 3005)                 or similar solicitations may complete and submit PS Form
                                              Postal Inspectors protect consumers by strictly enforcing           1500, available at Post Offices or online.
                                              all laws related to importing, transporting, and mailing
                                              lottery tickets. Under the false representations and lottery        Robbery (18 USC 2114)
                                              statute (3005), Postal Inspectors are authorized to instruct        Postal Inspectors respond promptly to robberies of postal
                                              Postmasters to withhold from delivery and return to sender          employees, facilities, vehicles and postal contractors.
                                              any mail that violates the law.
                                                                                                                  Theft of Mail (18 USC 1708, 1709)
                                              Mail Fraud                                                          Theft of mail is a primary investigative responsibility of both
                                              (18 USC 1341, 1342, 1345 and 39 USC 3005, 3007)                     agencies. Postal Inspectors investigate external incidents,
                                              The Postal Inspection Service is committed to protecting            including Postal Service contractors who transport mail to
                                              postal customers from being defrauded through the mail.             postal facilities. Special Agents investigate thefts by postal
                                              Postal Inspectors place special emphasis on mail fraud              employees and contractors.
                                              scams related to advance fees, boiler rooms, health care,
                                              insurance, investments, deceptive mailings, and other               Theft of Postal Property (18 USC 1707)
                                              consumer fraud — especially when it targets the elderly or          Misconduct by postal employees is investigated by Special
                                              other vulnerable groups.                                            Agents and includes theft, destruction, or misuse of Postal
                                                                                                                  Service property or equipment.
                                              Mail or Mailbox Destruction (18 USC 1705)
                                              The Postal Inspection Service is committed to ensuring the          Whistleblower Protection
                                              safety of the nation’s mail by securing letter boxes or other       (Employee and Labor Relations Manual 666.18, 666.3 et. seq.)
                                              receptacles for U.S. Mail. To this end, Postal Inspectors           This rule protects postal employees from reprisal resulting
                                              aggressively pursue individuals who willfully or maliciously        from disclosure of information evidencing a violation of law
                                              injure or destroy such receptacles.                                 or regulation; waste, mismanagement, or abuse; or danger
                                                                                                                  to public health or safety. Special Agents investigate
                                              Money Laundering (18 USC 1956, 1957)                                reprisal allegations.
                                              Special Agents and Postal Inspectors investigate criminals
                                              who attempt to conceal the proceeds of illegal acts through
                                              monetary transactions. They identify and seize criminals’
                                              assets, denying violators the proceeds of their crimes.




78 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                               ACRONYM GUIDE




Acronym Guide

AFIS Automated Fingerprint            GIS Geospatial Information System       PKI Public Key Infrastructure
  Identification System
                                      HCR Highway Contract Route              PNEMS Postal Notification Emergency
AMC Airport mail center                                                         Management System
                                      IBI-RP Information Based Indicia-
APC Automated Postal Center              Revenue Protection                   Postal Act of 2006 Postal
                                                                                Accountability and Enhancement
APPS Automated Package Processing     ICE Immigration and Customs
                                                                                Act of 2006
  System                                Enforcement
                                                                              PPO Postal Police Officers
ATF Bureau of Alcohol, Tobacco,       IED Improvised Explosive Device
  Firearms, and Explosives                                                    PRC Postal Regulatory Commission
                                      IEMP Integrated Emergency
AVSEC Postal Service’s Aviation         Management Plan                       PSA Public Service Announcement
  Security
                                      IPR Center National Intellectual        PSG Postal Security Group
CBU Cluster Box Unit                    Property Rights Coordination Center
                                                                              PSRHBF Postal Service Retiree Health
CEO Chief Executive Officer           ISC International Service Center          Benefits Fund
CERT CC Computer Emergency            LLV Long-Life Vehicle                   Public Law 111-68 Continuing
  Response Team Coordination                                                    Appropriations Resolution, 2010
                                      MFID Major Fraud Investigations
  Center
                                       Division                               PVS Postal Vehicle Services
COD Collect on Delivery
                                      MPE Mail Processing Equipment           SEC Securities and Exchange
COR Contracting Officer                                                         Commission
                                      NCFTA National Cyber and Forensic
  Representative
                                        Training Alliance                     SISC Security Investigations Service
CPU Contract Postal Unit                                                        Center
                                      NDC Network Distribution Center
CY Calendar Year                                                              SOP Standard Operating Procedures
                                      NDCBU Neighborhood Delivery and
DCIS Defense Criminal Investigative     Collection Box Unit                   SPM Scheduled Preventive
  Service                                                                       Maintenance
                                      NEXS National Exercise Schedule
DHS Department of Homeland                                                    SSA Sales and Services Associate
                                      NICLE National Identity Crimes Law
  Security
                                        Enforcement                           SSN Social Security Number
DOA Delegations of Authority
                                      NTL National Trailer Lease              TAT Threat Assessment Team
DOJ Department of Justice
                                      OA Office of Audit                      TRC Temporary Relief Carrier
DOL U.S. Department of Labor
                                      OI Office of Investigations             UPU Universal Postal Union
DPS Delivery Point Sequencing
                                      OIG Office of Inspector General         V2G Vehicle to Grid
ECM Essential Crisis Management
                                      OPM Office of Personnel                 VMF Vehicle maintenance facilities
ePACS Enterprise Physical Access        Management’s
                                                                              VOCA Victims of Crime Act
  Control System
                                      OWCP Office of Workers’
                                                                              WAR White Aryan Resistance
EPRRS Emergency Preparedness            Compensation Program
  Response and Recovery Services
                                      P&DC Processing and Distribution
EV Electric Vehicles                    Center
FDA Food and Drug Administration      P&DF Processing and Distribution
                                        Facility
FMLA Family Medical Leave Act
                                      PANS Postal Alert Network System
FSS Flats Sequencing System
                                      PIN Personal Identification Number
FY Fiscal Year




                                                                                                                     April 1 – September 30, 2009 | 79
The following are among the many trademarks owned by the United States Postal Service: United States Postal Service®, U.S. Postal Service®, USPS®,
First-Class Mail®, usps.com®, Click-N-Ship®, Automated Postal Center®, APC®, Express Mail®, Priority Mail®, Standard Mail®, Parcel Post®,
Media Mail®, Customized MarketMail®, Intelligent Mail®, Parcel Select®, Express Mail International®, Quick, Easy, Convenient®, United States Postal
Service Office of Inspector General™, Post Office™, Postal Service™, Signature Confirmation™, Certified Mail™, Delivery Confirmation™, Registered Mail™,
ZIP Code™, Carrier Pickup™, Priority Mail International™, First-Class Mail International™, Premium Forwarding Service™, Forever Stamp™ and Postmaster
General™. The Sonic Eagle Logo, Round Top Collection Box design, Letter Carrier Uniform design, and the Mail Truck design are also trademarks belonging
to the United States Postal Service.
CHAPTER TITLE


U.S. POSTAL SERVICE OFFICE OF INSPECTOR GENERAL
1735 N. Lynn Street, Arlington, VA 22209-2020
1.888.USPS OIG (1.888.877.7644) Fax: 703.248.2291 www.uspsoig.gov

U.S. POSTAL INSPECTION SERVICE
475 L’Enfant Plaza SW, Washington, DC 20260-2112
1.877.876.2455 http://postalinspectors.uspis.gov/




82 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
